No. ________

IN THE

Supreme Court of the United States
_____________

LONE STAR SILICON INNOVATIONS LLC,
v.

Petitioner,

ANDREI IANCU, Under Secretary of Commerce for
Intellectual Property and Director of the United
States Patent and Trademark Office,
_____________

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Federal Circuit
_____________
PETITION FOR WRIT OF CERTIORARI
_____________
TIMOTHY P. MALONEY
Counsel of Record
NICHOLAS T. PETERS
DAVID A. GOSSE
FITCH, EVEN, TABIN &
FLANNERY LLP
120 S. LaSalle Street
Suite 2100
Chicago, IL 60603
(312) 577-7000
tpmalo@fitcheven.com
Counsel for Petitioner

i
QUESTIONS PRESENTED
Any person, other than the patent owner, may
request initiation of inter partes review proceedings
against an issued patent, by filing a petition with the
Patent and Trademark Office that identifies
challenged claims and the grounds asserted for each
challenged claim. 35 U.S.C. §§ 311–12. The Patent
Trial and Appeal Board (“PTAB” or “Board”) decides
whether to institute trial, based on the information in
the petition and, if filed, a patent owner preliminary
response. 35 U.S.C. § 314. At the conclusion of an
instituted trial, the Board issues a final written
decision determining the patentability of any patent
claim challenged by the petitioner. 35 U.S.C. § 318.
The questions presented are:
(1) whether, in inter partes review proceedings, the
Board may issue a final written decision that
invalidates duly issued patent claims based on a
ground not asserted by the petitioner in the
corresponding petition; and
(2) whether judicial review is available to remedy
the Board’s unauthorized final decision invalidating
those claims based on a ground not asserted in the
petition.

ii
PARTIES TO THE PROCEEDING AND
RELATED CASES
Lone Star Silicon Innovations LLC (“LSSI”) was
appellant below in proceedings before the U.S. Court
of Appeals for the Federal Circuit. LSSI was the
respondent/patent owner in proceedings before the
PTAB.
Respondent Andrei Iancu, Under Secretary of
Commerce for Intellectual Property and Director of
the United States Patent and Trademark Office, was
an intervenor below at the Federal Circuit.
Micron Technologies, Inc. was initially an appellee
below, and was petitioner before the PTAB. While the
appeal was pending, the Federal Circuit granted
Micron Technologies, Inc.’s unopposed motion to
withdraw from further participation in the appeal,
upon their settlement of the case. Pursuant to Rule
12.6, petitioner believes that Micron Technologies,
Inc. has no interest in the outcome of this petition.

iii
RULE 29.6 DISCLOSURE STATEMENT
Petitioner Lone Star Semiconductor Innovations
LLC is a wholly owned subsidiary of Longhorn IP
LLC, which is wholly owned by Tanit Ventures Inc.
Tanit Ventures Inc. has no parent corporations and no
publicly held company owns 10% or more of its stock.

iv
TABLE OF CONTENTS
Page
QUESTIONS PRESENTED ........................................ i
PARTIES TO THE PROCEEDING AND RELATED
CASES ......................................................................... ii
RULE 29.6 DISCLOSURE STATEMENT ................ iii
TABLE OF CONTENTS ............................................ iv
TABLE OF AUTHORITIES ...................................... vi
PETITION FOR WRIT OF CERTIORARI ................ 1
OPINIONS BELOW ................................................... 1
JURISDICTION.......................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ......................................... 1
INTRODUCTION AND STATEMENT OF THE
CASE ........................................................................... 2
A.
AIA Trial Proceedings....................................... 2
B.
IPR Proceedings Before The PTAB .................. 4
C.
The Federal Circuit Appeal .............................. 8
REASONS FOR GRANTING THE PETITION ......... 9
I. THE DECISION BELOW PRESENTS ISSUES
OF EXCEPTIONAL IMPORTANCE ......................... 9
A.
Constraining the Board’s Final Written
Decision to Its Statutory Authority Is Critical to
the Efficient Operation of AIA Trials and the
Patent System ....................................................... 11
B.
The Scope of the Board's Authority to Decide
Inter Partes Review Is One of Several Means
Critical to Protecting Judicial Resources ............ 18
II.
THE DECISION BELOW IS INCORRECT ... 21

v
A.
The “No Appeal” Rule In § 314(d) Does Not
Preclude Review of the Grounds Relied Upon in
the Final Decision ................................................. 21
B.
Modifying the Combination of Teachings
Used to Establish The Existence Of The Claimed
Elements In The Prior Art Constitutes A New
Ground ................................................................... 22
CONCLUSION.......................................................... 29
APPENDICES
Appendix A:
Opinion of the United States Court
of Appeals for the Federal Circuit,
Filed June 12, 2020 .................. App. 1
Appendix B:
Opinion of the United States Court
of Appeals for the Federal Circuit,
Filed March 25, 2020 ............... App. 3
Appendix C:
Decision of the United States Patent
and Trademark Office, Patent Trial
and Appeal Board, Filed January 14,
2019 ........................................ App. 19
Appendix D:
Decision of the United States Patent
and Trademark Office, Patent Trial
and Appeal Board, Filed February 7,
2018 ........................................ App. 72
Appendix E:
Decision of the United States Patent
and Trademark Office, Patent Trial
and Appeal Board, Filed January 17,
2018 ........................................ App. 78
Appendix F:
Relevant Statutory
Provisions ............................ App. 100

vi
TABLE OF AUTHORITIES
Cases
Cuozzo Speed Techs., LLC v. Lee,
136 S.Ct. 2131 (2016) .......................................... 4, 9
ESIP Series 2, LLC v. Puzhen Life USA, LLC,
958 F.3d 1378 (Fed. Cir. 2020) ............................. 11
Facebook, Inc. v. Windy City Innovations, LLC,
973 F.3d 1321 (Fed. Cir. 2020) ............................. 10
Fall Line Patents, LLC v. Unified Patents, LLC,
818 F.App’x 1014 (Fed. Cir. July 28, 2020) .......... 11
Fitbit, Inc. v. Valencel, Inc.,
964 F.3d 1112 (Fed. Cir. 2020) ............................. 11
Henny Penny Corp. v. Frymaster LLC,
938 F.3d 1324 (Fed. Cir. 2019) ............................. 18
Intelligent Bio-Sys., Inc. v. Illumina Cambridge Ltd.,
821 F.3d 1359 (Fed. Cir. 2016) ............................. 12
IPR Licensing, Inc., In re,
942 F.3d 1363 (Fed. Cir. 2019) ............................. 15
Koninklijke Philips N.V. v. Google LLC,
948 F.3d 1330 (Fed. Cir. 2020) ...................... passim
KSR Int’l Co. v. Teleflex Inc.,
550 U.S. 398 (2007) ........................................... 5, 24
Magnum Oil Tools Int’l, Ltd., In re,
829 F.3d 1364 (Fed. Cir. 2016) ................. 15, 17, 28
Medichem, S.A. v. Rolabo, S.L.,
437 F.3d 1157 (Fed. Cir. 2006) ............................. 25
NuVasive, Inc., In re,
841 F.3d 966 (Fed. Cir. 2016) ............................... 15
Oil States Energy Servs., LLC v. Greene’s Energy
Grp., LLC,
138 S. Ct. 1365 (2018) ............................................. 2

vii
SAS Inst. v. Iancu,
138 S.Ct. 1348 (2018) ..................................... passim
SAS Institute, Inc. v. ComplementSoft, LLC,
825 F.3d 1341 (Fed. Cir. 2016) ............................. 28
Thryv Inc. v. Click-To-Call Techs. LP,
140 S.Ct. 1367 (2009) ...................................... 10, 22
Statutes
28 U.S.C. § 1254 .......................................................... 1
35 U.S.C. § 303 ...................................................... 2, 13
35 U.S.C. § 311 ................................................... i, 2, 11
35 U.S.C. § 312 ............................................. i, 2, 11, 12
35 U.S.C. § 313 ............................................................ 3
35 U.S.C. § 314 ................................................... passim
35 U.S.C. § 315 .................................................... 18, 19
35 U.S.C. § 316 .......................................................... 12
35 U.S.C. § 318 ....................................................... i, 12
35 U.S.C. § 319 ............................................................ 4
Other Authorities
H.R. REP. NO. 112-98 (2011) ................................. 2, 18
PTAB Consolidated Trial Practice Guide
(Nov. 2019)................................................... 3, 12, 13
S. REP. No. 110-259 (2008) ....................................... 18
USPTO Manual Patent Examination
and Procedure § 1214.01 ....................................... 14
Rules
Fed. R. Civ. Proc. 26 ................................................. 20
Fed. R. Civ. Proc. 33 ................................................. 20
Fed. R. Civ. Proc. 39 ................................................. 20
Fed. R. Civ. Proc. 50 ................................................. 20
Fed. R. Civ. Proc. 56 ................................................. 20

viii
N.D.Cal. Patent L.R. 3-3........................................... 20
N.D.Cal. Patent L.R. 4-1........................................... 20
Regulations
37 C.F.R. § 42.108 ....................................................... 3
37 C.F.R. § 42.120 ..................................................... 12
37 C.F.R. § 42.23 ....................................................... 13
37 C.F.R. § 42.4 ........................................................... 3

1

PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully requests a writ of certiorari
to review the judgment of the United States Court of
Appeals for the Federal Circuit.
OPINIONS BELOW
The Federal Circuit’s non-precedential opinion is
unreported, but available at 809 F.App’x 773 and is
reprinted in the Appendix to the Petition (“App.”) at
App. 3–18. Its non-precedential order denying
rehearing en banc is unreported and is reprinted at
App. 1–2.
The Final Written Decision of the Patent Trial and
Appeal Board (“PTAB” or “Board”) is reprinted at App.
19–71. The PTAB’s decision to institute inter partes
review is reprinted at App. 78–99, and its Decision
denying LSSI’s petition for rehearing is reprinted at
App. 72–77. Each of the PTAB’s decisions is
unreported.
JURISDICTION
On March 19, 2020, the Chief Justice extended the
deadline to file any petition for a writ of certiorari to
150 days from the date of the lower court order
denying a timely petition for rehearing. The Court of
Appeals denied petitioner’s timely filed petition for
rehearing en banc on June 12, 2020. App. 1. This
Court has jurisdiction under 28 U.S.C. § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Each of the statutory provisions at issue was
enacted by the Leahy-Smith America Invents Act
(AIA), Pub. L. No. 112-29, 125 Stat. 284 (2011), and is
now codified in Title 35 of the United States Code. The

2
text of each relevant provision is set forth at App. 100–
113.
INTRODUCTION AND STATEMENT OF THE
CASE
A. AIA Trial Proceedings
In 2011, Congress passed the Leahy-Smith
America Invents Act (“AIA”), which created trial
proceedings before the PTAB. Pub. L. No. 112-29, 125
Stat. 284 (2011). Congress explained that “[t]he Act
converts inter partes reexamination from an
examinational to an adjudicative proceeding, and
renames the proceeding ‘inter partes review.’” H.R.
REP. NO. 112-98, at 46–47 (2011).
Inter partes review is an adversarial adjudicatory
process, relying upon opposing parties who advocate
for and against validity of a challenged patent. Under
the AIA, “[a]ny person other than the patent owner
can file a petition for inter partes review.” Oil States
Energy Servs., LLC v. Greene’s Energy Grp., LLC, 138
S. Ct. 1365, 1371 (2018) (citing 35 U.S.C. § 311(a)
(2012 ed.)). Unlike ex parte reexamination the USPTO
cannot initiate an inter partes review proceeding of its
own volition. Compare 35 U.S.C. § 303(a) (“On his own
initiative, and any time, the Director may determine
whether a substantial new question of patentability is
raised by patents and publications discovered by him
. . .”) with SAS Inst. v. Iancu, 138 S.Ct. 1348, 1355
(2018) (section 311(a) “doesn't authorize the Director
to start proceedings on his own initiative.”).
Accordingly, the AIA requires the petition to identify
“with particularity, each claim challenged, the
grounds on which the challenge to each claim is based,
and the evidence that supports the grounds for the
challenge to each claim.” 35 U.S.C. § 312(a)(3); SAS

3
Inst., 138 S.Ct. at 1355–58. The patent owner has the
right to oppose the petition, by filing a preliminary
response that asserts “reasons why no inter partes
review should be instituted.” 35 U.S.C. § 313. Among
exemplary reasons not to institute, the patent owner
may argue that “[t]he prior art lacks a material
limitation in a challenged claim,” or that “[t]he prior
art does not teach or suggest a combination that the
petitioner is advocating.” PTAB Consolidated Trial
Practice
Guide
(Nov.
2019),
available
at
https://www.uspto.gov/TrialPracticeGuideConsolidat
ed.
To decide whether to institute trial, the Board 1 sits
in judgment to preliminarily determine whether “the
petition filed under section 311 and any response filed
under section 313 shows that there is a reasonable
likelihood that the petitioner would prevail with
respect to at least 1 of the claims challenged in the
petition.” 35 U.S.C. § 314(a). The AIA requires the
promulgation of regulations “setting forth the
standards for the showing of sufficient grounds to
institute a review under section 314(a).” But neither
the Director nor the Board has statutory authority to
conduct an IPR trial of its own design, i.e., that
departs from the invalidity challenges alleged in the
petition. See SAS Inst., 138 S.Ct. at 1355–56. Indeed,
the relevant regulations limit institution to “the
grounds of unpatentability asserted for each claim.”
37 C.F.R. § 42.108(a).
If the Board institutes trial, the adversarial
process continues, with “[m]any of the usual trappings
of litigation,” where the petitioner and the patent
1 The Director of the USPTO has designated authority under
§ 314 to the Board. See 37 C.F.R. § 42.4(a).

4
owner “conduct discovery and join issue in briefing
and at an oral hearing.” SAS Inst., 138 S.Ct. at 1354.
Ultimately, the Board must “issue a final written
decision with respect to the patentability of any patent
claim challenged by the petitioner and any new claim
added” by amendment. 35 U.S.C. § 318(a).
The AIA allows that “[a] party dissatisfied with the
final written decision of the Patent Trial and Appeal
Board under section 318(a) may appeal the decision”
to the Federal Circuit. 35 U.S.C. § 319. In contrast,
judicial review of the institution decision is generally
unavailable. 35 U.S.C. § 314(d); Cuozzo Speed Techs.,
LLC v. Lee, 136 S.Ct. 2131, 2139 (2016). But this
Court has emphasized that “nothing in § 314(d) or
Cuozzo withdraws our power to ensure that an inter
partes review proceeds in accordance with the law’s
demands.” SAS Inst., 138 S.Ct. at 1359.
B. IPR Proceedings Before the PTAB
This case began at the PTAB when Micron filed its
IPR Petition on June 9, 2017, challenging claims 1, 2,
5–7, and 10 of U.S. Patent No. 6,388,330 (“the ’330
patent”). JA60–128; see App. 4–5, 20. Micron asserted
a single ground of invalidity, arguing that all of the
claims are invalid for obviousness in view of a
particular combination of disclosures in Watatani 2
and Tanaka 3. JA70; see App. 4–5, 25.
Obviousness under 35 U.S.C. § 103 requires proof
that all elements of a claimed invention are taught or
suggested by the prior art and that one skilled in the
U.S. Patent No. 6,153,511 to Watatani et al.
Masayuki Tanaka et al., Low-k SiN Film for Cu
Interconnects Integration Fabricated by Ultra Low Temperature
Thermal CVD, 1999 Symposium on VLSI Technology, Digest of
Technical Papers, Session 4B-4, pp. 47-48.
2
3

5
art would be motivated to combine the teachings as
claimed. KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398,
406 (2007). In attempting to satisfy this requirement
with respect to independent claims 1 and 6, Micron
argued that Watatani’s first prior art embodiment,
shown in Watatani’s FIG. 1F, disclosed all elements
but one for each claim. JA95–104; JA108–119. For the
missing element, requiring “an etch stop layer of
silicon nitride . . . having a dielectric constant below
5.5,” Micron argued that Tanaka discloses a silicon
nitride material having a dielectric constant below
5.5. JA101–103; JA113–115.
Dependent claim 2, which includes all elements of
claim 1, further recites “the etch stop layer is a
multilayer structure.” Micron argued this further
element of claim 2 was disclosed by separate structure
illustrated in Watatani’s FIGS. 5A–5I:
Watatani expressly describes an etch
stop layer that includes “three or more
layers” of silicon nitride. Ex.1005,
Watatani, 7:54-55. Such multilayer
silicon nitride layers were well known in
the prior art Ex.1003, Fair Decl. ¶¶105107. Indeed, in its normal operation, the
prior art Novellus Concept One CVD
tool, which was widely used in the
semiconductor industry long before the
filing date of the 330 Patent, deposited
multilayer silicon nitride films through
“successive deposition.” Id. ¶106.
JA105. As quoted above, Micron cited the separate
SST 1987 article4 to support its argument that “[s]uch
4
Continuous Process CVD System,
TECHNOLOGY (Oct 1987) (“SST 1987”).

SOLID

STATE

6
multilayer structures,” meaning Watatani’s alleged
“three or more layers” of silicon nitride, were well
known. See JA105–106 (claim 2). Micron neither
argued nor supplied any evidence showing that the
“multilayer silicon nitride layers” disclosed by the SST
1987 article were used as etch stops. See id.
Dependent claim 7, which includes all elements of
claim 6, further recites “the via and channel etch stop
layers are a multilayer structure.” Micron argued
identically that this further element of claim 7 was
disclosed by Watatani’s FIGS. 5A–5I. JA119–120.
In attempting to prove that one skilled in the art
would have been motivated to combine these
teachings, Micron asserted that secondary references
would have motivated the use of Watatani’s
multilayer etch stop (shown in FIGS. 5A–5I) in the
conventional embodiment represented by Watatani’s
FIG. 1F:
Although Watatani describes the
multilayer silicon nitride etch stop in the
context of the embodiment of its claimed
invention, a POSA would have been
motivated to use Watatani’s multilayer
approach in any dual damascene
structure, including a conventional dual
damascene structure, in order to achieve
the advantages that the multilayer
approach provides.
JA106 (claim 2), JA121 (claim 7). Relying on the Wang
patent 5 and an expert declaration, the Petition further
asserted that a skilled artisan would have recognized
certain benefits to using a multilayer silicon nitride
etch stop. JA105–106, JA119–120. In addition, the
5

U.S. Patent No. 6,017,791

7
petition used the SST 1987 article to establish that a
system for producing a multilayer film was available
and that multilayer films were known to be more
uniform, proffering this as evidence of a motivation to
make the alleged combination with reasonable
expectation of success. JA105–106, JA120–121.
LSSI filed a Preliminary Response supported by an
expert declaration. JA140–207; JA1027–1107. Among
other arguments, LSSI argued that dependent claims
2 and 7 are not invalid over the asserted Tanaka and
Watatani references because Watatani teaches that
its multi-layer etch stop requires layers of different
materials and consequently fails to disclose the
claimed multilayer silicon nitride etch stop structure.
JA197–205.
The Board subsequently issued a Decision on
Institution, expressly agreeing that Watatani does not
disclose any etch stop layer formed of multiple layers
of silicon nitride. App. 78–100. “[W]e are persuaded,
at least at this stage of the proceeding, that Watatani
does not disclose the limitations of claims 2 and 7
under a claim construction that Petitioner concedes is
applicable
in
this
proceeding.”
App.
96.
Notwithstanding this factual finding, the Board
ordered institution of trial on each of the challenged
claims, including dependent claims 2 and 7. App. 99.
To justify institution, the Board invoked a distinct
theory of obviousness. Under the Board’s theory,
Watatani’s multilayer etch stop—formed of multiple
non-silicon nitride layers—is ignored in favor of the
allegedly general knowledge that multiple thin silicon
nitride layers could be produced and would yield more
uniform films. App. 96–98.

8
LSSI filed a Request for Rehearing seeking
reconsideration of the Board’s decision on claims 2
and 7 because the Board had instituted trial on a
ground of invalidity not asserted in Micron’s petition.
JA240–255; App. 72–76. The Board denied the
request, asserting that the Decision on Institution
was not based on a new ground because the SST 1987
article was used as evidence of the knowledge of a
skilled artisan. App. 75. In its subsequent patent
owner response, LSSI maintained that the Board
lacked authority to consider any ground not asserted
in Micron’s petition. App. 7. Micron filed a reply
supported in part by a newly cited Yota 6 article, and
LSSI filed a sur-reply to address Micron’s new
evidence. App. 7–8.
The Board entered a Final Written Decision,
concluding that all challenged claims were
unpatentable, including dependent claims 2 and 7.
App. 19–71. While the Board continued to
characterize its rationale as based on the combination
of Watatani and Tanaka, its reasoning ignored
Watatani and substituted SST 1987, Wang, and Yota
into the combination—explicitly replacing Watatani’s
etch stop structures. App. 58–59.
C. The Federal Circuit Appeal
LSSI appealed to the Federal Circuit from the
Board’s final written decision. The Federal Circuit
upheld the Board’s rulings invalidating all challenged
claims, including claims 2 and 7 of the ’330 patent.
App. 5. The Federal Circuit held that LSSI’s appeal
6 Jiro Yota et al., Comparison between HDP CVD and
PECVD Silicon Nitride for Advanced Interconnect Applications,
PROC. OF THE IEEE 2000 INT’L INTERCONNECT TECH.
CONFERENCE, 76–78 (IEEE Electron Devices Soc’y, 2000).

9
was barred by 35 U.S.C. § 314(d). App. 10. The court
reasoned that LSSI’s challenge was “‘closely tied’ to
the Board’s ‘decision to initiate inter partes review.’”
App. 13.
The Federal Circuit further held that the Board
was not “obliged to ‘ignore the skilled artisan’s
knowledge when determining whether it would have
been obvious to modify the prior art.’” App. 11. The
court held that the instituted ground, like the petition,
was based on Watatani in view of Tanaka, and that
“additional references were being relied on exclusively
for their teachings about what was well-known in the
art.” App. 12.
LSSI filed a petition for rehearing or rehearing en
banc, which the Federal Circuit denied in a per
curium decision with no further reasoning. App. 1–2.
REASONS FOR GRANTING THE PETITION
I.

THE
DECISION
BELOW PRESENTS
ISSUES OF EXCEPTIONAL IMPORTANCE
When expansively applied, the “no appeal” rule in
35 U.S.C. § 314(d) deprives aggrieved parties of their
right to appeal from final PTAB decisions that were
wrongly decided. This case is an example, because the
Federal Circuit broadly and erroneously interpreted
§ 314(d) by conflating review of the final PTAB
decision with review of the institution decision.
Although this Court has attempted to balance the
need for judicial review against the need for efficiency,
see Cuozzo, 136 S.Ct. at 2139–40, the effect of related
statutory language remains uncertain. Emphasizing
the “strong presumption” in favor of reviewability,
SAS Institute reasoned “Cuozzo concluded that
§ 314(d) precludes judicial review only of the director’s

10
‘initial determination’ under § 314(a) that ‘there is a
reasonable likelihood that the claims are
unpatentable on the grounds asserted.’” 138 S.Ct.
1359. SAS Institute therefore held that the Director
had exceeded his statutory authority, under 35 U.S.C.
§ 318, by limiting the inter partes review to fewer than
all of the claims that had been challenged. Id.
Subsequently, this Court clarified that § 314(d)
“indicates that a party generally cannot contend on
appeal that the agency should have refused ‘to
institute an inter partes review.’” Thryv Inc. v. ClickTo-Call Techs. LP, 140 S.Ct. 1367, 1373 (2009). Thryv
ultimately concluded that the time bar under § 315(b)
“is integral, indeed a condition on, institution,” which
therefore precludes review on appeal because
“§ 315(b) governs institution and nothing more.” Id.
But Thryv distinguished SAS Institute, because
appeals springing from § 318(a) based on “the manner
in which the agency’s review ‘proceeds’ once
instituted” are reviewable, in contrast to appeals
questioning “whether the agency should have
instituted review at all.” 140 S.Ct., at 1376.
Following Thryv, the Federal Circuit held that
§ 314(d) does not preclude review of the Director’s
discretion to join a follow-on petition filed by the same
PTAB petitioner “as a party” under § 315(c). Facebook,
Inc. v. Windy City Innovations, LLC, 973 F.3d 1321,
1332 (Fed. Cir. 2020). There, the Federal Circuit
distinguished Thryv, reasoning that “Windy City's
cross-appeal does not challenge the Board’s decision to
institute Facebook's follow-on petitions, but
challenges whether the Board’s joinder decisions
exceeded the statutory authority provided by §
315(c).” Id.

11
On other issues, the Federal Circuit’s application
of Thryv has significantly expanded the Board’s
discretion by expanding the scope of § 314(d). The
Federal Circuit has held that § 314(d) precludes
review of the Board’s real party-in-interest
determinations under 35 U.S.C. § 312(a)(2). ESIP
Series 2, LLC v. Puzhen Life USA, LLC, 958 F.3d
1378, 1386 (Fed. Cir. 2020); Fall Line Patents, LLC v.
Unified Patents, LLC, 818 F.App’x 1014, 1017–18
(Fed. Cir. July 28, 2020) (further holding that
mandamus review is unavailable to address real
party-in-interest determinations). The Federal
Circuit has also held that the Board’s acceptance of a
“tardy” petition and request for joinder, at the
institution phase, is not reviewable on appeal. Fitbit,
Inc. v. Valencel, Inc., 964 F.3d 1112, 1115 (Fed. Cir.
2020).
The bounds of the no-appeal rule under § 314(d)
remains a hotly litigated issue, and the Court’s
further guidance through this case would serve to
define the issue and provide certainty below.
A. Constraining the Board’s Final Written
Decision to Its Statutory Authority Is
Critical to the Efficient Operation of AIA
Trials and the Patent System
1. Appellate review protects the policies enacted
by Congress. AIA trials are supposed to provide a
streamlined process by relying on the petition to
define the scope of the trial. To initiate trial
proceedings, the AIA requires a petitioner to identify
grounds of invalidity, including evidence and
arguments. See 35 U.S.C. § 311 (petitioner initiates
IPR). Specifically, the petition must identify “with
particularity, each claim challenged, the grounds on
which the challenge to each claim is based, and the

12
evidence that supports the grounds for the challenge
to each claim.” 35 U.S.C. § 312(a). Inter partes review
proceeds in an expedited fashion, by design, which
places the “utmost importance” on identifying the
evidence
that
supports
the
ground
“with
particularity.” Intelligent Bio-Sys., Inc. v. Illumina
Cambridge Ltd., 821 F.3d 1359, 1369 (Fed. Cir. 2016)
(quoting 35 U.S.C. § 312(a)(3)). When deciding
whether to initiate a trial, the Board weighs the
grounds in view of contrary evidence and arguments
marshalled by the patent owner. See 35 U.S.C. §
318(a).
Accordingly, the AIA requires the petition to
identify the asserted grounds of invalidity “with
particularity,” such that the patent owner can
adequately respond through the limited briefing
afforded by the procedure. See 35 U.S.C. § 312(a)(3).
Contrary to the framework outlined in the AIA,
allowing the Board to inject new issues or modify the
asserted grounds prejudices the patent owner by
obligating the patent owner to dispute issues that the
petitioner never raised and as to which the Board is
an advocate rather than a neutral decision maker.
The AIA contemplates the patent owner response
as “a response to the petition . . . after an inter partes
review has been instituted. 35 U.S.C. § 316(a)(8)
(emphasis added). The USPTO’s regulations and trial
practice guide similarly allow the patent owner to file
“a response to the petition,” further explaining that
the “patent owner response is filed as an opposition.”
37 C.F.R. § 42.120 (emphasis added); see PTAB
Consolidated Trial Practice Guide, at 64–65. The
USPTO regulations allow a reply, which “may only
respond to arguments raised in the corresponding

13
opposition, patent owner preliminary response, or
patent owner response.” 37 C.F.R. § 42.23(b).
This process can efficiently hone the disputed
issues only if the rules are stringently followed. If the
petitioner’s reply asserts new evidence and arguments
in support of the grounds asserted in the petition
(such as additional evidence demonstrating the
knowledge of one skilled in the art or of motivation to
combine teachings in the prior art in the manner
alleged), this new information can now be addressed
through a patent owner sur-reply. See PTAB
Consolidated Trial Practice Guide, at 73–74.
In contrast, if the grounds of invalidity are
permitted to change during the proceeding, the patent
owner faces extreme prejudice. The petitioner’s reply
brief then becomes a tool of ambush, an opportunity to
interject new legal argument and evidence in support
of the new alternative ground after the patent owner
has filed its response and deposed petitioner’s expert.
A patent owner sur-reply is an inefficient and
inadequate remedy in this situation. In short, when
the Board introduces or otherwise permits new
grounds into the proceedings, it subverts the efficient
course of briefing that was core to the design of AIA
trials.
Congress recognized the need for separate ex parte
and inter partes procedures for reconsidering issued
patents. Ex parte reexamination provides a separate
mechanism by which the USPTO can reconsider an
issued patent. The Director can, sua sponte, raise
issues for ex parte reexamination. 35 U.S.C. § 303(a).
Once initiated, the reexamination is inquisitorial,
allowing USPTO examiners to weigh the art and
refine their rejections. But ex parte reexamination
includes procedural protections that prevent an

14
overzealous examiner or PTAB panel from
steamrolling the patent owner. In appeals to the
PTAB during these proceedings, when the PTAB
formulates a new ground of rejection, at the
applicant’s request the issue returns to the examiner
who will hear a fresh, unconstrained response from
the patent owner. USPTO Manual Patent
Examination and Procedure § 1214.01, available at
https://mpep.uspto.gov/RDMS/MPEP/e8r9#/e8r9/d0e
128986.html. This provides the patent owner with a
symmetric opportunity to address the new ground and
marshal additional evidence or argument in response.
Id.
In contrast to ex parte procedures, AIA trials are
designed to be speedy, efficient, and adversarial. The
PTAB subverts Congressional intent by introducing or
otherwise allowing new grounds in the proceedings.
Such changes substantially affect the balance of
efficiency and fairness outlined by Congress in the
America Invents Act.
Moreover, by pursuing separate invalidity theories
of its own making, the Board risks becoming
improperly vested in a negative outcome for patent
owners. Even the appearance of bias undercuts the
legitimacy of the PTAB.
Appellate review and prohibition of new grounds is
the only way to ensure that the scope of AIA trial
proceedings stay within the prescribed scope (i.e., that
set forth in the petition) and the only way of
guaranteeing that the PTAB remains a neutral
arbiter of the specific invalidity issues raised by the
petitioner.
2. The Federal Circuit is capable of reviewing and
remedying board decisions that are based on improper

15
grounds, despite its lament that LSSI’s requested
relief would require the court to compare the Board’s
institution decision “to the particular language used
in Micron’s petition.” App. 13. First, the Federal
Circuit’s analysis applies to whether the Board’s final
decision adhered to the initial petition, not the Board’s
institution decision. Second, such analysis is typical
for the Federal Circuit on other issues.
Identifying when a final decision exceeds the
Board’s authority by relying on new grounds is
precisely within the ability of a reviewing court. The
limits imposed by the Administrative Procedure Act
(“APA”), requiring notice and opportunity to respond
to new grounds, are analogous even though they do
not control here. See Koninklijke Philips N.V. v.
Google LLC, 948 F.3d 1330, 1335–36 (Fed. Cir. 2020)
(nullifying improperly raised third ground identified
in the Board’s institution decision despite notice and
opportunity to respond to the new ground). Although
the APA serves different purposes than the structured
procedure defined by the AIA, improperly decided
cases must be unwound under either statute to give
effect to the Congress’s duly enacted laws. Comparing
the grounds relied upon by the Board to invalidate
claims to those asserted in a petition does not require
expertise beyond the ken of the Federal Circuit. That
court regularly evaluates the scope of grounds
asserted by examiners and the Board during
prosecution, and by petitioners and the Board during
IPR and other post-grant proceedings. See, e.g.,
Koninklijke Philips, 948 F.3d at 1335–36; In re IPR
Licensing, Inc., 942 F.3d 1363, 1369–70 (Fed. Cir.
2019); In re Magnum Oil Tools Int’l, Ltd., 829 F.3d
1364, 1377–78 (Fed. Cir. 2016); In re NuVasive, Inc.,
841 F.3d 966, 971 (Fed. Cir. 2016).

16
In the absence of judicial review, fairness to patent
owners in these streamlined IPR proceedings cannot
be assured. The Court’s precedents above, and the
assurances of procedural due process simply do not
provide adequate protection. This is especially true if
the rules of institution allow the Board to become an
advocate for the Petitioner.
3. The Federal Circuit’s decision in this case
evinces a conflict within its own precedent.
Separately, the Federal Circuit has held that the
Board lacks authority to invalidate on grounds that
are not presented in a petition for inter partes review.
Koninklijke Philips, 948 F.3d at 1335. In the case
below, the panel disregarded this binding precedent,
holding instead that such an issue is not appealable.
App. 10.
In Koninklijke Philips, the petition presented two
grounds of unpatentability: (1) anticipation by the
SMIL 1.0 reference, and (2) obviousness over SMIL
1.0 and the general knowledge of the skilled artisan
regarding distributed multimedia presentation
systems. 948 F.3d at 1333–34. The petition cited Hua
and an expert declaration as evidence that a
“pipelining” technique for dividing a media
presentation into multiple segments was well-known
and that the skilled artisan would have been
motivated to use pipelining with the software
disclosed in SMIL 1.0. Id. at 1334. The Board
instituted review on both grounds raised by Google, as
well as on an additional third ground: “obvious[ness]
over SMIL 1.0 and Hua based on the arguments and
evidence presented in the Petition.” Id. With respect
to the third ground, the Federal Circuit held that the
Board “erred by instituting inter partes review based
on a combination of prior art references not advanced

17
in Google’s petition.” Id. at 1335. This result followed
despite the third ground being based on the same
references cited in the petition.
The decision below is also inconsistent with the
Cuozzo and SAS Institute decisions and is not
required by Thryv. Each of those cases allows for
appellate review of the Board’s conduct of trial
proceedings
and
its
resulting
patentability
determinations under the longstanding policy
favoring judicial review of final administrative
actions. In SAS Institute, this Court observed that
“[f]rom the outset, we see that Congress chose to
structure a process in which it’s the petitioner, not the
Director, who gets to define the contours of the
proceeding.” SAS Institute, 138 S.Ct. at 1355. The
Federal Circuit must have the ability to enforce this
clear directive by ensuring that PTAB final decisions
stay within this limited scope.
Review after a final written decision carries
significantly different policy concerns, compared to
direct appeal from an institution decision. The
Federal Circuit has observed this difference, for
example, in Magnum Oil, where it found that the
Board erred in making a new obviousness argument
on behalf of the petitioner despite the USPTO’s
protest that the new theory “could have been included
in a properly-drafted petition.” 829 F.3d at 1380–81
(the PTO’s “authority is not so broad that it allows the
PTO to raise, address, and decide unpatentability
theories never presented by the petitioner.”). Nothing
in either 35 U.S.C. § 314(d) or Cuozzo prevents
appellate review of aspects of a Board’s final decision
“merely because its final analysis relies on statements
made when it initially considered the petition.” Id. at
1374 (distinguishing Cuozzo). This is exactly the

18
review power the Federal Circuit now discards in its
decision below.
Likewise, the Federal Circuit has reviewed a
PTAB petitioner’s assertion that the Board
improperly limited the scope of proceedings by
construing the grounds asserted in the petition too
narrowly. See Henny Penny Corp. v. Frymaster LLC,
938 F.3d 1324, 1330–31 (Fed. Cir. 2019) (“the Board
did not abuse its discretion by holding HPC to the
obviousness theory in its petition”).
In short, by conflating review of the institution
decision and final decision, the Federal Circuit
abrogates the responsibility it has previously claimed
to oversee the PTAB’s substantive review process.
B. The Scope of the Board's Authority to
Decide Inter Partes Review Is One of
Several Means Critical to Protecting
Judicial Resources
Recognizing that the extensive process afforded in
a civil action does not suit the needs of every patent
dispute, Congress enacted the AIA to provide a “quick
and cost effective alternativ[e] to litigation.” H.R. REP.
NO. 112-98, at 48; see also S. REP. No. 110-259, at 20
(2008) (Inter partes review is “a quick, inexpensive,
and reliable alternative to district court litigation”).
Access to inter partes review, however, is not
without tradeoffs designed to protect judicial
resources—both at the PTAB and in the district
courts. Filing a PTAB petition may cause the USPTO
Director to stay, transfer, consolidate, or terminate copending ex parte reexaminations, reissues, and
derivation proceedings at the USPTO. 35 U.S.C.
§ 315(d). If the PTAB issues a final written decision,
estoppel attaches to the PTAB petitioner or the real

19
party in interest or privy of the petitioner, preventing
them from challenging the patent at the USPTO or in
a civil action. 35 U.S.C. § 315(e). Further, even a
meritorious petition is subject to denial at the
discretion of the USPTO Director. See 35 U.S.C. §
314(a).
To further protect judicial resources, the statutory
framework of the AIA limited the Board’s authority to
institute and maintain inter partes review. “An inter
partes review may not be instituted if, before the date
on which the petition for such a review is filed, the
petitioner or real party in interest filed a civil action
challenging the validity of a claim of the patent.” 35
U.S.C. § 315(a)(1). Civil actions are automatically
stayed if filed by a PTAB petitioner or real party in
interest after they filed a PTAB petition. 35 U.S.C.
§ 315(a)(2). And PTAB petitioners are given a limited
period of time for initiating inter partes review. 35
U.S.C. § 315(b). In the context of these safeguards,
allowing the Board to adopt grounds not asserted in
the petition risks upsetting the judicial efficiencies
that Congress intentionally built into inter partes
review at the PTAB.
Further, accused infringers are not without
recourse where the scope of inter partes review is
limited to the invalidity grounds articulated within
the four corners of the petition. The petitioner has
broad latitude to select the grounds to assert and to
develop those grounds in its petition. Every invalidity
theory is available to the accused infringer as a
defense in a civil action where inter partes review is
denied because of an inadequate petition.
And if the accused infringer needs time to develop
its invalidity theories, district court civil actions
afford the opportunity. Early in the lawsuit, the

20
parties exchange contention interrogatories or local
patent rule disclosures. See Fed. R. Civ. Proc. 33(a)(2);
see, e.g., N.D.Cal. Patent L.R. 3-3, available at
https://cand.uscourts.gov/wp-content/uploads/localrules/patent-local-rules/Patent_Local_Rules_112020.pdf. Many district courts conduct a Markman
hearing and rule on claim construction issues. See,
e.g., N.D.Cal. Patent L.R. 4-1 et seq. The parties
typically exchange expert reports evaluating patent
validity. See Fed. R. Civ. Proc. 26(a)(2)(B).
Subsequently, the parties brief motions for summary
judgment (Fed. R. Civ. Proc. 56), conduct trial before
a judge or jury (Fed. R. Civ. Proc. 39), and brief
motions for judgment as matter of law (Fed. R. Civ.
Proc. 50). At each step, the parties refine their
theories and narrow the corresponding disputed facts.
Moreover, in a case where an accused infringer
loses an inter partes review trial, other defenses are
available in a civil action, for example, invalidity
based on prior use, patent eligibility, indefiniteness,
among others. Lastly, an accused infringer knows the
trade-offs between pursuing invalidity defenses in an
inter partes review as opposed to during the course of
a civil action. Losing a defense in a civil action because
of a poorly constructed inter partes review theory is
simply one such risk assumed by the accused infringer
in filing an inter partes review petition.
The PTAB threatens this delicate balance of tradeoffs when it modifies the theories introduced by
petitioners and then invalidates claims under the
modified theories in a final decision. By deciding that
it cannot review such shifts of theory in final
decisions, the Federal Circuit emboldens the PTAB to
engage in this unauthorized practice and eliminates

21
the necessary means for protecting the balance
enacted by Congress.
II. THE DECISION BELOW IS INCORRECT
The Federal Circuit incorrectly upheld the Board’s
final written decision by misapprehending this
Court’s precedent regarding the scope of the “no
appeal” rule in § 314(d), and by misconstruing the
Board’s analysis of invalidity.
A. The “No Appeal” Rule In § 314(d) Does Not
Preclude Review of the Grounds Relied
Upon in the Final Written Decision
The panel decision incorrectly characterized
LSSI’s appeal as a challenge to the grounds asserted
in the Board’s institution decision and therefor
concluded that § 314(d) prevents appellate review of
the Board’s grounds. App. 10. But this case appeals
the Board’s final decision, just like Koninklijke
Philips, where the Federal Circuit reviewed a final
decision from the Board and held “the Board erred by
instituting inter partes review based on a combination
of prior art references not advanced in [the] petition.”
948 F.3d at 1335.
SAS Institute emphasizes that the “no appeal”
clause in 35 U.S.C. §314(d) only makes the Board’s
decision whether to institute inter parties review nonappealable. 138 S. Ct. at 1359. LSSI’s appeal did not
challenge the Board’s decision to institute the IPR or
even its final determination invaliding independent
claims 1 and 6. Instead, LSSI challenges the Board’s
authority to invalidate the narrower dependent
claims 2 and 7 based on an invalidity theory that
deviated in critical respects from the single ground
alleged in the petition. In SAS Institute, this Court
reviewed the Board’s final written decision and held

22
that courts have authority to review the scope of IPR
trial proceedings. Id. (“nothing in §314(d) or Cuozzo
withdraws our power to ensure that an inter partes
review proceeds in accordance with the law’s
demands.”). SAS Institute therefore mandates
appellate review in cases such as this one, where the
Board has exceeded its statutory authority after
institution.
In contrast, Cuozzo addresses the Board’s
authority to institute trial. See SAS Institute, 138
S.Ct. at 1359. SAS Institute distinguished challenges
to the scope of the proceedings from “the Director's
conclusion that [petitioner] showed a ‘reasonable
likelihood’ of success sufficient to warrant
‘institut[ing] an inter partes review.’” Id. In Thryv,
decided after the Federal Circuit’s decision here, the
Supreme Court noted that SAS Institute remains
governing law, including its holding that the judicial
review is available “to ensure that an inter partes
review proceeds in accordance with the law’s
demands” once instituted. 140 S.Ct., at 1376. In
contrast, under Thryv, the Board’s time bar decisions
are not appealable because such an appeal “challenges
not the manner in which the agency's review
‘proceeds’ once instituted, but whether the agency
should have instituted review at all.” Id.
B. Modifying the Combination of Teachings
Used to Establish the Existence of the
Claimed Elements in the Prior Art
Constitutes a New Ground
The Federal Circuit failed to recognize that
modifying the combination of teachings used to
establish the existence of the claimed elements in the
prior art constitutes a new ground.

23
1. Micron’s PTAB petition asserted a single
ground of invalidity against claims 2 and 7.
Independent claims 1 and 6 each recite one or more
“etch stop layer of silicon nitride . . . having a dielectric
constant below 5.5.” JA56 (6:62–64), JA57 (7:23–8:6).
With respect to independent claims 1 and 6, the
petition alleged the claimed etch stop layer was the
“etching stopper film 12” and “etching stopper film 16”
in Watatani’s FIG. 1F. JA101–103 (claim 1), JA113–
118 (claim 6); see App. 35–36. According to the
Petition, the skilled artisan would have used Tanaka’s
low dielectric constant silicon nitride material to
replace Watatani’s silicon nitride etch stop layers 12
and 16. JA101–103, JA113–118; see App. 39.
Dependent claims 2 and 7 further recite “the etch
stop layer is a multilayer structure” (JA57 (7:3–4)
(claim 2)) and “the via and channel etch stop layers
are a multilayer structure” (JA57 (8:12–13) (claim 7)).
App. 54. But Watatani’s FIG. 1F embodiment utilizes
a single layer of silicon nitride to form etch stop layer
12 below channel and via dielectric layers. JA760
(FIG. 1F); see App. 54. The petition thus asserted that
the multilayer etch stop 81 shown in Watatani’s
separate FIG. 5 embodiment discloses the claimed
etch stop structure formed of multiple silicon nitride
layers. JA105, JA120; see App. 54.
Micron’s petition did not enumerate or describe
any alternate ground that attempted to demonstrate
the existence of the claimed multilayer etch stop
structure based on the general knowledge of those
skilled in the art. JA70, JA105–107, JA119–121.
Indeed, none of the other references cited in Micron’s
petition disclose an etch stop structure having a
multilayer construction, let alone such an etch stop
formed of multiple silicon nitride layers.

24
The SST 1987 article does not disclose etch stop
layers and was only cited to establish that equipment
was available to form multilayer films of the same
material. JA86, JA105–106, JA120–121 (citing
JA708–709). Micron’s petition never characterized
SST 1987 as disclosing an etch stop of silicon nitride
having a multilayer structure. The petition (JA105–
106, JA120–121), supporting expert declaration
(JA708–709), and reply (JA376) all carefully
characterized SST 1987 as disclosing nothing more
than a multilayer structure—not an etch stop. Micron
never asserted that the person skilled in the art would
have been motivated to apply the silicon nitride layers
disclosed by SST 1987 as an etch stop, as required by
law. See KSR, 550 U.S. at 406.
Micron’s petition cited Wang only to establish
knowledge that multilayer silicon nitride films have
fewer pinoles. JA106, JA121 (citing JA709–710). LSSI
demonstrated that Wang’s process does not disclose a
multilayer etch stop (JA338), petitioner did not rebut
this point (see JA376–382), and the Board ultimately
noted “Wang does not relate to etch stop layers” App.
59.
The Board recognized that Micron had
mischaracterized Watatani’s disclosure. In its
institution decision the Board found Watatani’s etch
stop structure 81 is not comprised of multiple layers
of silicon nitride App. 95–96, and the Board did not
deviate from this finding in its final written decision
App. 55-56, 58 fn. 19, 62 fn. 20. As a result, Micron’s
sole ground of invalidity was doomed because the
combination of elements alleged would not have led to
the claimed structure. The Micron petition’s related
assertions that a skilled artisan “would have been
motivated to use Watatani’s multilayer approach in

25
any dual damascene structure,” supported by the
motivation evidence allegedly supplied by SST 1987
and Wang, JA106–107; JA120–121, were rendered
nonsensical and moot given that Watatani’s
multilayer approach requires multiple layers of
different material. See Medichem, S.A. v. Rolabo, S.L.,
437 F.3d 1157, 1164 (Fed. Cir. 2006) (proper
obviousness analysis requires showing all elements of
the claimed invention are found in the art before
addressing motivation to combine and reasonable
expectation of success). In sum, the Board’s final
written decision obliterated the sole ground of
invalidity asserted in Micron’s petition, which should
have ended the inquiry.
2. The Board improperly replaced a primary
reference cited in the petition with a new reference
identified for the first time in petitioner’s reply brief.
The Federal Circuit incorrectly concluded that the
instituted ground, like the petition, was based on
Watatani in view of Tanaka, and that “additional
references were being relied on exclusively for their
teachings about what was well-known in the art.”
App. 11 – 12. The panel reasoned that the Board had
interpreted the petition as asserting that multilayer
silicon nitride layers were known in the prior art. Id.
But the claims do not recite multilayer silicon nitride
layers generally; they recite a multilayer silicon
nitride structure used as an etch stop layer at a
specific location of the device. Micron’s petition relied
exclusively on Watatani’s FIG. 5 embodiment to allege
that such a structure was known in art. However, the
Board found that Watatani’s FIG. 5 embodiment
requires an etch stop formed of multiple layers of
different materials and thus does not disclose an etch

26
stop layer formed of multiple silicon nitride layers.
App. 95–96.
Rather than requiring the petitioner to carry its
burden of proof based on the faulty ground alleged, the
Board permitted the petitioner to reconfigure its
theory, and ultimately accepted a new combination
that relied on Yota, a reference asserted for the first
time in the petitioner’s reply, to show that it was
known to use multilayer silicon nitride etch stops in
damascene structures. App. 58–59. (citing petitioner’s
Sur-Sur-Reply [JA426]; Ex. 1017 (reply declaration) ¶
33 [JA892]; and Ex. 1023 (Yota) [JA995–996]).
The new ground starts with the conventional
damascene structure of Watatani’s FIG. 1F, ignores
Watatani’s further teaching in FIG. 5 that multilayer
etch stop layers should be formed of different
materials, and ultimately relies on Yota and expert
testimony first submitted with the reply as evidence
that the POSA supposedly would have replaced the
single layer silicon nitride etch stop layers of
Watatani’s FIG. 1F with multiple layers of silicon
nitride.
Because its final decision relied on a ground that
abandons the multilayer etch stop structure 81 of
Watatani’s FIG. 5 device, the Board concluded “it is
unnecessary to address Petitioner’s contention that
Watatani discloses an etch stop layer that includes
three or more layers of silicon nitride.” App. 59, fn. 19.
This fundamentally altered the obviousness analysis
that was asserted in the petition, as the Board
acknowledged:
Because we do not rely on Watatani to
teach a multilayer silicon nitride etch
stop layer, we do not need to address

27
Patent Owner’s argument that this
feature is not disclosed by Watatani (PO
Resp. 54–56) or Patent Owner’s related
arguments regarding lack of motivation
(id. at 61, 63) and defeating the purpose
of Watatani’s structure (id. at 67–68).
App. 63, fn. 20.
The panel decision misconstrued the petition to the
extent it concluded that the petition alternatively
relied on anything other than Watatani’s FIG. 5
embodiment to allege it was known to use an etch stop
formed of multiple silicon nitride layers. The Federal
Circuit’s decision quotes the Board’s final decision for
the petition’s statement “that ‘multilayer silicon
nitride layers were well known in the prior art.’” App.
12. This quote plainly fails to establish that Micron’s
petition alleged or supplied evidence that it was
known to use multilayer silicon nitride structures as
etch stops in the circuit devices relevant to claims 2
and 7.
As discussed above, the Petition did not disclose or
develop a separate ground of unpatentability based on
SST 1987 or Wang, but without the multilayer etch
stop structure 81 of Watatani’s FIG. 5 embodiment.
Nor does the Petition separately analyze motivations
to combine the teachings of the SST 1987 article or the
Wang patent directly with either Watatani’s
conventional FIG. 1F embodiment or Tanaka’s silicon
nitride material. See JA70, JA105–107, JA119–121.
Because Micron’s petition does not disclose these
theories, SAS Institute prevents the Board from using
such theories in the final decision. Accordingly, the
Board’s final decision should have been limited to the
ground asserted in the petition, which relied solely on
the etch stop structure 81 in Watatani’s FIG. 5 for the

28
multilayer silicon nitride etch stop structure required
by claims 2 and 7.
The facts here are significantly more extreme than
those addressed in Koninklijke Philips, where the
Federal Circuit found an impermissible new ground
where the Board relied on Hua in combination with
SMIL 1.0 rather than solely to establish the
background knowledge of skilled artisans. 948 F.3d at
1334–35. Here, upon recognizing that the only
combination of prior art references asserted in the
petition would not have led to the combination of
elements as recited in claims 2 and 7, the Board
entertained a new ground that jettisoned critical
aspects of the evidence and rationale of the petition in
favor of a new combination based on Yota and
involving different issues regarding motivations to
combine.
The decision below analogizes this case to the
second ground in Koninklijke Philips, where the skill
of a skilled artisan is considered in an obviousness
analysis that was found to be properly set forth.
However, such an analogy does not fit this case. That
ground in Koninklijke Philips was presented in the
original petition. Here, the PTAB had to go outside of
the original ground in attempting to establish that a
portion of the claimed invention was in the prior art.
The Federal Circuit itself recognizes this exact kind of
theory shift as a new ground. See Magnum Oil, 829
F.3d at 1372–73, 1377; SAS Institute, Inc. v.
ComplementSoft, LLC, 825 F.3d 1341, 1351 (Fed. Cir.
2016), rev’d on other grounds sub nom., SAS Inst., Inc.
v. Iancu, 138 S.Ct. 1348 (2018). Indeed, such changes
in theory are exactly the kind that lead to
inefficiencies and unfairness in a streamlined
procedure like an inter partes review.

29
The Federal Circuit ignored the fundamental
manner in which the ground changed during the trial
proceeding, which is not permitted by the controlling
statutory scheme, and which therefore respectfully
requires review by this Court.
CONCLUSION
For the foregoing reasons, the Court should grant
the petition.
Respectfully submitted.
TIMOTHY P. MALONEY
Counsel of Record
NICHOLAS T. PETERS
DAVID A. GOSSE
FITCH, EVEN, TABIN &
FLANNERY LLP
120 S. LaSalle Street
Suite 2100
Chicago, IL 60603
(312) 577-7000
tpmalo@fitcheven.com
Counsel for Petitioner
November 9, 2020

App. 1
APPENDIX A
NOTE: This order is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
____________________________
LONE STAR SILICON INNOVATIONS LLC,
Appellant
v.
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL
PROPERTY AND DIRECTOR OF THE UNITED
STATES PATENT AND TRADEMARK OFFICE,
Intervenor
____________________________
2019-1669
____________________________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. IPR2017- 01566.
____________________________
ON PETITION FOR REHEARING EN BANC

App. 2
Before PROST, Chief Judge, NEWMAN, LOURIE,
SCHALL*, DYK, MOORE, O’MALLEY, REYNA,
WALLACH, TARANTO, CHEN, HUGHES, and
STOLL, Circuit Judges.
PER CURIAM.
ORDER
Appellant Lone Star Silicon Innovations LLC filed
a petition for rehearing en banc. The petition was
first referred as a petition for rehearing to the panel
that heard the appeal, and thereafter the petition for
rehearing en banc was referred to the circuit judges
who are in regular active service.
Upon consideration thereof, IT IS ORDERED
THAT:
The petition for panel rehearing is denied. The
petition for rehearing en banc is denied.
The mandate of the court will issue on June 19,
2020.

FOR THE COURT
June 12, 2020
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

* Circuit Judge Schall participated only in the decision on

the petition for panel rehearing.

App. 3
APPENDIX B
NOTE: This disposition is nonprecedential.
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
____________________________
LONE STAR SILICON INNOVATIONS LLC,
Appellant
v.
ANDREI IANCU, UNDER SECRETARY OF
COMMERCE FOR INTELLECTUAL
PROPERTY AND DIRECTOR OF THE UNITED
STATES PATENT AND TRADEMARK OFFICE,
Intervenor
____________________________
2019-1669
____________________________
Appeal from the United States Patent and
Trademark Office, Patent Trial and Appeal Board in
No. IPR2017-01566.
____________________________
Decided: March 25, 2020
____________________________
TIMOTHY P. MALONEY, Fitch, Even, Tabin &
Flannery, Chicago, IL, argued for appellant. Also
represented by NICHOLAS T. PETERS, DAVID
ALLEN GOSSE.
DANIEL KAZHDAN, Office of the Solicitor,
United States Patent and Trademark Office,
Alexandria, VA, argued for intervenor. Also

App. 4
represented by MAI-TRANG DUC DANG, THOMAS
W. KRAUSE, BRIAN RACILLA, FARHEENA
YASMEEN
RASHEED,
MEREDITH
HOPE
SCHOENFELD.
____________________________
Before LOURIE, SCHALL, and CHEN, Circuit
Judges.
LOURIE, Circuit Judge
Lone Star Silicon Innovations LLC (“Lone Star”)
appeals from the final written decision of the Patent
Trial and Appeal Board (“Board”) holding claims 2 and
7 of U.S. Patent 6,388,330 (the “’330 patent”)
unpatentable as obvious. For the reasons described
below, we affirm.
BACKGROUND
Lone Star is the owner of the ’330 patent, which is
directed to semiconductor etch stop layers with low
dielectric constants. An etch stop layer is made of
material that is resistant to the process used to etch
other layers of a semiconductor device and is deposited
between two other layers to allow those layers to be
etched separately. The invention of the ’330 patent
reduces capacitive coupling between layers of metal
interconnects by reducing the dielectric constant of
the etch stop layers to below 5.5, in contrast to the
prior art dielectric constants of 7.5 or higher.
Independent claims 1 and 6, which are not at issue
in this appeal, are directed to integrated circuits
comprising an “etch stop layer of silicon nitride . . .
having a dielectric constant below 5.5.” ’330 patent col.
6 ll. 62–64, col. 7 ll. 22–24, col. 8 ll. 4–6. Dependent
claims 2 and 7, which are at issue in this appeal, are
directed to the integrated circuits of claims 1 and 6

App. 5
respectively, wherein the silicon nitride etch stop
layer is a “multilayer structure.” Id. col. 7 ll. 3–4, col.
8 ll. 12–13.
Micron Technology, Inc. (“Micron”) petitioned for
inter partes review of claims 1, 2, 5, 6, 7, and 10. Micron
asserted a single ground in its petition, namely, that
the challenged claims were obvious over Watatani 1 in
view of Tanaka. 2 The petition stated: “The Ground is
explained below and is supported by the Declaration of
Dr. Richard B. Fair.” J.A. 70.
Within that single ground, Micron asserted two
separate theories regarding the prior art’s teaching of
the “multilayer structure” limitation in claims 2 and
7. In its first theory, Micron contended that “Watatani
expressly describes an etch stop layer that includes
‘three or more layers’ of silicon nitride.” J.A. 105
(citing Watatani col. 7 ll. 54–55). In its second theory,
Micron contended that “[s]uch multilayer silicon
nitride layers were well known in the prior art,” and
Micron supported this second theory with declaration
testimony from its expert as well as prior art
references Watatani, SST 1987, 3 and Wang. 4 See J.A.
105–07; see also J.A. 81–82 (“It Was Well Known In
The Prior Art To Form Multilayer Silicon Nitride Etch
Stop Films”).
The Board instituted review of the challenged
U.S. Patent 6,153,511.
Masayuki Tanaka et al., Low-k SiN Film for Cu Interconnects
Integration Fabricated by Ultra Low Temperature Thermal CVD,
in 1999 SYMPOSIUM ON VLSI TECHNOLOGY, DIGEST OF
TECHNICAL PAPERS, 47–48 (Bus. Center for Acad. Societies
Japan, 1999).
3 Novellus Sys., Continuous Process CVD System, 30 SOLID
STATE TECH., no. 10, Oct. 1987, at 49–50.
4 U.S. Patent 6,017,791.
1
2

App. 6
claims. J.A. 209. For the “multilayer structure” of
claims 2 and 7, the Board rejected Micron’s first
theory, i.e., the theory based on the description in
Watatani. J.A. 224 (“On this record, we agree with
Patent Owner that Watatani does not describe an etch
stop layer that includes three or more layers of silicon
nitride.”). But the Board expressly acknowledged that
Micron had asserted a second independent theory for
the “multilayer structure” limitation:
Petitioner’s contentions regarding claims 2 and
7 are not, however, based solely on Watatani’s
disclosure of multilayer etch stops. Petitioner
also contends that “multilayer silicon nitride
layers were well known in the prior art.”
J.A. 225. The Board found that Micron’s evidence—
including the teachings of SST 1987 and Wang—was
“sufficient to support its contention that multilayer
silicon nitride layers were known in the art.” J.A. 226.
Lone Star filed a request for rehearing, arguing
that the Board exceeded its authority by instituting
review of claims 2 and 7 “based on a new ground not
asserted in the Petition.” J.A. 241. The Board denied
Lone Star’s request, finding that the institution
decision relied on additional prior art references “in
the same way” that Micron’s petition did, namely, “as
evidence of the knowledge of a person of ordinary skill
in the art.” J.A. 258. The Board noted that Lone Star
“cites no authority for the proposition that a reference
relied upon to show that a claim limitation is within
the knowledge of a [person of ordinary skill in the art]
must be expressly included in the list of references that
denominate the ground.” J.A. 259; see J.A. 258 (“Our
reliance on SST 1987, however, does not transform the
instituted ground into a ‘new ground,’ as argued by
Patent Owner.”).

App. 7
In its patent owner response, Lone Star again
raised its contention that the Board had exceeded its
authority and also addressed the merits of the
obviousness challenge. Micron argued in reply that the
instituted ground based on Watatani, Tanaka, and the
knowledge of a person of ordinary skill had been
asserted in the petition. J.A. 378–80. Micron also
submitted a second declaration from its expert
declarant, Dr. Fair, who cited yet another reference,
Yota, 5 to support his opinion that that multilayer
silicon nitride films were well-known in the art. See
J.A. 890–94.
Lone Star believed that portions of Micron’s reply
improperly relied on new evidence, particularly those
por- tions that relied on Dr. Fair’s citations to
additional exhibits, such as Yota, that were not
previously submitted with Micron’s petition. See J.A.
1483–85. The parties jointly requested permission
from the Board to submit additional briefing, which
the Board allowed. Id. Lone Star thus had the
opportunity to submit a sur-reply in which it
addressed Dr. Fair’s second declaration, including his
reliance on Yota. See J.A. 397–99.
In its final written decision, the Board held all of
the challenged claims, including claims 2 and 7,
obvious over Watatani in view of Tanaka. J.A. 2. The
Board again rejected Lone Star’s argument that the
Board had exceeded its authority and again
emphasized that its institution decision and final
written decision properly relied on additional
references like SST 1987 “in the same way as it was
Jiro Yota et al., Comparison between HDP CVD and PECVD
Silicon Nitride for Advanced Interconnect Applications, in PROC.
OF THE IEEE 2000 INT’L INTERCONNECT TECH.
CONFERENCE, 76–78 (IEEE Electron Devices Soc’y, 2000).

5

App. 8
relied upon in the Petition: as evidence that multilayer
silicon nitride layers were known in the prior art.” J.A.
42. On the merits, the Board held that Micron proved
by a preponderance of the evidence that a person of
ordinary skill in the art would have been motivated to
use a multilayer silicon nitride structure when
forming an etch stop layer and would have had a
reasonable expectation of success in achieving the
subject matter of claims 2 and 7. J.A. 38–39.
Lone Star appealed the Board’s final written
decision only with respect to claims 2 and 7. Micron
declined to participate in the appeal because it had
already reached a settlement with Lone Star. The
Director of the United States Patent and Trademark
Office (“Director”) intervened pursuant to 35 U.S.C. §
143.
We have jurisdiction under 28 U.S.C. §
1295(a)(4)(A).
DISCUSSION
Our review of a Board decision is limited. In re
Baxter Int’l, Inc., 678 F.3d 1357, 1361 (Fed. Cir. 2012).
We review the Board’s legal determinations de novo,
In re Elsner, 381 F.3d 1125, 1127 (Fed. Cir. 2004), but
we review the Board’s factual findings underlying
those determinations for substantial evidence, In re
Gartside, 203 F.3d 1305, 1316 (Fed. Cir. 2000). A
finding is supported by substantial evidence if a
reasonable mind might accept the evidence as
adequate to support the finding. Consol. Edison Co.
v. NLRB, 305 U.S. 197, 229 (1938). “Where there is
adequate and substantial evidence to support either of
two contrary findings of fact, the one chosen by the
board is binding on the court regardless of how we
might have decided the issue if it had been raised de
novo.” Mishara Constr. Co. v. United States, 230 Ct.

App. 9
Cl. 1008, 1009 (1982) (citing Koppers Co. v. United
States, 186 Ct. Cl. 142, 151 (1968), and Nat’l Concrete
& Found. Co. v. United States, 170 Ct. Cl. 470, 478
(1965)).
Lone Star raises two challenges on appeal. First,
Lone Star contends that the Board exceeded its
authority when it reviewed claims 2 and 7 and held
them unpatentable based on a ground of obviousness
that was not asserted in Micron’s petition for inter
partes review. Second, Lone Star contends that the
Board’s obviousness conclusion for claims 2 and 7 is
not supported by substantial evidence. We address
Lone Star’s challenges in turn.
I
Lone Star argues that the petition set forth a single
ground of obviousness based solely on the combination
of Watatani and Tanaka, but the Board held the
claims unpatentable based on an unasserted ground
that included a combination of those two references
with at least three additional references—SST 1987,
Wang, and Yota. According to Lone Star, the Board
exceeded its authority, as set forth in 37 C.F.R. §
42.108(a), to authorize review to proceed on “all or
some of the grounds of unpatentability asserted for
each claim.” Appellant Br. 37 (quoting and adding
emphasis to the regulation).
The Director responds that Lone Star is
attempting to challenge the Board’s institution
decision, which is a nonappealable issue pursuant to
35 U.S.C. § 314(d). The Director further argues that,
even to the extent that Lone Star’s challenge is
appealable, the Board did not abuse its discretion or
exceed its authority in this case.
We agree with the Director that Lone Star’s
challenge is directed to the Board’s institution

App. 10
decision, which is not appealable. The relevant
statutory language is the “No Appeal” clause in Section
314(d):
(d) No Appeal.—The determination by the
Director whether to institute an inter partes
review under this section shall be final and
nonappealable.
In Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131,
2141 (2016) (“Cuozzo III”), the Supreme Court held
that “[t]he text of the ‘No Appeal’ provision, along with
its place in the overall statutory scheme, its role
alongside the Administrative Procedure Act, the prior
interpretation of similar patent statutes, and
Congress’ purpose in crafting inter partes review, all
point in favor of precluding review of the Patent
Office’s institution decisions.”
We recently addressed a challenge similar to the
one presented here. See Koninklijke Philips N.V. v.
Google LLC, 948 F.3d 1330 (Fed. Cir. 2020). In that
case, the petition presented a single obviousness
ground based on the SMIL reference but also relied on
the Hua reference as evidence of what was known in
the art. Id. at 1333–34. Although the petition asserted
only one obviousness ground, the Board instituted
review on two obviousness grounds—(1) SMIL in view
of Hua and (2) SMIL “in light of the general knowledge
of the skilled artisan.” Id. at 1334. Regarding the first
instituted ground, we concluded that it was error for
the Board to institute review based on a ground of
obviousness over SMIL and Hua because that ground
was not presented in the petition. Id. at 1337. But
regarding the second instituted ground, we found no
error in the Board’s decision to institute review based
on obviousness over SMIL in view of the knowledge of
a person of ordinary skill. Id. at 1338. Notably, the
evidence presented to support the knowledge of a

App. 11
person of skill relied in part on other references,
including Hua.
Here, like the second instituted ground in
Koninklijke Philips, the Board instituted inter partes
review based on the ground of obviousness that was
presented in Micron’s petition—Watatani in view of
Tanaka. The petition undisputedly asserted only one
obviousness ground. The Board was not, however,
obligated to “ignore the skilled artisan’s knowledge
when determining whether it would have been
obvious to modify the prior art.” Id. at 1337. Indeed,
the statutory definition of obviousness expressly
depends on what would have been known to a person
having ordinary skill in the art. 35 U.S.C. § 103.
Lone Star focuses entirely on the listed references.
Lone Star insists that the instituted ground was not
actually presented in the petition because it relies on
additional references beyond Watatani and Tanaka
that were not presented in the petition and the Board
lacked authority to sua sponte add its own ground of
unpatentability. Lone Star argues that the mere fact
that the Board failed to explicitly acknowledge this as
a “new ground” is insufficient to distinguish this case
from the first instituted ground in Koninklijke Philips,
which we found to be instituted in error. 948 F.3d at
1337. But here, the Board repeatedly made clear that
the instituted ground was based on Watatani and
Tanaka, and that the additional references were being
relied on exclusively for their teachings about what
was well-known in the art. J.A. 225; see also J.A. 42,
258. And the Board only did so after it expressly
interpreted the petition to have presented that
argument. E.g. J.A. 225 (quoting “[p]etitioner’s
contention[] that ‘multilayer silicon nitride layers
were well known in the prior art.’” (emphasis added));
J.A. 226 (“Petitioner’s evidence is sufficient to support

App. 12
its contention . . . .”). Under Section 314(d), the Board’s
decision to institute review based on its interpretation
of the petition is not appealable. See Cuozzo III, 136 S.
Ct. at 2139 (holding that the Board’s interpretation of
the petition to have implicitly presented a challenge
was unreviewable).
Lone Star attempts to avoid the “No Appeal”
clause by arguing that its challenge in this case is not
to the Board’s institution decision, but rather to the
scope of the Board’s statutory and regulatory
authority throughout the proceeding, which is
reviewable. Lone Star relies heavily on the Supreme
Court’s acknowledgment that the petition is “the
centerpiece of the proceeding both before and after
institution.” SAS Inst., Inc. v. Iancu, 138 S. Ct. 1348,
1358 (2018). Lone Star argues that the “No Appeal”
clause in Section 314(d) pertains only to the
“preliminary patentability [decision]” based on the
“patentability merits of particular claims,” and is thus
inapplicable in this case. See Reply Br. 6 (quoting WiFi One, LLC v. Broadcom Corp., 878 F.3d 1364, 1372
(Fed. Cir. 2018) (en banc)). According to Lone Star,
the controlling authority in this case is 37 C.F.R. §
42.108, which allows the Board to institute review “on
all or some of the grounds of unpatentability asserted.”
Lone Star also argues that 35 U.S.C. § 311(b) limits
the scope of the Board’s authority to a ground on
which a petitioner asks for review.
We disagree with Lone Star’s characterization of
both its challenge and the Board’s institution decision.
In Cuozzo III, the Supreme Court held that the “No
Appeal” clause applies to attacks that are “closely
tied” to the Board’s “decision to initiate inter partes
review.” 136 S. Ct. at 2141. We find that this is such a
case. In order to grant the relief that Lone Star
requests, we would have to unwind the Board’s

App. 13
institution decision and compare it to the particular
language used in Micron’s petition regarding the
“multilayer structure” limitation, which is precisely
the kind of analysis the Supreme Court cautioned
against. Id. at 2139. In essence, Lone Star’s argument
that a specific theory was not within “the grounds of
unpatentability asserted” under 37 C.F.R. § 42.108 “is
little more than a challenge to the Patent Office’s
conclusion, under § 314(a), that the ‘information
presented in the petition’ warranted review.” Id. at
2142.
In an attempt to distinguish Cuozzo III, Lone Star
points to a number of cases in which this court has
reviewed institution-stage issues. But in each such
case the reviewable issue was not closely tied to
substantive patentability requirements. See Arista
Networks, Inc. v. Cisco Sys., Inc., 908 F.3d 792, 799
(Fed. Cir. 2018) (reviewing assignor estoppel); Wi-Fi
One, 878 F.3d 1364, 1374 (reviewing time bar); see
generally Applications in Internet Time, LLC v. RPX
Corp., 897 F.3d 1336 (Fed. Cir. 2018) (reviewing the
real party in interest requirement). And while the
Supreme Court itself acknowledged that the “No
Appeal” clause does not extend to appealable
constitutional or statutory violations, Cuozzo III, 136
S. Ct. at 2141–42, that acknowledgement is not
applicable here, where Lone Star’s challenge is to the
evidentiary basis underpinning the Board’s
interpretation of the petition in its institution
decision.
We also note that that this court has entertained
challenges to the Board for exceeding its authority in
violation of the Administrative Procedure Act (“APA”)
by, for example, failing to give “notice of and a fair
opportunity to meet the grounds of rejection.” In re
NuVasive, Inc., 841 F.3d 966, 971 (Fed. Cir. 2016)

App. 14
(quoting Belden Inc. v. Berk-Tek LLC, 805 F.3d 1064,
1080 (Fed. Cir. 2015)). But, importantly, Lone Star
has not raised such a challenge under the APA in this
case. Indeed, the crux of Lone Star’s argument is that
the Board exceeded its authority notwithstanding the
undisputed fact that Lone Star did have notice of the
full scope of the inter partes review and an adequate
opportunity to respond in its patent owner response
and its sur-reply. In the context of challenges under
the APA, we have found that the Board is within its
authority to institute review and consider even
arguments that were not asserted in the petition
“after giving [the patent owner] a full opportunity to
submit additional evidence and arguments on that
point.” NuVasive, 841 F.3d at 975 (citing In re Kumar,
418 F.3d 1361, 1367–69 (Fed. Cir. 2005)). All the more
so here, where the Board put Lone Star on notice of its
finding that the “multilayer structure” theory was
presented in the petition, there is nothing in the patent
statute or the regulations that limits the Board’s
authority to include that theory within the scope of its
re- view. 6
At bottom, the Board interpreted the petition to
have presented a specific theory for the “multilayer
structure” limitation. The Board instituted an inter
partes review that includes that theory. Lone Star
asks us to review that institution decision. Under the
“No Appeal” clause, as interpreted by the Supreme
Court in Cuozzo III, that decision is not reviewable.
6 Although not cited in the petition, Yota was not needed for the
petition to establish, on the basis of SST 1987 and Wang, that
multilayer silicon nitride structures were well known. To the
extent that the Board relied on Yota to rebut specific arguments
made by Lone Star against reasonable expectation of success, the
Board was within its authority to do so where Lone Star was
given ample opportunity to respond.

App. 15
II
We turn now to Lone Star’s challenge on the
merits of the Board’s obviousness conclusion for
claims 2 and 7. Obviousness is a question of law based
on underlying facts, including the scope and content of
the prior art, differences between the prior art and the
claims at issue, the level of ordinary skill, and
relevant evidence of secondary considerations.
Graham v. John Deere Co., 383 U.S. 1, 17–18 (1966).
Whether a skilled artisan would have been motivated
to combine prior art references is also a question of
fact. Wyers v. Master Lock Co., 616 F.3d 1231, 1238–
39 (Fed. Cir. 2010).
Lone Star challenges a number of the facts
underlying the Board’s obviousness conclusion. Lone
Star contends that, even accepting that a multilayer
structure of silicon nitride was well-known in the art,
the record is devoid of evidence that such a multilayer
structure was known to be used as an etch stop layer,
which is what claims 2 and 7 actually require. Lone
Star also challenges the Board’s conclusions regarding
motivation to combine and reasonable expectation of
success. Lone Star argues that the two alleged
motivations to use a multilayer structure—layer
uniformity and avoiding pinholes—are divorced from
the overall context of the claims, which require that
the etch stop layer have a dielectric constant below
5.5. And Lone Star argues that the evidence in the
record demonstrates that a person of skill would have
expected a multilayer structure to increase the
dielectric constant of the etch stop layer, which is the
opposite of the claimed invention directed to lower
dielectric constants.
The Director responds that the multilayer
structure limitation of claims 2 and 7 adds no
patentable significance to the obvious integrated

App. 16
circuit of claims 1 and 6. Said differently, the Director
argues that claims 2 and 7 are directed to nothing
more than starting with an obvious integrated circuit
and adding a well-known multilayer structure that
has well-established benefits for integrated circuits.
The Director further argues that Lone Star’s
motivation to combine argument is contrary to law,
and that substantial evidence from both parties’
experts and multiple prior art references supports the
Board’s findings regarding reasonable expectation of
success.
We agree with the Director. The Supreme Court
has made clear that “if a technique has been used to
improve one device, and a person of ordinary skill in
the art would recognize that it would improve similar
devices in the same way, using the technique is
obvious unless its actual application is beyond his or
her skill.” KSR Int’l Co. v. Teleflex Inc., 550 U.S. 398,
417 (2007). For purposes of this appeal, it is not
disputed that multilayer structures were known to
improve integrated circuits by improving layer
uniformity and decreasing pinholes. And the record
contains substantial evidence that using the
multilayer structure of silicon nitride recited in claims
2 and 7 would improve the etch stop layers in the
integrated circuits of claims 1 and 6 in the same way.
Thus, the multilayer structure does not ren- der
nonobvious the otherwise obvious integrated circuits
of claims 1 and 6.
Furthermore, regarding a motivation to combine,
we reject Lone Star’s contention that the known
advantages that would have motivated a person of
skill to use multilayer structures must be shown to
directly impact the claimed lower dielectric constant.
On the contrary, the law is clear that “the motivation
to modify a prior art reference to arrive at the claimed

App. 17
invention need not be the same motivation that the
patentee had.” Monsanto Tech. LLC v. E.I. DuPont
de Nemours & Co., 878 F.3d 1336, 1347 (Fed. Cir.
2018) (citation omitted, emphasis added). Here, there
is substantial evidence that a person of skill would
have been motivated to use a multilayer structure of
silicon nitride as an etch stop layer to improve layer
uniformity and avoid pinholes. And, having been
motivated to use a multilayer structure, the person of
skill would have thus arrived at the claimed invention
of claims 2 and 7.
Finally, regarding the reasonable expectation of
successfully achieving a low dielectric constant with a
multilayer structure, the Board relied on the
testimony of both parties’ expert witnesses regarding
the relationship between density and dielectric
constants when stacking multiple thin layers to
achieve thickness. J.A. 41–42 (citing both Dr. Fair and
Dr. Bottoms). And simply put, the Tanaka prior art
reference teaches a silicon nitride layer with a
dielectric constant that is below 5.5 as required by the
claims, see J.A. 41, and Micron’s expert, Dr. Fair,
pointed to multiple references to support his opinion
that the low dielectric constant could be maintained
using a multilayer structure. J.A. 893–94. Lone Star
challenged Dr. Fair’s opinions below with the same
factual arguments it now raises on appeal, but the
Board rejected Lone Star’s challenges based on the
teachings of the prior art references, the background
of the ’330 patent itself, and inconsistencies within
Lone Star’s positions. J.A. 47–48. We are not in a
position to second-guess the Board’s evaluation of
expert witnesses’ credibility or its reconciliation of
perceived inconsistencies in their testimony. Yorkey v.
Diab, 601 F.3d 1279, 1284 (Fed. Cir. 2010) (“We defer
to the Board’s findings concerning the credibility of

App. 18
expert witnesses.” (citing Velander v. Garner, 348
F.3d 1359, 1371 (Fed. Cir. 2003))). On this record, the
Board’s finding that a person of skill would have had
a reasonable expectation of successfully achieving the
invention of claims 2 and 7 is supported by substantial
evidence.
CONCLUSION
We have considered Lone Star’s remaining
arguments, but we find them to be unpersuasive.
Accordingly, the decision of the Board holding
unpatentable claims 2 and 7 of the ’330 patent is
affirmed.
AFFIRMED

App. 19
APPENDIX C
UNITED STATES PATENT AND TRADEMARK
OFFICE
______________________
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
______________________
MICRON TECHNOLOGY, INC.,
Petitioner,
v.
LONE STAR SILICON INNOVATIONS, LLC,
Patent Owner.
______________________
Case IPR2017-01566
Patent 6,388,330 B1
______________________
Before JON B. TORNQUIST, JOHN F. HORVATH,
and ELIZABETH M. ROESEL, Administrative
Patent Judges.
ROESEL, Administrative Patent Judge.
FINAL WRITTEN DECISION
35 U.S.C. § 318 and 37 C.F.R. § 42.73

App. 20
Micron Technology, Inc. (“Petitioner”) challenges
the patentability of claims 1, 2, 5–7, and 10 (“the
challenged claims”) of U.S. Patent No. 6,388,330 B1
(Ex. 1001, “the ’330 patent”), assigned to Lone Star
Silicon Innovations, LLC (“Patent Owner”). 1
We have jurisdiction under 35 U.S.C. § 6. This
final written decision is issued pursuant to 35 U.S.C.
§ 318(a) and 37 C.F.R. § 42.73.
For the reasons that follow, we determine
Petitioner has shown by a preponderance of the
evidence that the challenged claims of the ’330
patent are unpatentable.
I.
BACKGROUND
A. Procedural History
Petitioner filed a Petition seeking inter partes
review. Paper 1 (“Pet.”). Patent Owner filed a
Preliminary Response. Paper 7 (“Prelim. Resp.”). We
instituted inter partes review of all challenged claims
of the ’330 patent. Paper 8 (“Institution Decision” or
“Dec.”). Patent Owner’s Request for Rehearing
(Paper 10) was denied. Paper 11 (“Rehearing
Decision” or “Reh’g Dec.”)
Patent Owner filed a Response. Paper 14 (“PO
Resp.”). Petitioner filed a Reply. Paper 16 (“Pet.
Reply”). With the Board’s prior authorization (Ex.
2014), Patent Owner filed a Sur-Reply addressing
limited issues. Paper 17 (“PO Sur-Reply”). Pursuant
to the same authorization, Petitioner filed a Sur-SurReply. Paper 21 (“Pet. Sur-Sur-Reply”).
With the Petition, Petitioner filed a declaration of
Richard Fair, Ph.D. Ex. 1003. Patent Owner crossPatent Owner identifies Longhorn IP LLC as an additional
real party-in- interest. Paper 18, 1.

1

App. 21
examined Dr. Fair and filed a transcript of his
deposition testimony as Exhibit 2009 with the Patent
Owner Response.
With the Reply, Petitioner filed a second
declaration of Dr. Fair. Ex. 1017. With the
Preliminary Response, Patent Owner filed a
declaration of Wilmer R. Bottoms, Ph.D. Ex. 2001.
With the Patent Owner Response, Patent Owner
filed a second declaration of Dr. Bottoms. Ex. 2008.
Petitioner cross-examined Dr. Bottoms and filed a
transcript of his deposition testimony as Exhibit
1018 with Petitioner’s Reply. With its Sur- Reply,
Patent Owner filed a third declaration of Dr.
Bottoms. Ex. 2015.
Oral argument was held October 11, 2018. A
transcript of the oral argument was entered in the
record. Paper 23 (“Tr.”).
B. Related Matters
Pursuant to 37 C.F.R § 42.8(b)(2), Patent Owner
identifies the following pending federal court
proceedings involving the ’330 patent: Lone Star
Silicon Innovations, LLC v. Micron Technology, Inc.,
Appeal No. 2018-1578 (Fed. Cir., filed Feb. 15, 2018)
and Lone Star Silicon Innovations, LLC v. Micron
Technology, Inc., No. 3:18-cv-01680 (N.D. Cal., filed
Mar. 16, 2018). Paper 18, 2–3. In addition, Patent
Owner identifies Federal Circuit Appeal Nos. 20181580, 2018-1581, and 2018-1582, in which the
defendant-appellees are Renesas Electronics Corp.,
Nanya
Technology
Corp.,
and
United
Microelectronics Corp., respectively. Id.
Pursuant to 37 C.F.R § 42.8(b)(2), Patent Owner
identifies the following inter partes review
proceedings involving the ’330 patent: Renesas

App. 22
Electronics Corp. v. Lone Star Silicon Innovations,
LLC, Case IPR2017-01869 and Nanya Technology
Corp. v. Lone Star Silicon Innovations, LLC, Case
IPR2018-00062. Paper 18, 2.
C. The ’330 Patent (Ex. 1001)
The ’330 patent is titled “Low Dielectric Constant
Etch
Stop
Layers
in
Integrated
Circuit
Interconnects” and was issued May 14, 2002, from
Application No. 09/776,012, filed February 1, 2001.
Ex. 1001 at (21), (22), (45), (54).
The ’330 patent relates to semiconductor
technology and, more specifically, to etch stop layers
in integrated circuits. Id. at 1:6–8. According to the
’330 patent, semiconductor devices fabricated in and
on a semiconductor substrate may be interconnected
using a “damascene” technique of metallization. Id.
at 1:11–29. A “single damascene” technique forms a
single layer of conductive interconnects, and a “dual
damascene” technique forms multiple layers of
conductive interconnects that are separated by
interlayer dielectric layers, including etch stop
layers, in vertically separated planes and
interconnected by vertical connections or “vias.” Id.
at 1:30–34, 2:30–51. The ’330 patent discloses that
closely positioned, parallel conductive channels
suffer from capacitive coupling effects, which can be
reduced by reducing the dielectric constant of the
silicon nitride etch stop layers between the channels.
Id. at 3:32–42, 3:49–60. More specifically, the ’330
patent represents that “currently used silicon nitride
. . . has a dielectric constant in excess of 7.5” (id. at
3:39–41) and discloses that capacitive coupling
effects are reduced by using an etch stop layer
having a dielectric constant below 5.5 (id. at 3:53–54,
3:58–59).

App. 23
Figure 2 of the ’330 patent shows a “prior art”
structure, and Figure 3 shows the invention. Ex.
1001, 4:14–20. Figures 2 and 3 of the ’330 patent are
reproduced below:

Figures 2 and 3, above, show semiconductor wafers
100, 200, including dielectric layers 108, 110, 112,
208, 210, and 212; conductor cores 130, 136, 230, 236;
and etch stop layers 114, 120, 122, 124, 214, 220,
222, and 224. 2 Id. at 4:24–32, 4:42–5:4, 5:21–53.
According to the ’330 patent, Figure 3 is “similar” to
Figure 2, except for the thickness of the etch stop
layers, which is shown as “T” in Figure 2 and “t” in
Figure 3. Id. at 4:18, 5:17–23, 5:66–6:2.
Regarding the etch stop layers, the ’330 patent
discloses:
In the present invention, a half thickness,
high quality, etch stop layer (compared to the
prior art etch stop layer) is deposited.
For example, for silicon nitride, the
dielectric constant of an etch stop layer in
accordance with the present invention is about
5.5 contrasted to an excess of 7.5 in the prior
art.
2 Structures with 100-series reference numerals are shown in
Figure 2, and structures with 200-series reference numerals are
shown in Figure 3.

App. 24
Id. at 5:60–65. The ’330 patent discloses processes
that can be used to produce etch stop layers with a
dielectric constant under 5.5, including successive
deposition of multiple layers of silicon nitride, which
“eliminates pinholes and produces a denser film.” Id.
at 5:66–6:7.
D. Illustrative Claim
The Petition challenges claims 1, 2, 5–7, and 10,
of which claims 1 and 6 are independent. Ex. 1001,
8:57–12:35. Claim 1 is illustrative of the challenged
claims and is reproduced below:
1. An integrated circuit comprising:
a semiconductor substrate having a
semiconductor device provided thereon;
a first dielectric layer formed over the
semiconductor substrate having a first
opening provided therein;
a first conductor core filling the first
opening and connected to the semiconductor
device;
an etch stop layer of silicon nitride formed
over the first dielectric layer and the first
conductor core, the etch stop layer having a
dielectric constant below 5.5;
a second dielectric layer formed over the
etch stop layer and having a second opening
provided therein open to the first conductor
core;
a second conductor core filling the second
opening and connected to the first conductor
core.
Ex. 1001, 6:54–7:2.
Claim 6 is similar to claim 1, except that it recites

App. 25
an additional dielectric layer (called a via dielectric
layer) and an additional etch stop layer (called a
channel etch stop layer), and the second conductor
core fills openings in both the via and second
dielectric layers. Id. at 7:15–8:11.
E. Instituted Ground of Unpatentability
We instituted inter partes review based on the
sole ground of unpatentability asserted in the
Petition: whether claims 1, 2, 5–7, and 10 of the ’330
patent are unpatentable under 35 U.S.C. § 103(a) as
obvious in view of Watatani 3 and Tanaka I. 4 Dec. 20.
II.
ANALYSIS
A. Claim Construction
In this inter partes review, the ’330 patent has not
yet expired, and claim terms are given their broadest
reasonable interpretation in light of the specification
of the patent in which they appear. 37 C.F.R. §
42.100(b) (2016). 5 Under that standard, we generally
Watatani, US 6,153,511, filed June 25, 1999, and issued
November 28, 2000, Ex. 1005 (“Watatani”). Watatani is
asserted as prior art under 35 U.S.C. § 102(e). Pet. 25 n.7.
4 Masayuki Tanaka et al., Low-k SiN Film for Cu Interconnects
Integration Fabricated by Ultra Low Temperature Thermal
CVD, 1999 Symposium on VLSI Technology, Digest of Technical
Papers, Session 4B-4, pp. 47–48, Ex. 1006 (“Tanaka I”). Tanaka
I is asserted as prior art under 35 U.S.C. § 102(b). Pet. 27 n.8.
Petitioner relies on the Declaration of Peter J. Rolla, an
employee of the University of California San Diego Library in
La Jolla, California, to establish public accessibility of Tanaka
I. Ex. 1009.
5 A recent amendment to this rule does not apply here, because
the Petition was filed before November 13, 2018. See “Changes
to the Claim Construction Standard for Interpreting Claims in
Trial Proceedings Before the Patent Trial and Appeal Board,”
83 Fed. Reg. 51,340 (Oct. 11, 2018) (to be codified at 37 C.F.R.
pt. 42).
3

App. 26
give claim terms their ordinary and customary
meaning, as would be understood by a person of
ordinary skill in the art, in the context of the entire
patent disclosure. In re Translogic Tech., Inc., 504
F.3d 1249, 1257 (Fed. Cir. 2007).
In the Institution Decision, we determined it was
not necessary to resolve any claim construction
disputes for purposes of that decision. Dec. 7–8.
Neither party challenges that determination. Patent
Owner continues to argue that the phrase “etch stop
layer of silicon nitride” is not limited to a layer of
pure silicon nitride and allows for the presence of
dopants and/or impurities. Compare PO Resp. 12–15,
with Prelim. Resp. 15–20. Petitioner argues there is
no controversy in this proceeding to which Patent
Owner’s proposed construction is relevant. Pet Reply
1. We agree, as Patent Owner does not rely on its
proposed claim construction for any patentability
argument. In fact, Patent Owner relies on the
assertions of Petitioner and Dr. Fair regarding one of
the asserted prior art references—Tanaka I (Ex.
1006)—as support for Patent Owner’s claim
construction. PO Resp. 15. More particularly, Patent
Owner concedes that the silicon nitride etch stop
layer disclosed in Tanaka I, which contains hydrogen
and chlorine impurities, is an “etch stop layer of
silicon nitride” within the meaning of claims 1 and 6.
Id. Under these circumstances, we do not need to
provide an express construction for the phrase “etch
stop layer of silicon nitride” for purposes of this
Decision. See Nidec Motor Corp. v. Zhongshan Broad
Ocean Motor Co., 868 F.3d 1013, 1017 (Fed. Cir.
2017) (“[W]e need only construe terms ‘that are in
controversy, and only to the extent necessary to
resolve the controversy.’” (quoting Vivid Techs., Inc.

App. 27
v. Am. Sci. & Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir.
1999))).
B. Principles of Law
Petitioner bears the burden of proving
unpatentability, and the burden of persuasion never
shifts to Patent Owner. Dynamic Drinkware, LLC v.
Nat’l Graphics, Inc., 800 F.3d 1375, 1378 (Fed. Cir.
2015). To prevail, Petitioner must establish the facts
supporting its challenge by a preponderance of the
evidence. 35 U.S.C. § 316(e); 37 C.F.R. § 42.1(d).
A patent claim is unpatentable as obvious under
35 U.S.C. § 103(a) if the differences between the
subject matter sought to be patented and the prior
art are such that the subject matter as a whole would
have been obvious to a person of ordinary skill in the
art at the time the invention was made. KSR Int’l Co.
v. Teleflex Inc., 550 U.S. 398, 406 (2007).
Obviousness is resolved based on underlying factual
determinations, including: (1) the scope and content
of the prior art; (2) any differences between the
claimed subject matter and the prior art; (3) the level
of ordinary skill in the art; and (4) objective evidence
of nonobviousness, i.e., secondary considerations. See
Graham v. John Deere Co., 383 U.S. 1, 17–18 (1966).
In this case, neither party relies on objective
evidence
of
nonobviousness,
i.e.,
secondary
considerations.
C. Level of Ordinary Skill in the Art
Petitioner’s declarant, Dr. Fair, testifies that a
person of ordinary skill in the art (“POSA”) would
have had at least a Bachelor of Science degree in
electrical engineering, material science, physics,
chemistry, or a closely related field, and at least five
years of industry experience in the development of

App. 28
semiconductor process technologies and the
fabrication of semiconductor devices. Ex. 1003 ¶ 18.
Dr. Fair further testifies that an individual with an
advanced degree in a relevant field would require
less experience in developing process technologies
and in fabricating semiconductor devices. Id. Patent
Owner’s declarant, Dr. Bottoms, testifies that a
POSA would have held a master’s degree in physics,
electrical engineering, or a related field, and would
have had three years or more experience working
with the technologies implemented in semiconductor
devices and the fabrication of semiconductor devices.
Ex. 2008 ¶ 29.
For purposes of our Institution Decision, we
accepted the description of a POSA provided by Dr.
Bottoms. Dec. 8 (citing Ex. 2001 ¶ 33). Dr. Bottoms
testifies that his description does not differ
significantly from Dr. Fair’s. Ex. 2008 ¶ 29. Dr. Fair
testifies that Dr. Bottoms’ description of the level of
ordinary skill in the art is consistent with the level
proposed in his original declaration, and the Board’s
adoption of that description does not change his
opinions. Ex. 1017 ¶ 5.
Consistent with the testimony of Dr. Fair and Dr.
Bottoms, we find there is little difference between
the descriptions of a POSA, and the outcome of our
patentability determinations would be the same,
regardless of which description we accept. Therefore,
consistent with the Institution Decision, we adopt
Dr. Bottoms’ description of a POSA. Ex. 2008 ¶ 29.
We also rely on the cited prior art references as
reflecting the level of ordinary skill in the art at the
time of the invention. See Okajima v. Bourdeau, 261
F.3d 1350, 1355 (Fed. Cir. 2001).
After reviewing the qualifications of Dr. Fair and

App. 29
Dr. Bottoms, as set forth in each witness’s
declaration and curriculum vitae (“CV”), we find that
each of these declarants has sufficient education and
experience related to the subject matter of the ’330
patent to testify from the perspective of a POSA at
the time of the invention. Ex. 1003 ¶¶ 5–12; Ex.
1004; Ex. 2002; Ex. 2008 ¶¶ 6–17. See Trial Practice
Guide Update,” 83 Fed. Reg. 38,989 (Aug. 13, 2018),
available
at
https://go.usa.gov/xU7GP
(“TPG
Update”), 3 (“A person may not need to be a person of
ordinary skill in the art in order to testify as an
expert under Rule 702, but rather must be “qualified
in the pertinent art.’” (quoting Sundance, Inc. v.
DeMonte Fabricating Ltd., 550 F.3d 1356, 1363–64
(Fed. Cir. 2008))). Regarding the qualifications of Dr.
Fair, we find particularly relevant his experience as
an acting president, vice president, and director at
the Microelectronics Center of North Carolina
(“MCNC”) from 1981 to 1994, where he directed
research on semiconductor processing, including
photolithography, wafer cleaning, annealing, ion
implantation, plasma-enhanced CVD (chemical vapor
deposition) of thin films, metallization, and
anisotropic etching processes, and conducted
research on multi-level metal interconnects, barrier
metallurgy, organic and inorganic inter-metal
dielectrics, anti-reflective coatings, via and trench
etching processes, and selective tungsten deposition
for via filling. Ex. 1003 ¶ 9, Ex. 1004, 3. Regarding
the qualifications of Dr. Bottoms, we find
particularly relevant his experience at Varian
Associates from 1976 to 1985, including his
experience
as
Manager
of
Research
and
Development, where he was involved in developing
tools used to fabricate semiconductor devices

App. 30
including lithography, sputtering, ion implantation,
etching, and evaporation processes. Ex. 2008 ¶¶ 9–
11; Ex. 2002, 1.
Petitioner argues that we should credit Dr. Fair’s
testimony and reject Dr. Bottoms’ testimony because
“Dr. Bottoms’ expertise in the field pales in
comparison to Dr. Fair’s.” Pet. Reply 18. Petitioner
bases its argument on Dr. Bottoms’ response to a
deposition question regarding “Fick’s laws of
diffusion” and a comparison of the number of papers
and conference presentations for the period 1984 to
2004 listed on each declarant’s CV. Id. (citing Ex.
1004, 3–16; Ex. 1018, 9:20–24; Ex. 2002, 6–7).
Petitioner’s argument does not persuade us to reject
Dr. Bottoms’ testimony. In our view, Dr. Bottoms’
inability to recall a name (Fick) associated with a
particular scientific principle does not prove a lack of
expertise in the technologies relevant to this
proceeding. Furthermore, the number of papers and
conference presentations listed on Dr. Bottoms’ CV is
not the sole, or necessarily the best, measure of his
level of expertise. The number of such items may
depend on the institutional setting in which he
worked, e.g., in industry rather than academia. Dr.
Bottoms explains that his CV lists selected
presentations and publications and omits some data
for the relevant time period. Ex. 2015 ¶¶ 2–4. On
this record, we find that Dr. Fair and Dr. Bottoms
both have sufficient education and experience related
to the subject matter of the ’330 patent to testify
regarding the knowledge and understanding of a
POSA at the time of the invention and that, even if
he is not a POSA, Dr. Bottoms’ testimony is helpful
to the Board. Ex. 1003 ¶¶ 5–12; Ex. 1004; Ex. 2002;
Ex. 2008 ¶¶ 6–17. See TPG Update, 3.

App. 31

D. Prior Art References
1. Watatani (Ex. 1005)

Watatani discloses a semiconductor device having
a multilayer interconnection structure. Ex. 1005 at
(54). According to Watatani, Figures 1A–F “show a
typical example of the conventional dual damascene
process of forming a multilayer interconnection
structure . . . .” Id. at 1:65–67. Petitioner relies on
Watatani Figure 1F, which is reproduced below:

Watatani Figure 1F illustrates a structure resulting
from a processing step in a conventional dual
damascene process. Ex. 1005, 1:65–67, 2:43–48,
5:32–33. The structures shown in Watatani Figure
1F include silicon (Si) substrate 1, lower
interconnection pattern 10 of conductive material
such as copper (Cu), etching stopper film 12 of silicon
nitride (SiN), first interlayer insulation film 14 of
silicon oxide (SiO2), second etching stopper film 16 of
SiN, second interlayer insulation film 22 of SiO2,
interconnection groove 26, and contact hole 28. Id. at
2:1–41. According to Watatani, “an insulation film
(not illustrated) [is] interposed between the Si
substrate 1 and the lower interconnection pattern
10.” Id. at 2:3–5. Watatani discloses that

App. 32
interconnection groove 26 and contact hole 28 are
filled with copper (Cu). Id. at 2:42–47.
According
to
Watatani,
the
multilayer
interconnection structure of Figure 1F “has a
drawback, due to the use of SiO2 having a large
dielectric constant, for the interlayer insulation film
14 or 22, in that the interconnection patterns tend to
have a large stray capacitance.” Ex. 1005, 2:54–58.
Watatani discloses that this problem is overcome by
using “an organic interlayer insulation film having a
characteristically small dielectric constant.” Id. at
2:61–64. Watatani states, however, that conventional
multilayer interconnection structures using an
organic interlayer insulation film also suffer from a
drawback, namely, that resist pattern misalignments
are difficult to correct. Ex. 1005, 3:51–4:41. To
address the resist pattern misalignment problem,
Watatani discloses a semiconductor fabrication
process that includes the steps of forming a first
etching stopper film on an organic interlayer
insulation film and forming a second, different
etching stopper film on the first etching stopper film.
Id. at 4:48–5:25; see also id. at 6:4–10 (disclosing “an
etching stopper structure 81, formed of a stacking of
two etching stopper layers, . . . a first etching stopper
film 80 of SiN . . . and a second etching stopper film
82 of SiO2”); Fig. 5A.
2. Tanaka I (Ex. 1006)
Tanaka I addresses the problem of parasitic
capacitance
associated
with
copper
(Cu)
interconnects formed by a conventional damascene
process that uses high-k SiN film for the etch
stopper layers. Ex. 1006, 1-1. 6,7 To solve this
6

We cite to Tanaka I and other non-patent references using the

App. 33
problem, Tanaka I discloses a “[n]ew low-k SiN film
with a permittivity of 5.4 and high immunity for Cu
diffusion and oxidation ….” Id. at 1-1, 1-2. The film
is formed by an ultra-low temperature thermal
chemical vapor deposition (“CVD”) process using
HexaChloroDisilane (HCD, Si2Cl6) as a silicon
source. Id. at 1-1. Tanaka I refers to the new film as
“HCD-SiN” and discloses a deposition process and
film properties for the new film. Id. at 1-1, 1-2, Figs.
2–8.
Figure 1 of Tanaka I is reproduced below:

Figure 1 of Tanaka I shows copper interconnects
formed by a conventional dual damascene process,
which requires “plural layers of high-k SiN film for a
page numbers added by Petitioner or Patent Owner followed by
a hyphenated suffix (“-1,” “-2,” or “-3”) to indicate the first,
second, or third column.
7 Dr. Fair explains that “[t]he dielectric constant of a material,
which is sometimes referred to as its permittivity and which is
represented by the letter ‘k,’ is an intrinsic property of a
material . . . .” Ex. 1003, 19 n.2.

App. 34
groove etch stopper and a barrier of Cu diffusion and
oxidation ….” Ex. 1006, 1-1. As explained above,
Tanaka I proposes improving upon this conventional
process by using “HCD-SiN as the etch-stop and the
barrier layer … to realize Cu damascene
interconnects for high performance VLSIs.” 8 Id.
E. Petitioner’s Obviousness Ground
Petitioner contends that claims 1, 2, 5–7, and 10
of the ’330 patent are unpatentable as obvious in
view of Watatani and Tanaka I. Pet. 29–38, 42–53.
We address each of the challenged claims below.
1. Claims 1 and 6
Petitioner contends that the conventional dual
damascene interconnect structure of Watatani
teaches or suggests all elements of independent
claims 1 and 6, except for the dielectric constant of
the silicon nitride etch stop layer. Pet. 29–38, 42–53.
Petitioner acknowledges that Watatani does not
disclose the dielectric constant of the silicon nitride
etch stop layer and relies on Tanaka I for that
feature. Id. at 35–36, 48, 51. Petitioner contends that
a POSA would have been motivated to use
Watatani’s
conventional
dual
damascene
interconnect structure, labeled as a prior art
structure, but use Tanaka I’s low-k silicon nitride
etch stop layers instead of conventional silicon
nitride etch stop layers in order to minimize the
stray capacitance issue discussed in both references.
Id. at 29, 36. Petitioner contends that a POSA would
have been motivated to combine the teachings of
Watatani and Tanaka I and would have had a
reasonable expectation of success in doing so. Id. at
The acronym VLSI refers to very large scale integrated
devices. See Ex. 1013, 1.

8

App. 35
13–15, 36, 48–49, 51–52, 56–60.
Patent Owner argues that Watatani does not
disclose an etch stop layer formed over the first
dielectric layer, as recited in the claims. PO Resp. 35.
In addition, Patent Owner challenges the sufficiency
of the evidence to establish motivation and a
reasonable expectation of success for the combination
of Watatani’s damascene structure with Tanaka I’s
low dielectric constant silicon nitride. Id. at 35–53.
Petitioner directs us to substantial evidence that
Watatani’s conventional dual damascene structure
(Ex. 1005, 1:65–2:47, Figs. 1A–F) discloses all
limitations of claims 1 and 6, except for the dielectric
constant of the silicon nitride etch stop layer. Pet.
29–34, 37–38, 42–47, 49–50, 52–53. Patent Owner
does not contest that evidence, except to argue that
Watatani does not disclose an etch stop layer formed
over the first dielectric layer, an argument we
address in section II.E.1.a below. See PO Resp. 35.
We determine Petitioner has shown by a
preponderance of the evidence that all of the
uncontested limitations of claims 1 and 6 are
disclosed by Watatani and, in some cases, also by
Tanaka I. Pet. 29–34, 37–38, 42–47, 49–50, 52–53.
The remainder of our analysis focuses on the
contested limitations of claims 1 and 6, i.e., “etch
stop layer of silicon nitride formed over the first
dielectric layer” and “etch stop layer having a
dielectric constant below 5.5.”
a. “etch stop layer of silicon nitride
formed over the first dielectric layer
and the first conductor core”
Petitioner contends that Watatani describes and
depicts etching stopper film 12 of silicon nitride

App. 36
formed over first conductor core 10 and the
underlying dielectric layer. Pet. 35, 47 (citing Ex.
1005, 2:5–7, Figs. 1A–1F).
Patent Owner argues that Watatani’s insulation
film (i.e., first dielectric layer) is between substrate 1
and lower interconnection pattern 10, which suggests
that “when the etching stopper film 12 is formed on
the interconnection pattern 10, it cannot be formed
over the insulation film.” PO Resp. 35.
We have considered Patent Owner’s argument,
but are persuaded that Petitioner has met its burden
of proof for two alternative reasons advanced by
Petitioner. Pet. 35, 47; Pet. Reply 2–5.
First, Petitioner persuades us that its contention
is based on the broadest reasonable interpretation of
the term “over” and that Patent Owner’s argument is
based on an unduly narrow construction of that term.
Pet. Reply 3–4.
Petitioner relies on the following disclosure in
Watatani:
Referring to FIG. lA, a substrate 1 of Si
carries thereon a lower interconnection
pattern 10 of a conductive material such as
Cu, with an insulation film (not illustrated)
interposed between the Si substrate 1 and
the lower interconnection pattern 10.
Further, a first etching stopper film 12 of
SiN is formed on the lower interconnection
pattern 10 . . . .
Ex. 1005, 2:1–6; Pet. 35, 47; see also Ex. 1005, Fig.
1A (showing a sequence of layers from bottom to
top: 1, 10, 12, 14, 16, 18). Watatani’s etch stop layer
12 is not expressly described as being formed on the
first dielectric layer (insulation film). Nonetheless,

App. 37
Petitioner persuades us that the broadest
reasonable construction of “over” does not require
that the etch stop layer be formed directly “on,” or
in contact with, the first dielectric layer. Pet. Reply
3–4.
The Specification of the ’330 patent uses both
terms, “over” and “on,” when describing the
relationship between various layers. See, e.g., Ex.
1001, 3:51–54 (“[a] dielectric layer is on the
semiconductor substrate” and “an etch stop layer [is]
over the first dielectric layer and conductor core”).
Claims 1 and 6, however, recite an “etch stop layer of
silicon nitride formed over the first dielectric layer
and the first conductor core” (emphasis added), not
an etch stop layer formed on the first dielectric layer.
Patent Owner does not direct us to any intrinsic
evidence supporting an express definition or
disclaimer that would restrict the meaning of “over”
to require direct contact between the etch stop layer
and the first dielectric layer. Petitioner, on the other
hand, directs us to a description in the Specification
where the term “over” is used to describe layers that
are not necessarily in direct contact with underlying
layers. Pet. Reply 4 (quoting Ex. 1001, 3:4–9 (“The
capping layer may be an etch stop layer and may be
processed farther for placement of additional levels of
channels and vias over it.”)). Accordingly, Petitioner
persuades us that the term “over,” as used in the ’330
patent, is broad enough to encompass a structure in
which the etch stop layer is formed over the first
dielectric layer, with a first conductor core (lower
interconnection pattern 10) between the etch stop
layer and the first dielectric layer, as Patent Owner
acknowledges is disclosed by Watatani. PO Resp. 35.
Petitioner also persuades us that Watatani

App. 38
teaches or suggests an “etch stop layer of silicon
nitride formed over the first dielectric layer and the
first conductor core,” even under Patent Owner’s
narrow construction of the term “over.” Pet. Reply 4
(citing Ex. 1003 ¶¶ 22–35; Ex. 1005, 2:1–5; Ex. 1007, 9
1 (Fig. 1)).
Watatani discloses that silicon nitride etch stop
layer 12 is formed on lower interconnection pattern
10. Ex. 1005, 2:5–6. Watatani’s interconnection
pattern 10 is a pattern of conductive material, not a
continuous layer of conductive material. According to
Watatani, when the conductive material is copper,
such an interconnection pattern is generally formed
by a dual damascene process in which a pattern of
interconnection grooves and contact holes is formed
in an insulation film followed by deposition of a
copper layer, which fills the interconnection grooves
and contact holes. Id. at 1:34–43; see also Ex. 1003 ¶
28 (describing “damascene” technique for copper
metallization). The damascene process produces a
pattern in which copper is “inlaid” into
interconnection grooves and contact holes that have
been etched into an insulating film. Ex. 1003 ¶ 28;
Ex. 1005, 1:34–43; Ex. 1007, 1 (Figure 1 showing
dual damascene process, including step 1: SiN
deposition on copper interconnect (Metal 1) pattern).
The layer identified by reference numeral 10 in
Watatani Figures 1A– 1F is described as a “Cu
interconnection pattern 10,” which means the layer
comprises a pattern of copper conductors inlaid
within an insulating film. Ex. 1003 ¶¶ 27, 28; Ex.
9 Robert L. Jackson et al., Processing and Integration of Copper
Interconnects, Solid State Technology, March 1998, pages 49–
50, 54, 56, 59 (“SST 1998”).

App. 39
1005, 1:34–43, 2:1–5; see also PO Resp. 39
(illustrating “typical” damascene structure in which
parallel conductors are separated by insulating
material “in the same metal level”). Watatani
discloses that silicon nitride etch stop layer 12 is
formed “on” interconnection pattern 10, i.e., on both
the conductors and the insulation film of the
interconnection pattern. Ex. 1005, 2:5–6.
Accordingly, Petitioner has shown by a
preponderance of the evidence that Watatani
discloses an “etch stop layer of silicon nitride formed
over the first dielectric layer and the first conductor
core,” as recited in claims 1 and 6, even if the term
“over” is construed to mean “on,” as Patent Owner
implicitly contends. PO Resp. 35.
b. “etch stop layer having a dielectric
constant below 5.5”
There is no dispute that Tanaka I discloses a
silicon nitride etch stop layer having a dielectric
constant below 5.5. Ex. 1006, 1-1 (disclosing “[n]ew
low-k SiN film, with permittivity of 5.4” as an etch
stop layer for copper damascene interconnects); Pet.
35–36, 48, 51; PO Resp. 28. Dr. Bottoms testifies that
“[p]ermittivity as used in Tanaka I means relative
permittivity and is synonymous with dielectric
constant.” Ex. 2001 ¶ 98; see also Ex. 1003, 19 n.2
(explaining that the dielectric constant of a material
is sometimes referred to as its permittivity and is
represented by the letter “k”).
There is also no dispute that Watatani discloses a
conventional dual damascene structure having
silicon nitride etch stop layers. Ex. 1005, 2:5–6 (“a
first etching stopper film 12 of SiN”); id. at 2:9–11 (“a
second etching stopper film 16 of SiN”); id. at Figs.

App. 40
1A–1F (illustrating a conventional dual damascene
process, including silicon nitride etch stop layers 12
and 16); Pet. 35, 47, 50; PO Resp. 20.
The parties dispute whether Petitioner has
established a motivation and a reasonable
expectation of success for the combination of
Watatani’s
conventional
dual
damascene
interconnect structure and Tanaka I’s low dielectric
constant silicon nitride etch stop layer. For the
reasons that follow, we are persuaded that Petitioner
has met its burden of proof in this regard. Pet. 13–
15, 36, 48–49, 51–52, 56–60.
Petitioner relies on the testimony of Dr. Fair that
“[a] person of ordinary skill in the art would have
been motivated to use Tanaka’s low-k silicon nitride
etch stop layer instead of the conventional silicon
nitride etch stop layer in the dual damascene
structure of Watatani in order to reduce the problem
of stray capacitance discussed in both Watatani and
Tanaka.” Ex. 1003 ¶ 95; see also id. ¶ 152 (same);
Pet. 36, 48–49, 51–52. We find that Dr. Fair’s
testimony is credible and supported by the express
teachings of Watatani and Tanaka I. Watatani
acknowledges the problem of stray capacitance in
conventional multilayer interconnect structures and
discloses substituting a low dielectric constant
insulation film for a conventional insulation film
having a large dielectric constant as a solution to the
stray capacitance problem. Ex. 1005, 1:23–33, 2:54–
64. Tanaka I teaches a similar solution to the same
problem, namely, using a “low-k SiN film” as an etch
stop layer in an interconnect structure formed by a
conventional copper damascene process. Ex. 1006, 11, Fig. 1. These disclosures of Watatani and Tanaka I
support Dr. Fair’s testimony that a POSA would

App. 41
have been motivated to use Tanaka’s low-k silicon
nitride etch stop layer in Watatani’s conventional
dual damascene structure in order to address the
problem of stray capacitance. Ex. 1003 ¶¶ 95, 152.
Petitioner relies on the undisputed testimony of
Dr. Fair that a POSA “knew long before the filing
date of the 330 Patent that one way to reduce the
capacitance between two metal lines, and improve
interconnect performance, is to reduce the dielectric
constant of the materials between those lines.” Ex.
1003 ¶ 42; Pet. 13–14. We find that Dr. Fair’s
testimony is credible and supported by the
mathematical formula he provides for calculating the
capacitance between two parallel metal plates. Ex.
1003 ¶ 42 (capacitance can be represented by the
formula: C = kε0A/d, where k is the dielectric
constant of the material between the plates). This
equation shows that capacitance is directly
proportional to the dielectric constant of the material
between the plates. Dr. Bottoms agrees that
“capacitance is directly proportional to the area of
the conductors and to the relative permittivity or
dielectric constant of the dielectric material between
the conductors of the capacitor.” Ex. 2008 ¶ 37. Dr.
Bottoms quotes Dr. Fair’s testimony, relying on the
same capacitance equation to show “what one of
ordinary skill in the art would expect.” Id. ¶ 153. The
known relationship between capacitance and
dielectric constant reinforces that a POSA would
have been motivated to use a low dielectric constant
etch stop layer as a way to reduce stray capacitance
between adjacent conductors.
We also credit Dr. Fair’s testimony that “a person
of ordinary skill in the art would have had a
reasonable expectation of success in using Tanaka’s

App. 42
low-k silicon nitride etch stop layers in place of
Watatani’s conventional silicon nitride etch stop
layers in Watatani’s conventional dual damascene
structure.” Ex. 1003 ¶ 153; see Pet. 36, 48–49, 51–52,
59. Dr. Fair’s testimony is supported by the express
disclosures of Tanaka I and Watatani. Tanaka I’s
low-k silicon nitride film is used for the same
purpose as the silicon nitride film in Watatani,
namely, as an etch stop layer in a conventional dual
damascene copper interconnect structure that uses a
silicon oxide insulation film. Ex. 1005, 2:5–6 (“a first
etching stopper film 12 of SiN”); id. at 2:10–11
(“second etching stopper film 16 of SiN”); id. at Figs.
1A–1F (illustrating conventional dual damascene
process of forming a multilayer interconnect
structure that uses an SiO2 interlayer insulation
film); Ex. 1006, 1-1, Fig. 1 (disclosing new low-k SiN
film as the etch stop layer for conventional Cu
damascene interconnects with an SiO2 insulating
layer). We find Petitioner’s combination would have
had a reasonable expectation of success because
Tanaka I teaches an improvement to the same type
of prior art device described by Watatani as needing
improvement—a conventional dual damascene
interconnect structure. In re Inland Steel Co., 265
F.3d 1354, 1364 (Fed. Cir. 2001) (“[T]he strength of
the correlation between the references gives rise to a
reasonable expectation of success from combining
them.”).
Petitioner directs us to express disclosures in
Tanaka I that support a finding that Petitioner’s
proposed combination would have had a reasonable
expectation of success. For example, Petitioner relies
on Tanaka I’s disclosure: “New low-k SiN film, with a
permittivity of 5.4 and high immunity for Cu

App. 43
diffusion and oxidation, has been successfully
developed.” Ex. 1006, 1-1, 1-2 (emphasis added); Pet.
Reply 10. Petitioner also relies on Tanaka I’s
conclusion that the low-k film, with a permittivity of
5.4, “should be the solution to realize Cu damascene
interconnects for high performance VLSIs.” Ex. 1006,
1-1, 1-2; Pet. 59. As noted by Petitioner, Tanaka I
summarizes the results of various experiments by
stating “superior process results and film properties”
for its low-k silicon nitride layer are presented. Ex.
1006, 1-1; Pet. 58. From the results of etch rate
selectivity tests, for example, Tanaka I concludes
that the disclosed low-k silicon nitride film has
“enough ability for etching stopper.” Ex. 1006, 1-2;
see Pet. Reply 16. Petitioner persuades us that these
disclosures would have provided a POSA with a
reasonable degree of confidence that Tanaka I’s low-k
silicon nitride film would function as an etch stop in
Watatani’s
conventional
dual
damascene
interconnect structure. Pet. 58–59; Pet. Reply 10–11,
15–17.
We now turn to Patent Owner’s arguments
contesting motivation to combine and a reasonable
expectation of success.
Patent Owner begins by focusing on Watatani,
arguing it “does not teach that silicon nitride etch
stops are a source of stray capacitance” and “offers no
motivation related to etch stop layers having a low
dielectric constant.” PO Resp. 36, 37. We have
considered Patent Owner’s argument, but are
nevertheless persuaded by Petitioner’s reliance on
Watatani as evidence of a motivation to combine. As
Petitioner persuasively argues, Watatani is
concerned with the same problem addressed by
Tanaka I and the ’330 patent, namely, the problem of

App. 44
stray capacitance in conventional dual damascene
interconnect structures. Pet. 56–57; Ex. 1001, 3:32–
42; Ex. 1005, 1:23–33; Ex. 1006, 1-1. Watatani
recognizes
the
relationship
between
stray
capacitance and the dielectric constant of layers used
to make a multilayer interconnect, and addresses the
problem of stray capacitance in a manner similar to
Tanaka I and the ’330 patent, namely, by replacing a
high dielectric constant film with a low dielectric
constant film. Ex. 1005, 2:54–64. It is true that
Watatani’s solution pertains to a different material
layer than either Tanaka I or the ’330 patent—the
silicon oxide interlayer insulation film, rather than
the silicon nitride etch stop layer. Id. But Watatani
nevertheless supports and is fully consistent with
Petitioner’s contention that a POSA would have been
motivated to address the problem of stray
capacitance by replacing a high dielectric constant
material with a lower dielectric constant material,
such as by replacing a high dielectric constant etch
stop layer with a low dielectric constant etch stop
layer.
Next, Patent Owner argues there is no evidence
that a POSA would have been motivated to adopt
Tanaka I’s solution either “in lieu of” or “in addition
to” Watatani’s solution, which uses a low dielectric
constant organic insulation film to reduce parasitic
capacitance. PO Resp. 37–38, 44. Patent Owner’s
argument misconstrues Petitioner’s obviousness
contention, which is based on Watatani’s
conventional dual damascene interconnect structure
that uses conventional inorganic insulating films, not
Watatani’s
proposed
improvements
to
that
conventional structure that use lower dielectric
constant organic insulating films. See, e.g., Pet. 35

App. 45
(referencing the conventional dual damascene
structure shown in Watatani Figures 1A– 1F). See In
re Heck, 699 F.2d 1331, 1333 (Fed. Cir. 1983) (“The
use of patents as references is not limited to what the
patentees describe as their own inventions.” (internal
quotations omitted)).
Patent Owner’s argument also misconstrues
Petitioner’s burden. Petitioner’s obviousness case is
not undermined by Watatani’s disclosure of
alternative
techniques
for
reducing
stray
capacitance. See Pet. 59–60 (discussing Watatani’s
disclosure of organic insulating layers). To prove its
case, Petitioner needs to show that a POSA “would
have seen a benefit” from improving Watatani’s
conventional dual damascene interconnect structure
with Tanaka I’s low-k silicon nitride etch stop layer.
See KSR, 550 U.S. at 424 (in assessing obviousness,
the “proper question” is whether a person of ordinary
skill in the art “would have seen a benefit” to
upgrading a known device with another feature
known in the art in the manner claimed by
patentee).
Obviousness may be shown even if Petitioner’s
combination of Watatani and Tanaka I would have
been less effective at reducing stray capacitance than
Watatani’s embodiments having an organic
insulation film. See, e.g., Slot Speaker Techs., Inc. v.
Apple Inc., 680 F. App’x 932, 940 (Fed. Cir. 2017) (“It
is irrelevant whether Tomonori and Sadaie together
would be less effective than Sadaie alone at avoiding
the absorption of certain low frequencies.”).
Petitioner’s burden is to show that the claimed
invention would have been obvious to a POSA at the
time of the invention, not that it was the best option
available to a POSA. In re Mouttet, 686 F.3d 1322,

App. 46
1334 (Fed. Cir. 2012) (“[J]ust because better
alternatives exist in the prior art does not mean that
an inferior combination is inapt for obviousness
purposes.”).
Next, Patent Owner argues that “reducing the
dielectric constant of etch stop layers . . . might have
limited impact” on reducing parasitic capacitance,
and reducing the dielectric constant of other layers
“might outweigh the effect of reducing the dielectric
constant of etch stop layers.” PO Resp. 38. According
to Patent Owner, the dielectric constant of etch stop
layers has “little or no effect” on capacitive coupling,
which Patent Owner asserts is more significant than
stacked capacitance as a source of parasitic
capacitance. Id. at 38–41 (citing Ex. 2008 ¶¶ 124,
125, 127; Ex. 2009, 65:12–66:8; Ex. 2010, 10 3, Figs. 2,
5; Ex. 2011, 11 3, Fig. 8).
Again, Patent Owner’s argument misconstrues
Petitioner’s burden, which does not require proof
that the benefit of Petitioner’s combination
outweighs the benefit of other available options, such
as reducing the dielectric constant of other layers.
Slot Speaker, 680 F. App’x at 940; Mouttet, 686 F.3d
at 1334. We agree with Petitioner that Patent
Owner’s argument is contrary to the teachings of
Tanaka I, which states that low-k silicon nitride etch
stop layer “should be the solution” to the “parasitic
M. Igarashi, et al., The Best Combination of Aluminum and
Copper Interconnects for a High Performance 0.18μ CMOS Logic
Device, IEEE International Electron Devices Meeting, 829–32
(1998) (“Igarashi”).
11 G. Lecarval, et al., Advanced Interconnect Scheme Analysis:
Real
Impact
of
Technological
Improvements,
IEEE
International Electron Devices Meeting, 837–40 (1998)
(“Lecarval”).
10

App. 47
capacitance” problem caused by the “high
permittivity of [conventional] SiN.” Ex. 1006, 1-1;
Pet. Reply 5–6.
Although Patent Owner relies on Igarashi (Ex.
2010) and Lecarval (Ex. 2011) (see PO Resp. 38–41;
Ex. 2008 ¶¶ 125–127), Petitioner persuades us that
these references do not support Patent Owner’s
position. Pet. Reply 7. As noted by Petitioner,
Tanaka I cites Igarashi and Lecarval as support for
Tanaka I’s statement that the “high permittivity of
[conventional] SiN” contributes to the performance
degradation of copper damascene structures due to
“parasitic capacitance.” Ex. 1006, 1; Pet. Reply 7.
We give greater weight to Tanaka I’s 1999
interpretation of Igarashi and Lecarval than to Dr.
Bottoms’ post hoc opinion that reducing the dielectric
constant of etch stop layers “might have limited
impact” on parasitic capacitance. Ex. 2008 ¶ 124.
Moreover, Petitioner directs us to disclosures in
Igarashi and Lecarval that contradict Patent
Owner’s argument. Pet. Reply 6–7 (discussing Ex.
2010, 1-2; Ex. 2011, Fig. 8). For example, Igarashi
teaches “it is not desirable for the interconnects to
contain such a high Si3N4 [silicon nitride] film with a
‘high-k’ dielectric, because the effective dielectric
constant clearly increases.” Ex. 2010, 1-2. Similarly,
based on the comparison in Figure 8, Lecarval
concludes that “[f]or damascene [structures], the lowk material slightly improves” the cross-talk
sensitivity. Ex. 2011, 3-1. 12 Lecarval characterizes
12 Lecarval’s conclusion is based on Figure 8, which compares
cross-talk sensitivity, X, as a function of metallization layer
thickness for three different structures at two different pitches
(0.4 µm and 0.6 µm): (1) a non- damascene structure with an Al
metallization layer and a low-k dielectric; (2) a “Cu SiO2”

App. 48
the effect of low dielectric constant materials as an
improvement, even though “the impact of the
materials remains low.” Id.
Next, Patent Owner argues there is no evidence
“that replacing conventional silicon nitride etch stops
would cause a meaningful reduction in parasitic
capacitance, relative to Watatani’s low dielectric
constant spin- on glass damascene structure.” PO
Resp. 42. Again, Patent Owner’s argument
misconstrues Petitioner’s burden, which does not
require proof that Petitioner’s combination of
Watatani and Tanaka I is an improvement relative
to Watatani’s embodiments that use organic spin-on
glass (“SOG”) film. Slot Speaker, 680 F. App’x at 940;
Mouttet, 686 F.3d at 1334. See Ex. 1005, 3:4–14,
5:61–66, 6:1–3 (disclosing SOG embodiments).
Next,
Patent
Owner
identifies
various
parameters, such as etch stop layer thickness, that
are not disclosed by Watatani and asserts, because
these parameters are unknown, a POSA “would have
no basis to conclude” that stray capacitance would be
reduced by modifying Watatani’s device to
incorporate Tanaka I’s low dielectric constant silicon
nitride etch stop layer. PO Resp. 42–44 (citing Ex.
2008 ¶ 130; Ex. 1013, 13 Fig. 17). We disagree. Patent
damascene structure having etch stop layers with a
permittivity of 7 and thicknesses of 0.04 µm and 0.12 µm and a
dielectric layer with a permittivity of 4; and (3) a “Cu low k”
damascene structure having etch stop layers with a
permittivity of 4 and thicknesses of 0.04 µm and 0.04 µm and a
dielectric layer with a permittivity of 3. Ex. 2011, 1-2, 2-1, 3-1
(Table 1, Figs. 3 and 8).
13 Masayuki Tanaka, et al, Film Properties of Low-k Silicon
Nitride Films Formed by Hexachlorodisilane and Ammonia,
Journal of The Electrochemical Society, 147 (6) 2284–89 (2000)
(“Tanaka II”).

App. 49
Owner’s argument does not adequately account for
the express teachings of Watatani and Tanaka I and
the known relationship between dielectric constant
and capacitance, which Petitioner has persuasively
relied upon to show that a POSA would have been
motivated to use a low dielectric constant silicon
nitride etch stop layer to reduce stray capacitance.
See pages 20–21, supra.
Next, Patent Owner argues that replacing
Watatani’s conventional silicon nitride etch stop
layer with Tanaka I’s low dielectric constant etch
stop layer “may require increasing the thickness of
the etch stop layer by an amount that would cause
an overall increase in stray capacitance.” PO Resp.
43 (citing Ex. 2008 ¶ 130; Ex. 2009, 70:6–71:12). We
find Patent Owner’s argument is speculative and not
supported by the record as a whole. Although Patent
Owner and Dr. Bottoms make vague references to
etch selectivity (PO Resp. 42; Ex. 2008 ¶ 129), on this
record, it would be entirely speculative to find that a
thicker layer would be required for purposes of etch
selectivity. We are persuaded by Petitioner’s
arguments and Dr. Fair’s testimony directing us to
disclosures in Tanaka I and Tanaka II that use of
low-k silicon nitride would have permitted a thinnerthan-conventional etch stop layer. Pet. Reply 7–8;
Ex. 1017 ¶ 18 (both quoting Ex. 1006, 1; Ex. 1013, 6).
Next, Patent Owner asserts that the presence of
chlorine in Tanaka I’s HCD-SiN material would have
driven a POSA away from using Tanaka I’s approach
because chlorine was known to corrode copper
interconnects. PO Resp. 44 (citing Ex. 2008 ¶¶ 101,
104). We are persuaded by Petitioner’s response to
Patent Owner’s assertion, which relies on Dr. Fair’s
detailed analysis, supported by citations to Tanaka I,

App. 50
explaining why a POSA would not have been
concerned about the presence of chlorine in Tanaka
I’s silicon nitride etch stop material. Pet. Reply 8–9;
Ex. 1017 ¶ 19 (citing and quoting Ex. 1006, title, 1-2,
Fig. 8). For example, Petitioner and Dr. Fair rely on
Tanaka I’s tests showing stability of chlorine in low-k
films. Pet. Reply 8; Ex. 1017 ¶ 19; Ex. 1006, 1-2. In
contrast, Dr. Bottoms’ opinions regarding chlorine
corrosion of copper interconnects is unsupported by
citations to Tanaka I or other evidence. Ex. 2008 ¶¶
101, 104. In fact, Dr. Bottoms admits “[t]here is no
data on . . . corrosion of Cu in the metallization.” Id.
¶ 139 (emphasis added). Patent Owner had the
opportunity to cross-examine Dr. Fair’s reply
testimony and submit observations or to request a
sur-reply on this topic, but declined to do so. Under
these circumstances, we find that Dr. Fair’s
testimony regarding chlorine corrosion of copper
interconnects to be more credible than Dr. Bottoms’
testimony on this topic.
Turning to the issue of reasonable expectation of
success, Patent Owner argues that Tanaka I provides
“insufficient information” to suggest that Tanaka I’s
HCD-SiN films “would work as etch stop layers in
Watatani’s process or that such etch stop layers
could be made thin enough in Watatani’s process to
ultimately lower the device capacitance.” PO Resp.
45 (citing Ex. 2008 ¶ 132). Patent Owner asserts that
Tanaka I “omits critical characteristics of the HCDSiN material, making its suitability as an etch stop
speculative at best.” Id.
We agree with Petitioner that Patent Owner’s
arguments do not accurately characterize Tanaka I,
which states that the HCD-SiN film “has been
successfully developed” and discloses tests designed

App. 51
to show that HCD-SiN will work as an etch stop
layer in copper damascene metallization structures
like Watatani’s. Pet. Reply 10–11; Ex. 1006, 1, Fig. 1;
Ex. 1017 ¶¶ 22, 23. In our view, Patent Owner’s
arguments demand more of the prior art than is
provided by the sparse disclosure of the ’330 patent.
See Pet. 19 (“the 330 Patent sets forth few details on
how to accomplish the reduction [in dielectric
constant] or implement the methods”). Most of the
information Patent Owner contends is missing from
Tanaka I is not disclosed by the ’330 patent. For
example, the ’330 patent does not disclose etch
chemistries, etch selectivity, or the thickness of the
dielectric layers being etched. Cf. PO Resp. 48
(listing etch chemistry and relative thickness of the
materials as factors affecting suitability as an etch
stop); id. at 49 (asserting that Tanaka I does not
disclose etch selectivity between SiO2 and HCD-SiN).
Nor does the ’330 patent disclose any information
regarding the barrier property of silicon nitride etch
stop layers. Cf. PO Resp. 50–52 (asserting that
barrier property is a necessary characteristic of an
etch stop and the disclosure of Tanaka I is deficient
in this regard). Tanaka I provides at least as much, if
not more, information than the ’330 patent regarding
suitability of low dielectric constant silicon nitride as
an etch stop layer. Ex. 1006, 1-2, 2-2, Fig. 6
(“Selectivity of RIE etching rate versus TEOS”). The
’330 patent’s sparse disclosure, as compared with
Tanaka I’s more detailed disclosure, persuades us
that Tanaka I’s disclosure is sufficient to provide a
reasonable expectation of success of achieving the
claimed invention. See Trustees of Columbia Univ. in
City of New York v. Illumina, Inc., 620 F. App’x 916,
929 (Fed. Cir. 2015) (relying on disclosure of

App. 52
challenged patent as substantial evidence sufficient
to support PTAB’s finding of a reasonable
expectation of success in combining prior art
references and synthesizing the claimed nucleotide).
Patent Owner faults Petitioner for not presenting
evidence of a commercial product that uses Tanaka
I’s HCD-SiN as an etch stop layer. PO Resp. 47. We
agree with Petitioner, however, that commercial
success of the prior art is not a requirement for proof
of obviousness. Pet. Reply 12. In re Wright, 569 F.2d
1124, 1128 (C.C.P.A. 1976) (obviousness should be
measured against the nearest prior art, even if it is
not “the commercial standard”). Patent Owner
argues that later research “likely served as a
deterrent that prevented adoption” of Tanaka I’s
HCD-SiN material. PO Resp. 47 (citing Ex. 2008 ¶
134; Ex. 2012, 14 2, 4, Fig. 7; Ex. 2013, 15 1)). As noted
by Petitioner, however, both references relied upon
by Patent Owner were published after the filing date
of the ’330 patent, which means they are not relevant
to determining whether there would have been a
reasonable expectation of success. Pet. Reply 12 n.4.
Bristol-Myers Squibb Co. v. Teva Pharm., Inc., 752
F.3d 967, 976 (Fed. Cir. 2014) (“the skilled artisan’s
reasonable expectation of success is measured ‘as of
the date of the invention’” (quoting Amgen Inc. v.
Masayuki Tanaka et al., Suppression of SiN-Induced Boron
Penetration by Using SiH-Free Silicon Nitride Films Formed by
Tetraschlorosilane and Ammonia, 49 IEEE Transactions in
Electron Devices 1526–31 (2002) (“Tanaka III”).
15 N. Mise, et al., Suppression of Gate-Edge Metamorphoses of
Metal/High- k Gate Stack by Low-Temperature, Cl-Free SiN
Offset Spacer and its Impact on Scaled MOSFETs, Extended
Abstracts of the 2007 Int’l Conf. on Solid State Devices and
Materials, Tsukuba, 724–35 (2007) (“Mise”).
14

App. 53
Hoffman-La Roche, 580 F.3d 1340, 1362 (Fed. Cir.
2009)). Furthermore, neither Patent Owner nor its
expert explains how the later research (Exs. 2012,
2013) relates to a reasonable expectation of success
for HCD-SiN film as an etch stop layer in copper
damascene interconnect structures.
Relying on Dr. Fair’s testimony about a need for
further investigation, Patent Owner argues that a
POSA would have recognized “a degree of
uncertainty” when using Tanaka I’s HCD-SiN
material as an etch stop layer. PO Resp. 49 (citing
Ex. 2009, 55:6–16, 77:22–78:1, 83:12–84:5). But
Patent Owner does not argue that undue
experimentation would be required, agreeing with
Dr. Fair that any necessary experimentation would
be “standard.” Id. Petitioner directs us to the
testimony of Dr. Fair and disclosures in Tanaka I,
which persuade us that implementing Tanaka I’s
HCD-SiN material as an etch stop layer would have
been within the level of skill in the art at the
relevant time. Pet. Reply 14; Ex. 1003, ¶ 35; Ex.
1006, 1-1; Ex. 2009, 55:6–16, 77:9–78:10, 78:19–
79:22. Moreover, Patent Owner’s argument
regarding “a degree of uncertainty” is inconsistent
with the legal standard for a reasonable expectation
of success. Medichem, S.A. v. Rolabo, S.L., 437 F.3d
1157, 1165 (Fed. Cir. 2006) (“certainty of success” is
not required).
In the same vein, Patent Owner relies on Tanaka
I’s data regarding etch selectivity and Auger profiles
to argue that a POSA would have recognized a “risk
of over etching” and “doubted” the barrier ability and
long-term stability of Tanaka I’s HCD-SiN film. PO
Resp. 50–52 (citing Ex. 2008 ¶¶ 138, 139); see also
PO Sur-Reply (data in Tanaka I “raise[s] questions

App. 54
that would need investigation”). We agree with
Petitioner that Patent Owner’s arguments are
contradicted by the express disclosures of Tanaka I,
including its statements that HCD-SiN “is concluded
to have enough ability for etching stopper,” has the
“same RIE etching resistance as conventional
LPCVD SiN,” and has “higher barrier ability for Cu
diffusion than plasma-SiN.” Pet. Reply 15–16; Ex.
1006, 1-1, 1-2. Moreover, Patent Owner’s arguments
regarding “risk,” “doubt[],” and “questions” (PO Resp.
50–52) are inconsistent with the legal standard for a
reasonable expectation of success. In re Kubin, 561
F.3d 1351, 1360 (Fed. Cir. 2009) (“Obviousness does
not require absolute predictability of success . . . all
that is required is a reasonable expectation of
success.” (citing In re O’Farrell, 853 F.2d 894, 903–04
(Fed. Cir. 1988))); Medichem, 437 F.3d at 1165.
Similarly, Patent Owner argues that the
dielectric constant of HCD- SiN material would be
affected by the deposition rate and would “likely” be
affected by other parameters, such as deposition
pressure, temperature, and layer thickness. PO
Resp. 52–53 (asserting that “achieving a practical
deposition rate . . . would require a corresponding
increase in the dielectric constant” (citing Ex. 2008 ¶
140)); PO Sur-Reply 2 (“Forming an etch stop layer
with a dielectric constant of less than 5.5 . . . was
uncertain.”). Again, Patent Owner’s arguments are
inconsistent with the legal standard for a reasonable
expectation of success, which does not require
manufacturability at practical rates, nor absolute
certainty of success. In re Kubin, 561 F.3d at 1360;
Medichem, 437 F.3d at 1165. Regardless, Petitioner
presents credible, unrebutted testimony of Dr. Fair
that a POSA would have understood that slower

App. 55
deposition rates provide advantages over faster
rates. Pet. Reply 13; Ex. 1017 ¶ 25.
After considering the parties’ arguments and
evidence and the record as a whole, we are
persuaded Petitioner has established by a
preponderance of the evidence that a POSA would
have been motivated to combine Watatani’s
conventional dual damascene interconnect structure
with Tanaka I’s low dielectric constant silicon nitride
etch stop layer and would have had a reasonable
expectation of success of achieving the claimed
subject matter.
Accordingly, we are persuaded Petitioner has
established by a preponderance of the evidence that
claims 1 and 6 of the ’330 patent are unpatentable as
obvious in view of Watatani and Tanaka I.
2. Claims 2 and 7
Claim 2 depends from claim 1 and recites
“wherein the etch stop layer is a multilayer
structure.” Ex. 1001, 7:3–4. Claim 7 depends from
claim 6 and recites “wherein the via and channel
etch stop layers are a multilayer structure.” Id. at
8:12–13.
Petitioner contends that “Watatani expressly
describes an etch stop layer that includes ‘three or
more layers’ of silicon nitride.” Pet. 39, 54 (citing Ex.
1005, 7:54–55). Petitioner also contends that it was
well known in the prior art to form multilayer silicon
nitride films. Id. at 15, 20, 39, 54. Petitioner
contends that a POSA would have been motivated to
use a multilayer approach because it would improve
the uniformity of the etch stop film and improve its
dielectric properties by avoiding pinholes. Id. at 16,
20, 40–41, 55.

App. 56
In the Institution Decision, we rejected
Petitioner’s contention that Watatani describes an
etch stop layer that includes three or more layers of
silicon nitride. Dec. 17–18. Nevertheless, we
instituted review on the basis of Petitioner’s
contentions that multilayer silicon nitride layers
were known in the art and that a POSA would have
known of the advantages of a multilayer approach
and would have been motivated to use that approach
in view of its advantages. Id. at 18–19. In the
Rehearing Decision, we rejected Patent Owner’s
argument that the Institution Decision introduced a
new ground not asserted in the Petition. We stated:
“even though SST 1987 16 is necessary to establish
prima facie obviousness, there is no abuse of
discretion or prejudice to Patent Owner because the
Petition and the Decision each independently put
Patent Owner on notice of the reference and the way
in which it is relied upon by Petitioner and the
Board.” Reh’g Dec. 4.
Patent Owner argues that Watatani does not
disclose a multilayer silicon nitride etch stop and
that, by relying on SST 1987, the Institution
Decision improperly expanded the ground of
unpatentability asserted in the Petition. PO Resp.
54–60. In addition, Patent Owner challenges the
sufficiency of the evidence to establish motivation
and a reasonable expectation of success for forming
Tanaka I’s HCD-SiN etch stop as a multilayer
structure. Id. at 60–68.
Patent Owner does not dispute Petitioner’s
contention that multilayer silicon nitride layers were
16 Continuous Process CVD System, Solid State Technology,
October 1987, Ex. 1008 (“SST 1987”).

App. 57
known in the prior art. Pet. 15–16, 20, 39, 54 (citing
Ex.1003 ¶¶ 45–47, 105–107; Ex. 1008, 1-1, 2-1, Fig.
2; Ex. 1010 17). Petitioner directs us to persuasive
evidence, including Dr. Fair’s testimony that a POSA
“would have long known of equipment and
techniques to deposit silicon nitride layers using a
multilayer deposition technique.” Ex. 1003 ¶ 45
(citing Ex. 1008, 1). Dr. Fair relies on SST 1987,
which describes the Novellus Concept One Chemical
Vapor Deposition (CVD) system. Ex. 1008, 1-1.
According to SST 1987, the process chamber of the
Concept One has eight stations, seven of which are
used for depositing films on a wafer. Id. SST 1987
discloses that the Concept One enables “a new
approach to chemical vapor deposition, in which
every wafer that cycles through the system stops at
each of the seven deposition stations to receive one
seventh of its preprogrammed film thickness.” Id.
Petitioner’s contention is also supported by Wang,
which discloses a multilayer silicon nitride deposition
method and a multilayer silicon nitride layer. Ex.
1010, title, 11:8–18.
Dr. Bottoms agrees that SST 1987 “discloses
depositing SiN films using seven consecutive
deposition steps.” Ex. 2008 ¶ 163. Dr. Bottoms does
not dispute Dr. Fair’s testimony that the Concept
One tool was widely used in the semiconductor
industry in the 1980s and 1990s. Ex. 1003 ¶ 45. In
fact, Dr. Bottoms testifies that he is familiar with
multi-station deposition systems, including the
Novellus Concept One, and managed a group that
developed a precursor machine that was “introduced
in the early 1980’s” and “designed to sputter deposit
17

Wang et al., US 6,017,791, issued January 25, 2000 (“Wang”).

App. 58
films in a multi-station vacuum chamber.” Ex. 2008
¶ 148 (discussing the Varian 3180).
Petitioner and Dr. Fair direct us to substantial
evidence that it was known in the art to use
multilayer silicon nitride layers as an etch stop layer
in copper damascene interconnect structures. Pet.
Sur-Sur-Reply 3; Ex. 1017 ¶ 33; Ex. 1023 (Yota), 18 12. Yota discloses silicon nitride films for use as etch
stop layers in copper damascene architectures and
compares films deposited by high-density plasma
(“HDP”) CVD with films deposited by plasmaenhanced CVD (“PECVD”). Id., Title, Abstract. Yota
reports the results of experiments in which “[t]he
PECVD films were deposited in a six-station
deposition system.” Id. at 1-2. Dr. Fair testifies that
“Yota . . . is prior art for the use of multilayer silicon
nitride films as etching stoppers.” Ex. 1017 ¶ 33. 19
Petitioner has shown by a preponderance of the
evidence that a POSA would have been motivated to
use a multilayer approach, as taught by SST 1987,
when forming a low dielectric constant silicon nitride
etch stop layer, as taught by Tanaka I, and would
have had a reasonable expectation of success in
18 J. Yota, et al., Comparison between HDP CVD and PECVD
Silicon Nitride for Advanced Interconnect Applications, Proc. of
the IEEE 2000 Int’l Interconnect Tech. Conf. (2000) (“Yota”).
Yota was submitted with Petitioner’s Reply. Patent Owner
requested and received the opportunity to file a sur-reply and
declaration testimony responding to Yota. PO Sur- Reply 6–7;
Ex. 2014, 2; Ex. 2015 ¶¶ 16–18.
19 In view of our finding that multilayer silicon nitride etch stop
layers were known in the prior art, as evidenced by Dr. Fair’s
testimony, Dr. Bottoms’ testimony, SST 1987, and Yota, it is
unnecessary to address Petitioner’s contention that Watatani
discloses an etch stop layer that includes three or more layers of
silicon nitride. Pet. 39, 54; Pet. Reply 19–20.

App. 59
achieving the subject matter of claims 2 and 7. Pet.
16, 20, 40–41, 55 (citing Ex. 1003 ¶¶ 46, 47, 106–109,
143; Ex. 1008, 2-2; Ex. 1010, 11:8–18); see also Ex.
1003 ¶¶ 156, 157. Petitioner’s evidence shows two
motivations for a multilayer structure: (1) improved
film uniformity, and (2) improved dielectric
properties by avoiding pinholes. Pet. 40–41. We
discuss each of these motivations below:
First, Petitioner presents the undisputed
testimony of Dr. Fair establishing that a POSA
would have known that forming silicon nitride layers
in a multi-layer fashion was advantageous because
this approach produced more uniform thin films. Ex.
1003 ¶¶ 46, 106, 108, 143, 156 (citing Ex. 1008, 2-1).
Dr. Fair’s testimony is supported by 1987 SST, which
describes uniformity as an “inherent benefit[]” of a
multilayer deposition process using the Novellus
Concept One CVD tool. Ex. 1008, 2-1. The article
explains: “Within wafer uniformity is improved
because deposition anomalies at any individual
[deposition] station are averaged out, while at the
output
end
wafer-to-wafer
variations
are
significantly reduced because of the overall
averaging effect of the process.”
Id. (emphasis
added). The undisputed testimony of Dr. Fair further
establishes that “[s]uch film uniformity is important
in an etch stop layer, as non-uniform thin regions are
prone to unintended ‘punch through.’” Ex. 1003 ¶ 46.
Patent Owner and Dr. Bottoms do not disagree that
a POSA “would have been motivated to ‘improve the
uniformity’ of etch stop layers by using the Novellus
Concept One system described in the SST 1987
article” to deposit multiple layers of the same
material. PO Resp. 63; Ex. 2008 ¶ 149.
Second, Petitioner presents credible testimony of

App. 60
Dr. Fair establishing that a desire for improved
dielectric properties would have motivated the use of
a multilayer silicon nitride film. Ex. 1003 ¶¶ 47,
107, 108, 156 (citing Ex. 1010, 11:8–18). According to
Dr. Fair, “it was known in the prior art that forming
a multilayer silicon nitride layer comprising at least
two layers of silicon nitride on which a silicon oxide
layer is formed, one could avoid ‘pinholes formed
completely through the silicon nitride/silicon oxide
(NO) layer,’ which avoids ‘degraded dielectric
properties’ of the dielectric layers.” Ex. 1003 ¶ 47
(quoting Ex. 1010, 11:8–18).
Dr. Fair’s testimony is supported by Wang, which
discloses forming a multilayer silicon nitride layer by
CVD on a silicon oxide layer, which is then thermally
oxidized to form a silicon nitride/silicon oxide (NO)
layer. Ex. 1010, 10:5–48, 11:8–35, 11:46–56, Fig. 2.
Wang discloses an advantage of multilayer
deposition as follows:
[W]hen employing the multilayer silicon
nitride layer formed from the first silicon
nitride layer 36a and the second silicon nitride
layer 36b to subsequently form from the
multilayer silicon nitride layer a silicon
nitride/silicon oxide (NO) layer through a
thermal oxidation method, there is avoided
pinholes formed completely through the silicon
nitride/silicon oxide (NO) layer, which pinholes
would otherwise contribute to degraded
dielectric properties of the silicon nitride/
silicon oxide (NO) dielectric layer . . .
Id. at 11:8–18. Although Wang does not relate to etch
stop layers, Dr. Fair testifies that pinholes are
undesirable in etch stop layers, explaining that
pinholes can “function as localized defects that can

App. 61
alter the etch rate at individual points of an etch stop
layer.” Ex. 1003 ¶ 156. Dr. Fair’s testimony is
consistent with SST 1998, which shows that the
absence of pinholes is important for silicon nitride
etch stop layers for copper damascene interconnect
structures. SST 1998 teaches that silicon nitride etch
stop layers must be “pinhole-free so that its diffusion
barrier properties are not compromised.” Ex. 1007, 21.
Turning to the issue of reasonable expectation of
success, Petitioner directs us to the following
testimony of Dr. Fair, which we find persuasive:
A person of ordinary skill in the art would also
have had a reasonable expectation of success
in depositing Tanaka’s low-k silicon nitride
film as a series of multiple layers in the prior
art dual damascene structure of Watatani,
because devices designed to create multilayer
etch stops were available in the prior art, and
the use of a multilayer silicon nitride etch stop
for this purpose was widely known in the prior
art.
Ex. 1003 ¶ 109 (citing Ex. 1010, 11:8–18); see Pet. 41;
see also Ex. 1003 ¶ 157 (“Because the multilayer
deposition technique and its benefits was widely
known in the prior art, and because the Novellus
Concept One was broadly available commercially, a
person of ordinary skill in the art would have had a
reasonable expectation of success in depositing
Tanaka’s low-k silicon nitride film as a series of
multiple layers in the prior art dual damascene
structure of Watatani.” (citing Ex. 1008, 2, Fig. 2)).
Dr. Fair’s testimony is supported by SST 1987, which
discloses a seven-station CVD system for
sequentially depositing multiple layers of a dielectric

App. 62
film, such as silicon nitride. Ex. 1008, 1-1. Dr. Fair’s
testimony is consistent with Yota, which discloses
depositing a silicon nitride etch stop layer using a
six- station sequential deposition system. Ex. 1023,
1-2; see Pet. Sur-Sur-Reply 3 (citing Ex. 1023, 1-2).
We are also persuaded by Dr. Fair’s testimony
that “a person of ordinary skill in the art would have
had a reasonable expectation of success at keeping
the dielectric constant below 5.5 when employing a
multilayer silicon nitride etch stop.” Ex. 1017 ¶ 34;
see Pet. Reply 26 (citing Ex. 1017 ¶ 34); see also Pet.
Sur-Sur-Reply 4 (discussing Dr. Fair’s testimony
regarding dielectric constant of multilayer silicon
nitride film). Dr. Fair provides a credible technical
explanation for his opinion: “when stacking very thin
layers to form a multilayer film, the dielectric
constant can remain lower than a single layer film of
the same overall thickness because of the
interactions of the interfacial layers and the bulk
properties of the thin layers.” Id. ¶ 35. As further
discussed below, Dr. Bottoms provides no credible
rebuttal to Dr. Fair’s opinion, which is consistent
with Dr. Bottoms’ testimony regarding a POSA’s
understanding about the relationship between
multiple thin layers, density, and dielectric constant.
Ex. 2008 ¶ 40.
We turn now to Patent Owner’s arguments,
starting with the procedural challenge to our
Institution Decision. PO Resp. 56–60. 20 Patent
20 Because we do not rely on Watatani to teach a multilayer
silicon nitride etch stop layer, we do not need to address Patent
Owner’s argument that this feature is not disclosed by
Watatani (PO Resp. 54–56) or Patent Owner’s related
arguments regarding lack of motivation (id. at 61, 63) and
defeating the purpose of Watatani’s structure (id. at 67–68).

App. 63
Owner is correct that the Petition controls the scope
of an inter partes review. PO Resp. 56 (citing SAS
Inst. Inc. v. Iancu, 138 S. Ct. 1348 (2018) and 35
U.S.C. § 311(a)); see also Sirona Dental Sys. GmbH v.
Institut Straumann AG, 892 F.3d 1349, 1356 (Fed.
Cir. 2018) (“It would . . . not be proper for the Board
to deviate from the grounds in the petition and raise
its own obviousness theory.”). We have complied with
that requirement. Our Institution Decision (and this
final decision) rely on SST 1987 in the same way as it
was relied upon in the Petition: as evidence that
multilayer silicon nitride layers were known in the
prior art. Dec. 18–19. We disagree with Patent
Owner’s assertion that “Petitioner relies exclusively
on teachings of Watatani to disclose the multilayer
silicon nitride etch stop structure required by claims
2 and 7.” PO Resp. 57. The Petition plainly relies on
SST 1987 (in addition to Watatani) for this teaching.
Pet. 15–16, 20, 39–41, 53–55. Petitioner’s arguments
regarding motivation and reasonable expectation of
success apply to “the multilayer approach,” including
the multilayer deposition technique of SST 1987. Pet.
40–41, 55.
We agree with Petitioner that the
statements in the Petition regarding the benefits of a
multilayer silicon nitride etch stop “are clearly not in
reference to Watatani’s specific approach (to the
extent it is different), but to the general
understanding in the art of using a multilayer etch
stop as evidenced by, e.g., the SST 1987 reference.”
Pet. Reply 23 (citing Pet. 40–41). The fact that SST
1987 was not listed alongside Watatani and Tanaka I
in the summary of the ground (Pet. 4) or section
heading (Pet. 29) does not mean it was not part of
the ground of unpatentability asserted in the
Petition. Patent Owner’s counterargument elevates

App. 64
form over substance.
Patent Owner relies on In re NuVasive, Inc., 841
F.3d 966 (Fed. Cir. 2016)—see PO Resp. 60—but that
case is distinguishable. In NuVasive, the court held
that patent owner was not given an adequate notice
and opportunity to respond to the Board’s assertions
of fact regarding a prior art reference. 841 F.3d at
970–73 (citing the Administrative Procedure Act
(“APA”), 5 U.S.C. § 706). The reference in NuVasive
was relied upon for a particular claim element for the
first time in petitioner’s reply, and patent owner was
not given an opportunity to file a sur-reply or even to
address the point in the oral hearing. Id. at 973. In
contrast to NuVasive, Patent Owner in this case was
given notice and an opportunity to respond to
Petitioner’s and the Board’s assertions of fact
regarding SST 1987. Notice was given in the
Petition, the Institution Decision, and the Rehearing
Decision, all of which expressly rely upon SST 1987
to teach multilayer silicon nitride layers, and all of
which were filed before the Patent Owner Response.
Pet. 15–16, 20, 39–41, 53–55; Dec. 18–19; Reh’g Dec.
3–4. Moreover, Patent Owner concedes that it had
adequate notice and an opportunity to respond to
Petitioner’s arguments based on SST 1987 and the
Novellus Concept One CVD system. Tr. 25:15–24.
Accordingly, there is no APA concern here, and
NuVasive is not applicable.
Next, Patent Owner challenges the sufficiency of
Petitioner’s evidence of motivation and reasonable
expectation of success, arguing “Wang does not
provide any certainty that a multilayered structure
would eliminate pinholes in the claimed device.” PO
Resp. 62. Patent Owner’s argument is inconsistent
with the legal standard for a reasonable expectation

App. 65
of success, which does not require certainty of
success. In re Kubin, 561 F.3d at 1360; Medichem,
437 F.3d at 1165. In addition, we agree with
Petitioner that Patent Owner’s argument is contrary
to the express disclosures of Wang and Dr. Fair’s
testimony that the benefit of reducing pinholes was
well known in the art. Pet. Reply 24 (citing Ex. 1010,
11:8–25; Ex. 1003 ¶¶ 106–108).
Next, Patent Owner argues that Wang’s
multilayer deposition method requires a purge step
that is not described by SST 1987 and, “given this
difference in the process,” the multilayer structure of
the Novellus Concept One might not eliminate
pinholes. PO Resp. 62. We agree with Petitioner that
the express teachings of one reference do not need to
be reiterated by all references in order to show
motivation. Pet. Reply 24–25. Even if the advantages
described by Wang and SST 1987 were mutually
exclusive, they each independently provide a
motivation for a multilayer structure. Ex. 1008, 2-1
(improved uniformity); Ex. 1010, 11:8–18 (avoiding
pinholes).
Next, Patent Owner argues that Petitioner does
not establish that the dielectric constant of Tanaka
I’s HCD-SiN material would remain below 5.5 if it
was deposited as a series of multiple layers. PO
Resp. 64. As support for this argument, Patent
Owner directs us to Dr. Fair’s admittedly erroneous
testimony regarding Figure 17 of Tanaka II and
what it shows about the relationship between
thickness and dielectric constant for silicon nitride
layers. Id. at 64–65 (citing Ex. 1003 ¶¶ 44, 55, 109,
156; Ex. 1013, 5, Fig. 17; Ex. 2009, 16:7–25, 17:11–
18:7, 19:6–21, 21:20–22:18). In our view, Dr. Fair’s
admitted error does not support Patent Owner’s

App. 66
argument, nor does it warrant discrediting Dr. Fair’s
testimony about reasonable expectation of success.
Dr. Fair corrected his testimony in response to
Patent Owner’s deposition questions (Ex. 2009, 16:7–
22:18), and, according to Patent Owner, “Dr. Bottoms
agrees with Dr. Fair’s deposition testimony.” PO
Resp. 65 (citing Ex. 2008 ¶ 152). The experts agree
that, in Tanaka II Figure 17, the dielectric constant
was the same (5.4) or assumed to be the same for all
reported thicknesses of HCD-SiN. Ex. 2008 ¶ 152;
Ex. 2009, 17:16–18:7. The experts’ agreement on this
point does not undermine Dr. Fair’s opinion that a
POSA “would have had a reasonable expectation of
success at keeping the dielectric constant below 5.5
when employing a multilayer silicon nitride etch
stop.” Ex. 1017 ¶ 34.
Next, Patent Owner argues that applying thin
layers of Tanaka I’s HCD-SiN may allow hydrogen
and chlorine impurities to diffuse out of the HCDSiN, resulting in an increased dielectric constant. PO
Resp. 66. As it pertains to hydrogen impurities, that
argument is not persuasive in view of the
inconsistent positions taken by Patent Owner and
Dr. Bottoms regarding the effects of hydrogen
impurities on the dielectric constant of SiN films.
On the one hand, Patent Owner and Dr. Bottoms
assert that diffusion of hydrogen and chlorine out of
Tanaka I’s HCD-SiN material would increase the
dielectric constant of the material because hydrogen
and chlorine “impurities are likely a reason for the
decreased dielectric constant” of Tanaka I’s HCD-SiN
material. Id. (emphasis added); Ex. 2008 ¶ 163
(same). On the other hand, Patent Owner and Dr.
Bottoms assert that, “[r]educing hydrogen can have
the effect of lowering the dielectric constant of silicon

App. 67
nitride because hydrogen impurities in silicon nitride
can increase the dielectric constant of the material.”
Id. at 14 (emphasis added); Ex. 2008 ¶ 60 (same). We
thus agree with Petitioner that Patent Owner
“contradicts itself.” Pet. Reply 25.
We also agree with Petitioner that Patent
Owner’s argument, as it pertains to chlorine
impurities, is contradicted by Tanaka I, which
discloses that “Cl was not detected over the detection
limit up to 1000 C, and is concluded to be thermally
stable.” Ex. 1006, 1-2; Pet. Reply 25–26 (citing Ex.
1017 ¶ 34). There is no persuasive rebuttal to the
cited testimony of Dr. Fair that a POSA “would have
understood that chlorine would not diffuse out as
alleged by Dr. Bottoms.” Ex. 1017 ¶ 34. Moreover,
aside from the unsubstantiated and speculative
opinion of Dr. Bottoms (Ex. 2008 ¶ 163), Patent
Owner does not direct us to persuasive evidence that
hydrogen or chlorine impurities would diffuse out of
silicon nitride when applied as thin layers.
Next, Patent Owner argues that “it would be
understood that depositing multiple layers would
increase the density of the film” and “[b]y increasing
the density, the dielectric constant of the resulting
film might be increased.” PO Resp. 66 (citing Ex.
2008 ¶ 163). Patent Owner’s argument is
persuasively rebutted by Dr. Fair’s testimony that a
multilayer film can have a lower dielectric constant
than a single layer film of the same overall thickness.
Ex. 1017 ¶ 35; see Pet. Reply 26 (relying on Dr. Fair’s
testimony). As noted by Petitioner, Patent Owner’s
argument is inconsistent with Patent Owner’s
assertion in the ’330 patent that multilayer
deposition is one way to reduce the dielectric
constant of a silicon nitride etch stop layer. Pet. Sur-

App. 68
Sur-Reply 4; Ex. 1001, 5:63–6:7.
Patent Owner’s argument is also contradicted by
Dr. Bottoms’ testimony regarding a POSA’s
understanding of the ’330 patent’s teachings about
multilayer depositions. The ’330 patent teaches that
“multi-layer depositions . . . eliminates pinholes and
produces a denser film.” Ex. 1001, 6:3–4 (emphasis
added). Dr. Bottoms testifies that, as understood by a
POSA, “this means that the material overall may be
less dense because it includes voids or chemical
impurities.” Ex. 2008 ¶ 40 (emphasis added). In other
words, Dr. Bottoms testifies that a POSA would
understand the ’330 patent to teach that multilayer
deposition produces a film that is less dense overall
than single layer deposition. Patent Owner’s
argument that depositing multiple layers would
increase the density of the film (PO Resp. 66) is thus
contradicted by Dr. Bottoms’ testimony about how a
POSA would understand the teachings of the ’330
patent (Ex. 2008 ¶ 40).
Patent Owner’s argument is also contradicted by
the teachings of Yota, and Dr. Bottoms’
interpretation of those teachings. Yota discloses that
a multilayer PECVD deposition process produced a
lower density silicon nitride film than a single layer
HDP CVD deposition process. Ex. 1023, 1-1, 1-2, 2-2,
3-2 (showing a multilayer PECVD process produced a
less dense film than the HDP CVD process); see also
Ex. 2015 ¶ 16 (Yota’s HDP CVP silicon nitride
process “would be understood to form a single layer
of material”); id. ¶ 17 (“Yota reports a lower
dielectric constant for the multi- layered PECVD
film.”).
Accordingly, after considering the parties’
arguments and evidence and the record as a whole,

App. 69
we are persuaded Petitioner has established by a
preponderance of the evidence that claims 2 and 7 of
the ’330 patent are unpatentable as obvious in view
of Watatani and Tanaka I.
3. Claims 5 and 10
Claim 5 depends from claim 1 and recites
“wherein the conductor core contains a material
selected from a group consisting of copper,
aluminum, gold, silver, a compound thereof, and a
combination thereof.” Claim 10 depends from claim 6
and recites “wherein the first and second conductor
cores contain materials selected from a group
consisting of copper, gold, silver, a compound thereof,
and a combination thereof.”
Petitioner directs us to substantial evidence that
Watatani discloses the limitations of claims 5 and 10
by disclosing conductor cores comprising copper. Pet.
41–42, 56 (citing Ex.1005, 2:1–5, 2:42–47). Patent
Owner does not contest that evidence and submits no
arguments regarding claims 5 and 10 separately
from its arguments regarding claims 1 and 6. We
determine that Petitioner has demonstrated by a
preponderance of the evidence that the limitations of
claims 5 and 10 are disclosed by Watatani.
Accordingly, after considering the parties’
arguments and evidence and the record as a whole,
we are persuaded Petitioner has established by a
preponderance of the evidence that claims 5 and 10
of the ’330 patent are unpatentable as obvious in
view of Watatani and Tanaka I.
III. CONCLUSION
Petitioner has shown by a preponderance of the
evidence that claims 1, 2, 5–7, and 10 of the ’330
patent are unpatentable.

App. 70

IV.

ORDER
Accordingly, in consideration of the foregoing, it is
hereby: ORDERED that, based on a preponderance
of the evidence, claims 1, 2, 5–7, and 10 of the ’330
patent are unpatentable; and
FURTHER ORDERED that, because this is
a Final Written Decision, the parties to the
proceeding seeking judicial review of the decision
must comply with the notice and service
requirements of 37 C.F.R. § 90.2.

App. 71
PETITIONER:
Jeremy Jason Lang
Jared Bobrow
ORRICK, HERRINGTON & SUTCLIFFE LLP
PTABDocketJJL2@orrick.com
PTABDocketJ3B3@orrick.com
PATENT OWNER:
Timothy P. Maloney
Nicholas T. Peters
David Gosse
FITCH, EVEN, TABIN & FLANNERY LLP
tim@fitcheven.com
ntpete@fitcheven.com
dgosse@fitcheven.com

App. 72
APPENDIX D
UNITED STATES PATENT AND TRADEMARK
OFFICE
___________________
BEFORE THE PATENT TRIAL AND APPEAL
BOARD
___________________
MICRON TECHNOLOGY, INC.,
Petitioner,
v.
LONE STAR SILICON INNOVATIONS, LLC,
Patent Owner.
___________________
Case IPR2017-01566
Patent 6,388,330 B1
Before JENNIFER MEYER CHAGNON, JOHN F.
HORVATH, and ELIZABETH M. ROESEL,
Administrative Patent Judges.
ROESEL, Administrative Patent Judge.
DECISION
Denying Patent Owner’s Request for Rehearing
37 C.F.R. § 42.71

App. 73

I.

INTRODUCTION
Patent Owner, Lone Star Silicon Innovations,
LLC, timely filed a request for rehearing (Paper 10,
“Request” or “Req.”) of our decision instituting inter
partes review (Paper 8, “Decision” or “Dec.”) of U.S.
Patent No. 6,388,330 B1 (Ex. 1001, “the ’330 patent”)
based on a single ground asserted in the Petition
(Paper 1, “Pet.”): whether claims 1, 2, 5–7, and 10 of
the ’330 patent are unpatentable under 35 U.S.C. §
103(a) as obvious over Watatani 1 in view of Tanaka
I. 2 The Request seeks rehearing of our Decision as to
claims 2 and 7. For the reasons given below, we deny
the Request.
II.
LEGAL STANDARDS
“The burden of showing a decision should be
modified lies with the party challenging the
decision,” and the challenging party “must
specifically identify all matters the party believes the
Board misapprehended or overlooked, and the place
where each matter was previously addressed” in a
paper of record. 37 C.F.R. § 42.71(d). Because Patent
Owner seeks rehearing of our Decision on the
Petition seeking inter partes review, it must show an
abuse of discretion. See 37 C.F.R. § 42.71(c) (“When
rehearing a decision on petition, a panel will review
the decision for an abuse of discretion.”). An abuse of
discretion occurs when a “decision was based on an
erroneous conclusion of law or clearly erroneous
factual findings, or . . . a clear error of judgment.”
Watatani, US 6,153,511, filed June 25, 1999 and issued
November 28, 2000, Ex. 1005 (“Watatani”).
2 Masayuki Tanaka et al., Low-k SiN Film for Cu Interconnects
Integration Fabricated by Ultra Low Temperature Thermal
CVD, 1999 Symposium on VLSI Technology, Digest of Technical
Papers, Session 4B-4, pp. 47–48, Ex. 1006 (“Tanaka I”).
1

App. 74
PPG Indus., Inc. v. Celanese Polymer Specialties Co.,
840 F.2d 1565, 1567 (Fed. Cir. 1988).
III. ANALYSIS
Patent Owner argues that the Board exceeded its
authority and abused its discretion by instituting
inter partes review of claims 2 and 7 based on a new
ground not asserted in the Petition. Req. 2–3, 4–10.
Patent Owner additionally argues that the Decision
does not provide notice of the grounds on which inter
partes review of claims 2 and 7 is instituted. Id. at
10–11. We are not persuaded by either argument.
We instituted inter partes review of claims 2 and
7 on the same ground asserted against these claims
in the Petition: obviousness in view of Watatani and
Tanaka I. Compare Dec. 20–21, with Pet. 4. Both the
Decision and the Petition rely on another reference
for evidentiary support: SST 1987. 3 Our reliance on
SST 1987, however, does not transform the instituted
ground into a “new ground,” as argued by Patent
Owner. See Req. 2, 3, 4, 7, 10, 11.
The Decision relies on SST 1987 in the same way
the Petition does: as evidence of the knowledge of a
person of ordinary skill in the art (“POSA”). Dec. 18–
19; Pet. 39–40 (addressing claim 2), 53–54
(addressing claim 7); Ex. 1003 ¶¶ 45, 106. More
specifically, Petitioner and its declarant, Dr. Fair,
cite SST 1987 as support for their assertion that
multilayer silicon nitride layers were well known in
the prior art. Pet. 39, 54; Ex. 1003 ¶¶ 45, 106. Our
Decision, in turn, relies on SST 1987 and Dr. Fair’s
testimony as sufficient evidence to support
Petitioner’s contention that multilayer silicon nitride
Continuous Process CVD System, Solid State Technology,
October 1987 (Ex. 1008).

3

App. 75
layers were known in the art. Dec. 19 (citing Pet. 15,
20, 39, 54; Ex. 1003 ¶¶ 45, 106; Ex. 1008, 1). That
evidence, together with Petitioner’s cited disclosures
of Watatani and Tanaka I, provides a sufficient basis
on which to institute review of claims 2 and 7 on the
ground asserted by Petitioner.
Although Petitioner could have expressly included
SST 1987 with Watatani and Tanaka I in the list of
references that denominate the instituted ground,
Petitioner’s decision to rely instead on SST 1987
merely as support for its contention that multilayer
silicon nitride layers were known in the art is not
fatal to Petitioner’s challenge of claims 2 and 7.
Patent Owner cites no authority for the proposition
that a reference relied upon to show that a claim
limitation is within the knowledge of a POSA must
be expressly included in the list of references that
denominate the ground. As discussed above, SST
1987 is not a “new reference,” as argued by Patent
Owner. Req. 7. Therefore, even though SST 1987 is
necessary to establish prima facie obviousness, there
is no abuse of discretion or prejudice to Patent
Owner because the Petition and the Decision each
independently put Patent Owner on notice of the
reference and the way in which it is relied upon by
Petitioner and the Board.
IV. CONCLUSION
After considering Patent Owner’s arguments for
rehearing, we determine that Patent Owner has not
shown that the Decision instituting inter partes
review of claims 2 and 7 of the ’330 patent was an
abuse of discretion.

App. 76

V.

ORDER

Accordingly, it is:
ORDERED that Patent Owner’s request for
rehearing is denied.

App. 77
PETITIONER:
Jeremy Lang
Robert Magee
Weil, Gotshal & Manges LLP
Jason.lang@weil.com
Robert.magee@weil.com
PATENT OWNER:
Timothy P. Maloney
Nicholas T. Peters
Fitch, Even, Tabin & Flannery LLP
tim@fitcheven.com
ntpete@fitcheven.com

App. 78
APPENDIX E
UNITED STATES PATENT AND TRADEMARK
OFFICE
__________________
BEFORE THE PATENT TRIAL
AND APPEAL BOARD
__________________
MICRON TECHNOLOGY, INC.,
Petitioner,
v.
LONE STAR SILICON INNOVATIONS, LLC,
Patent Owner.
__________________
Case IPR2017-01566
Patent 6,388,330 B1
__________________
Before JENNIFER MEYER CHAGNON, JOHN F.
HORVATH, and ELIZABETH M. ROESEL,
Administrative Patent Judges.
ROESEL, Administrative Patent Judge.
DECISION
Institution of Inter Partes Review
37 C.F.R. § 42.108

App. 79
This case concerns U.S. Patent No. 6,388,330 B1.
Ex. 1001 (“the ’330 patent”). Petitioner, Micron
Technology, Inc., filed a Petition requesting inter
partes review of claims 1, 2, 5–7, and 10 (“the
challenged claims”) of the ’330 patent. Paper 1
(“Pet.”). Patent Owner, Lone Star Silicon
Innovations, LLC, filed a Preliminary Response.
Paper 7 (“Prelim. Resp.”).
We have authority to determine whether to
institute an inter partes review. 35 U.S.C. § 314; 37
C.F.R. § 42.4(a). An inter partes review may not be
instituted “unless the Director determines . . . there
is a reasonable likelihood that the petitioner would
prevail with respect to at least 1 of the claims
challenged in the petition.” 35 U.S.C. § 314(a).
Applying that standard, we institute an inter partes
review of claims 1, 2, 5–7, and 10 of the ’330 patent
(“the challenged claims”) for the reasons and on the
ground set forth below.
The following findings of fact and conclusions of
law are not final, but are made for the sole purpose of
determining whether Petitioner meets the threshold
for initiating review. Any final decision shall be
based on the full trial record, including any response
timely filed by Patent Owner.
I.
BACKGROUND
A.
Related Matters
Pursuant to 37 C.F.R § 42.8(b)(2), the parties
identify the following patent infringement lawsuits
involving the ’330 patent:
Lone Star Silicon Innovations, LLC v.
Micron Technology, Inc., No. 2:16-cv-01116
(E.D. Tex. filed Oct. 7, 2016);
Lone Star Silicon Innovations, LLC v.
Nanya Technology Corp., No. 2:16-cv-01117

App. 80
(E.D. Tex. filed Oct. 7, 2016);
Lone Star Silicon Innovations, LLC v.
Renesas Electronics Corp., No. 2:16-cv-01438
(E.D. Tex. filed Dec. 20, 2016);
Lone Star Silicon Innovations, LLC v.
Semiconductor Manufacturing International
Corp., No. 2:16-cv-01276 (E.D. Tex. filed Nov.
16, 2016);
Lone Star Silicon Innovations, LLC v.
Toshiba Corp., No. 2:16- cv-01170 (E.D. Tex.
filed Oct. 14, 2016); and
Lone Star Silicon Innovations, LLC v.
United Microelectronics Corp., No. 2:16-cv01216 (E.D. Tex. filed Oct. 31, 2016).
Pet. 2–3; Paper 3, 2 (Patent Owner Mandatory
Notices).
Patent Owner identifies other inter partes review
proceedings involving Micron Technology as
Petitioner and Lone Star Silicon Innovations, LLC as
Patent Owner and states that the patents involved in
the other proceedings are not related to the ’330
patent. Paper 3, 1.
B.
Asserted Ground of Unpatentability
The Petition asserts a single ground of
unpatentability with respect to the challenged
claims: whether claims 1, 2, 5–7, and 10 of the ’330
patent are unpatentable under 35 U.S.C. § 103(a) as
obvious over Watatani 1 in view of Tanaka I. 2 Pet. 4.
Watatani, US 6,153,511, filed June 25, 1999 and issued
November 28, 2000, Ex. 1005 (“Watatani”). Watatani is
asserted as prior art under 35 U.S.C. § 102(e). Pet. 25 n.7.
2 Masayuki Tanaka et al., Low-k SiN Film for Cu Interconnects
Integration Fabricated by Ultra Low Temperature Thermal
CVD, 1999 Symposium on VLSI Technology, Digest of Technical
Papers, Session 4B-4, pp. 47–48, Ex. 1006 (“Tanaka I”). Tanaka
1

App. 81
Petitioner supports its challenge with a
Declaration of Richard Fair, Ph.D. Ex. 1003. Patent
Owner supports its Preliminary Response with a
Declaration of W. R. Bottoms, Ph.D. Ex. 2001.
C.
The ’330 Patent (Ex. 1001)
The ’330 patent, titled, “Low Dielectric Constant
Etch
Stop
Layers
in
Integrated
Circuit
Interconnects,” was issued May 14, 2002 from
Application No. 09/776,012, filed February 1, 2001.
Ex. 1001 at (21), (22), (45), (54).
The ’330 patent relates to semiconductor
technology and more specifically to etch stop layers
in integrated circuits. Id. at 1:6–8. According to the
’330 patent, semiconductor devices fabricated in and
on a semiconductor substrate may be interconnected
using a “damascene” technique of metallization. Id.
at 1:11–29. A “single damascene” technique is used to
form a single layer of conductive interconnects, and a
“dual damascene” technique is used to form multiple
layers of conductive interconnects that are separated
by interlayer dielectric layers, including etch stop
layers, in vertically separated planes and
interconnected by vertical connections or “vias.” Id.
at 1:30–34, 2:30–51. The ’330 patent discloses that
closely positioned, parallel conductive channels
suffer from capacitive coupling effects, which can be
reduced by reducing the dielectric constant of the
silicon nitride etch stop layers between the channels.
Id. at 3:32–42, 3:49–60. More specifically, the ’330
patent represents that “currently used silicon nitride
I is asserted as prior art under 35 U.S.C. § 102(b). Pet. 27 n.8.
As support for public accessibility of Tanaka I, Petitioner
submits the Declaration of Peter J. Rolla, an employee of the
University of California San Diego Library in La Jolla
California. Ex. 1009.

App. 82
. . . has a dielectric constant in excess of 7.5” (id. at
3:39–41) and discloses that capacitive coupling
effects are reduced by using an etch stop layer
having a dielectric constant below 5.5 (id. at 3:53–54,
3:58–59).
Figures 1 and 2 of the ’330 patent show a “prior
art” structure, and Figure 3 shows the invention. Ex.
1001, 4:14–20. Figures 2 and 3 of the ’330 patent are
reproduced below:

Figures 2 and 3, above, show semiconductor wafers
100, 200, including dielectric layers 108, 110, 112,
208, 210, and 212; conductor cores 130, 136, 230, 236;
and etch stop layers 114, 120, 122, 124, 214, 220,
222, and 224. 3 Id. at 4:24–32, 4:42–5:4, 5:21–53.
According to the ’330 patent, Figure 3 is “similar” to
Figure 2, except for the thickness of the etch stop
layers, which is shown as “T” in Figure 2 and “t” in
Figure 3. Id. at 4:18, 5:17–23, 5:66– 6:2.
Regarding the etch stop layers, the ’330 patent
discloses:
In the present invention, a half thickness,
high quality, etch stop layer (compared to the
prior art etch stop layer) is deposited.
Structures with 100 series reference numerals are shown in
Figure 2, and structures with 200 series reference numerals are
shown in Figure 3.

3

App. 83
For example, for silicon nitride, the
dielectric constant of an etch stop layer in
accordance with the present invention is
about 5.5 contrasted to an excess of 7.5 in
the prior art.
Id. at 5:60–65. The ’330 patent discloses processes
that can be used to produce etch stop layers with a
dielectric constant under 5.5, including successive
deposition of multiple layers of silicon nitride, which
“eliminates pinholes and produces a denser film.” Id.
at 5:66–6:7.
D.
Illustrative Claim
The ’330 patent has 10 claims, including
independent claims 1 and 6. Claims 1, 2, 5–7, and 10
are challenged in the Petition. Claim 1 is reproduced
below:
1. An integrated circuit comprising:
a semiconductor substrate having a
semiconductor device provided thereon;
a first dielectric layer formed over the
semiconductor substrate having a first opening
provided therein;
a first conductor core filling the first
opening and connected to the semiconductor
device;
an etch stop layer of silicon nitride formed
over the first dielectric layer and the first
conductor core, the etch stop layer having a
dielectric constant below 5.5;
a second dielectric layer formed over the
etch stop layer and having a second opening
provided therein open to the first conductor
core;
a second conductor core filling the second
opening and connected to the first conductor

App. 84
core.
Ex. 1001, 6:54–7:2.
Claim 6 is similar to claim 1, except that it recites
an additional dielectric layer (called a via dielectric
layer) and an additional etch stop layer (called a
channel etch stop layer), and the second conductor
core fills openings in both the via and second
dielectric layers. Id. at 7:15–8:11.
II.
DISCUSSION
A.
Claim Construction
In an inter partes review, claim terms in an
unexpired patent are given their broadest reasonable
interpretation in light of the specification of the
patent in which they appear. 37 C.F.R. § 42.100(b);
Cuozzo Speed Techs., LLC v. Lee, 136 S. Ct. 2131,
2144–46 (2016). Under that standard, we generally
give claim terms their ordinary and customary
meaning, as understood by a person of ordinary skill
in the art in the context of the entire patent
disclosure. In re Translogic Tech., Inc., 504 F.3d
1249, 1257 (Fed. Cir. 2007).
Petitioner does not propose any express claim
constructions. Pet. 23–24. Petitioner asserts that the
parties’ claim construction disputes in the related
district court litigation are not relevant to this
proceeding. Pet. 24 n.6, 33, 34, 36–37, 41, 49.
Patent Owner acknowledges “[t]here does not
appear to be a dispute as to the meaning” of “etch
stop layer of silicon nitride” in claims 1 and 6 of the
’330 patent, but proposes a construction for this term
“for purposes of a complete record.” Prelim. Resp. 15.
Patent Owner’s proposed construction is the
construction proposed in the related district court
litigation. Compare id., with Ex. 1015, 11. As support
for its proposed construction, Patent Owner relies on

App. 85
Petitioner’s contentions regarding the disclosure of
Tanaka I. Prelim. Resp. 19–20.
After considering the Petition and the
Preliminary Response, we determine that we do not
need to resolve any claim construction disputes for
purposes of this Decision. Vivid Techs., Inc. v. Am.
Sci. & Eng’g, Inc., 200 F.3d 795, 803 (Fed. Cir. 1999)
(“only those terms need be construed that are in
controversy, and only to the extent necessary to
resolve the controversy”).
B.
Level of Ordinary Skill in the Art
Petitioner’s declarant, Dr. Fair, testifies that a
person of ordinary skill in the art (“POSA”) would
have had at least a Bachelor of Science degree in
electrical engineering, material science, physics,
chemistry, or a closely related field and at least five
years of industry experience in the development of
semiconductor process technologies and the
fabrication of semiconductor devices. Ex. 1003 ¶ 18.
Dr. Fair further testifies that an individual with an
advanced degree in a relevant field would require
less experience in developing process technologies
and in fabricating semiconductor devices. Id. Patent
Owner’s declarant, Dr. Bottoms, testifies that a
POSA would have held a master’s degree in physics,
electrical engineering or a related field and three
years or more experience working with the
technologies implemented in semiconductor devices
and the fabrication of semiconductor devices. Ex.
2001 ¶ 33. Neither declarant indicates that any
proffered opinion would change depending on the
level of ordinary skill in the art.
In our view, based on the record presented at this
stage of the proceeding, there is little difference
between the declarants’ definitions of a POSA, and

App. 86
the outcome of our determination whether to
institute review would be the same, regardless of
which definition we accept. Nevertheless, for the
sake of clarity and for purposes of this Decision, we
accept Dr. Bottoms’ definition of a POSA. We also
rely on the cited prior art references as reflecting the
level of ordinary skill in the art at the time of the
invention. Okajima v. Bourdeau, 261 F.3d 1350, 1355
(Fed. Cir. 2001).
C.
Prior Art References
1.
Watatani (Ex. 1005)
Watatani discloses a semiconductor device having
a multilayer interconnection structure. Ex. 1005 at
(54). According to Watatani, Figures 1A–F “show a
typical example of the conventional dual damascene
process of forming a multilayer interconnection
structure . . . .” Id. at 1:65–67. Petitioner relies on
Watatani Figure 1F, which is reproduced below:

Watatani Figure 1F illustrates a step of a
conventional dual damascene process. Ex. 1005,
1:65–67, 2:43–48, 5:32–33. The structures shown in
Watatani Figure 1F include silicon (Si) substrate 1,
lower interconnection pattern 10 of conductive
material such as copper (Cu), etching stopper film 12
of silicon nitride (SiN), first interlayer insulation film

App. 87
14 of silicon oxide (SiO2), second etching stopper film
16 of SiN, second interlayer insulation film 22 of
SiO2, interconnection groove 26, and contact hole 28.
Id. at 2:1–41. According to Watatani, “an insulation
film (not illustrated) [is] interposed between the Si
substrate 1 and the lower interconnection pattern
10.” Id. at 2:3–5. Watatani discloses that
interconnection groove 26 and contact hole 28 are
filled with copper (Cu). Id. at 2:42–47.
According to Watatani, the multilayer
interconnection structure of Figure 1F “has a
drawback, due to the use of SiO2 having a large
dielectric constant, for the interlayer insulation
film 14 or 22, in that the interconnection patterns
tend to have a large stray capacitance.” Id. at
2:54–58. Watatani discloses that this problem is
overcome by using “an organic interlayer
insulation film having a characteristically small
dielectric constant.” Id. at 2:61–64. However,
conventional multilayer interconnection structures
using an organic interlayer insulation film suffer
from another drawback, namely that resist
pattern misalignments are difficult to correct. Id.
at 3:51–4:41. To address the resist pattern
correction problem, Watatani discloses a
semiconductor fabrication process that includes
the steps of forming a first etching stopper film on
an organic interlayer insulation film and forming
a second, different etching stopper film on the first
etching stopper film. Id. at 4:48–5:25; see also id.
at 6:4–10 (disclosing “an etching stopper structure
81, formed of a stacking of two etching stopper
layers, . . . a first etching stopper film 80 of SiN . .
. and a second etching stopper film 82 of SiO2”);
Fig. 5A.

App. 88
2. Tanaka I (Ex. 1006)
Tanaka I addresses the problem of parasitic
capacitance
associated
with
copper
(Cu)
interconnects formed by a conventional damascene
process that uses high-k SiN film for the etch stopper
layers. Ex. 1006, 1-1. 4 To solve this problem, Tanaka
I discloses a “[n]ew low-k SiN film with a permittivity
of 5.4 and high immunity for Cu diffusion and
oxidation. . . .” 5 Id. at 1-1, 1-2. The film is formed by
an ultra low temperature thermal chemical vapor
deposition
(“CVD”)
process
using
HexaChloroDisilane (HCD, Si2Cl6) as a silicon
source. Id. at 1-1. Tanaka I refers to the new film as
“HCD-SiN” and discloses a deposition process and
film properties for the new film. Id. at 1-1, 1-2, Figs.
2–8.
Figure 1 of Tanaka I is reproduced below:

4 We cite to Tanaka I and other non-patent references using the
page numbers added by Petitioner followed by a hyphenated
suffix (“-1” or “-2”) to indicate the first or second column.
5 Dr. Fair explains that “[t]he dielectric constant of a material,
which is sometimes referred to as its permittivity and which is
represented by the letter ‘k,’ is an intrinsic property of a
material . . . .” Ex. 1003, 19 n.2.

App. 89
Figure 1 of Tanaka I shows copper interconnects
formed by a conventional damascene process, which
requires “plural layers of high-k SiN film for a groove
etch stopper and a barrier of Cu diffusion and
oxidation. . . .” Ex. 1006, 1-1. As explained above,
Tanaka I proposes improving upon this conventional
process by using “HCD-SiN as the etch-stop and the
barrier layer . . . to realize Cu damascene
interconnects for high performance VLSIs.” Id.
D.
Petitioner’s Asserted Ground
1.
Independent Claims 1 and 6
Petitioner contends that claims 1 and 6 are
unpatentable as obvious over Watatani and Tanaka
I. Pet. 29–38, 42–53. Petitioner contends that a
POSA would have been motivated to use the
conventional or prior art dual damascene
interconnect structure disclosed in Watatani, but use
Tanaka I’s low-k silicon nitride etch stop layers
instead of conventional silicon nitride etch stop
layers in order to address the issue of stray
capacitance discussed in both references. Id. at 29,
36. Petitioner contends that Watatani Figures 1A–F
and the description of those figures (Ex. 1005, 1:65–
2:47) teaches or suggests all elements of claims 1 and
6, except for the dielectric constant, which Petitioner
contends is taught by Tanaka I. Pet. 29–38, 42–53;
see also id. at 35–36, 48, 51 (acknowledging that
Watatani does not disclose the dielectric constant of
the silicon nitride etch stop layer and citing Tanaka
I, Ex. 1006, 1-1, Figs. 1, 5 for that feature). Relying
on the Fair Declaration, Petitioner argues that a
POSA would have been motivated to combine the
teachings of Watatani and Tanaka I and would have
had a reasonable expectation of success. Id. at 36,
48–49, 51–52, 56–60 (citing Ex. 1003 ¶¶ 95, 125, 132,

App. 90
150–155; Ex. 1005, 1:23–33, 2:54–60, Figs. 1A–F; Ex.
1006, 1-1, Fig. 1; Ex. 1007, 6 1, Fig. 1).
Patent Owner argues that Watatani and Tanaka
I “address different aspects of, and provide very
different solutions to, the issue of parasitic
capacitance.” Prelim. Resp. 44 (citing Ex. 2001 ¶
109). Patent Owner argues that Watatani teaches
away from Petitioner’s proposed modification,
asserting “[t]he reference is not concerned with the
dielectric constant of the SiN etch stop layers, and
teaches instead that the device capacitance should be
controlled by using organic insulator layers,” which
Patent Owner characterizes as a “fundamentally
different approach.” Id. at 46–47 (citing Ex. 2001 ¶
111).
In addition, Patent Owner argues that
Watatani and Tanaka I do not provide sufficient
information from which a POSA could reasonably
conclude that the HCD-SiN film of Tanaka I would
function effectively as an etch stop in the structure
and process of Watatani or that Petitioner’s proposed
substitution would successfully reduce the stray
capacitance of Watatani’s device. Id. at 47–53 (citing
Ex. 2001 ¶¶ 113, 114, 116–122).
After considering both the Petition and
Preliminary
Response,
we
determine
that
Petitioner’s evidence is sufficient to support its
contention that it would have been obvious to
substitute low dielectric constant silicon nitride etch
stop layers, as disclosed in Tanaka I, for conventional
silicon nitride etch stop layers in a conventional dual
damascene interconnect structure, as disclosed in
Figures 1A–1F of Watatani. Pet. 29, 36, 48–49, 51–
6 Robert L. Jackson et al., Processing and Integration of Copper
Interconnects, Solid State Technology, March 1988 (“SST
1998”).

App. 91
52, 56–60.
Petitioner’s contention is supported by Dr. Fair’s
testimony that a POSA “would have been motivated
to use Tanaka’s low-k silicon nitride etch stop layer
instead of the conventional silicon nitride etch stop
layer in the dual damascene structure of Watatani in
order to reduce the problem of stray capacitance
discussed in both Watatani and Tanaka.” Ex. 1003 ¶
95; see also id. ¶¶ 40–44 (explaining that the use of
low-k materials to reduce parasitic capacitance was
known in the art); ¶¶ 151–155 (discussing motivation
to combine and reasonable expectation of success).
Petitioner’s contention is further supported by
Watatani, which acknowledges the problem of stray
capacitance in complex, multilayer interconnection
structures and discloses the substitution of
interlayer insulation film having a low dielectric
constant for interlayer insulation film having a large
dielectric constant as a solution to the problem. Ex.
1005, 1:23–33, 2:54–64. Petitioner’s contention is
further supported by Tanaka I, which teaches a “lowk SiN film” for use as etch-stopper layers in an
interconnect structure formed by a conventional
copper damascene process. Ex. 1006, 1-1, Fig. 1.
We acknowledge Patent Owner’s argument that
Watatani teaches away by disclosing a different
solution to the problem of stray capacitance than is
claimed in the ’330 patent. Prelim. Resp. 44–47. Dr.
Fair addresses this issue in paragraph 155 of his
testimony. Ex. 1003 ¶ 155. At this stage, we are
persuaded that Petitioner’s arguments and evidence
are sufficient to institute review, notwithstanding
Patent Owner’s argument. See Galderma Labs., L.P.
v. Tolmar, Inc., 737 F.3d 731, 738 (Fed. Cir. 2013)
(“[a] reference does not teach away . . . if it merely

App. 92
expresses a general preference for an alternative
invention but does not criticize, discredit, or
otherwise discourage investigation into the invention
claimed,” quoting DePuy Spine, Inc. v. Medtronic
Sofamor Danek, Inc., 567 F.3d 1314, 1327 (Fed. Cir.
2009)).
We also acknowledge Patent Owner’s argument
that Watatani and Tanaka I do not contain sufficient
information to provide a reasonable expectation of
success. Prelim. Resp. 47–53 (arguing that a POSA
would need additional information regarding etch
chemistries, layer thicknesses, etch selectivity versus
SiO2, and dielectric constants to determine whether
Tanaka I’s HCD-SiN film would function effectively
as an etch stop and successfully reduce the stray
capacitance of Watatani’s device). At this stage, we
are persuaded that Petitioner has met its burden
notwithstanding Patent Owner’s arguments, which
can be further developed at trial.
In this regard, the relevant inquiry is whether a
POSA would have had a reasonable expectation of
success in modifying the prior art damascene process
disclosed in Watatani’s Figures 1A–1F in light of
Tanaka I to achieve the claimed invention.
Intelligent Bio-Systems, Inc. v. Illumina Cambridge
Ltd., 821 F.3d 1359, 1367 (Fed. Cir. 2016); Slot
Speaker Techs., Inc. v. Apple Inc., No. 2015-2038, 680
F. App’x 932, 940 (Fed. Cir. Feb. 17, 2017) (unpub.).
The integrated circuit recited in claims 1 and 6 of
the ’330 patent includes one or more etch stop layers
having a dielectric constant below 5.5. Ex. 1001,
6:63–64, 7:24–24, 8:5–6. The challenged claims do
not recite that the stray capacitance or capacitive
coupling effects are reduced. Regarding stray
capacitance, Tanaka I provides the same general

App. 93
teaching as the ’330 patent: that parasitic
capacitance is reduced by replacing high dielectric
constant silicon nitride etch stopper layers with low
dielectric constant silicon nitride etch stopper layers.
Compare Ex. 1006, 1-1, with Ex. 1001, 3:32–42, 3:49–
60. Furthermore, the ’330 patent does not disclose or
claim any etch chemistries or etch selectivity.
Although the thickness of the etch stop layer is
disclosed (Ex. 1001, 6:2), the thickness of the
interlayer dielectric is not disclosed, and no
thicknesses are recited in the claims.
Accordingly, the parties should focus their
arguments on whether a POSA would have had a
reasonable expectation of successfully combining the
teachings of Watatani and Tanaka I to meet the
limitations of the claimed invention. Intelligent BioSystems, 821 F.3d at 1367. The applicable legal
standard does not require that the prior art disclose
more information than is disclosed in the ’330 patent
in order to provide a reasonable expectation of
success. Id.
We have considered the testimony of Patent
Owner’s declarant, Dr. Bottoms. Ex. 2001 ¶¶ 109–
122. To the extent that Dr. Bottoms’ testimony
creates a genuine issue of material fact regarding
whether a POSA would have had a motivation to
combine Watatani and Tanaka I and whether a
POSA would have had a reasonable expectation of
achieving the claimed invention, we view that
dispute in the light most favorable to Petitioner at
this stage of the proceeding. See 37 C.F.R. §
42.108(c).
After considering the arguments and evidence
presented in the Petition and Preliminary Response,
we are persuaded that Petitioner has demonstrated a

App. 94
reasonable likelihood of prevailing on its contention
that claims 1 and 6 are unpatentable as obvious over
Watatani and Tanaka I.
2.
Claims 2 and 7
Claim 2 depends from claim 1 and recites
“wherein the etch stop layer is a multilayer
structure.” Ex. 1001, 7:3–4. Claim 7 depends from
claim 6 and recites “wherein the via and channel
etch stop layers are a multilayer structure.” Id. at
8:12–13.
Petitioner contends that “Watatani expressly
describes an etch stop layer that includes ‘three or
more layers’ of silicon nitride.” Pet. 39, 54 (citing Ex.
1005, 7:54–55). Petitioner also contends that
“multilayer silicon nitride layers were well known in
the prior art.” Id. (citing Ex.1003 ¶¶ 105–107).
Petitioner contends that a POSA would have been
motivated to use a multilayer approach because it
would improve the uniformity of the etch stop film
and improve its dielectric properties by avoiding
pinholes. Pet. 40–41, 55 (citing Ex. 1003 ¶¶ 107–109,
143; Ex. 1010, 7 11:8–18); see also Ex. 1003 ¶ 46
(citing Ex. 1008, 8 2-1).
Patent Owner argues that Watatani does not
disclose or suggest an etch stop layer that includes
three or more layers of silicon nitride, as asserted by
Petitioner. Prelim. Resp. 55, 57. In addition, Patent
Owner argues that Watatani’s multilayer etch stop
has no applicability to Watatani’s Figures 1A–F
embodiment and that Dr. Fair has improperly mixed
features of two distinct embodiments. Id. at 56.
Wang et al., US 6,017,791, issued January 25, 2000 (“Wang”).
Continuous Process CVD System, Solid State Technology,
October 1987 (“SST 1987”).

7
8

App. 95
Patent Owner argues that Wang does not provide a
motivation to combine because its silicon nitride
layers are not disclosed as etch stop layers. Id. at 58.
In addition, Patent Owner argues that a POSA
would have had no reasonable expectation that a
multilayer etch stop would decrease the dielectric
constant of Watatani’s first prior art embodiment,
have a dielectric constant below 5.5, or reduce the
stray capacitance of parallel interconnects. Id. at 57–
58, 59, 61.
We begin by noting that Petitioner has waived
any argument that claims 2 and 7 do not require an
etch stop layer that “consists of two or more layers of
silicon nitride.” Pet. 41 (asserting that this potential
claim construction dispute in the related district
court litigation “is not relevant to this Petition”).
On this record, we agree with Patent Owner that
Watatani does not describe an etch stop layer that
includes three or more layers of silicon nitride.
Prelim. Resp. 55. Petitioner cites the following
disclosure in Watatani: “the etching stopper
structure 81 may include three or more layers of
SiO2, SiN or SiC.” Ex. 1005, 7:54–55; see Pet. 39.
Neither Petitioner nor Dr. Fair addresses Watatani’s
teaching that etching stopper structure 81 includes
first etching stopper film 80 and second etching
stopper film 82, which have different compositions.
Id. at (57), 4:62–65, 6:4–11, 6:18–27. Nor do
Petitioner and Dr. Fair address Watatani Figure 5B,
which shows that second etching stopper film 82 is
selectively etched relative to first etching stopper
film 80. Id. at 6:31–40, Fig. 5B; see also id. at 4:66–67
(fabrication process includes the step of “forming a
first opening in said second etching stopper film so as
to expose said first etching stopper film”); see also Ex.

App. 96
2001 ¶ 92. In view of the foregoing, we are
persuaded, at least at this stage of the proceeding,
that Watatani does not disclose the limitations of
claims 2 and 7 under a claim construction that
Petitioner concedes is applicable in this proceeding.
Pet. 41.
Petitioner’s contentions regarding claims 2 and 7
are not, however, based solely on Watatani’s
disclosure of multilayer etch stops. Petitioner also
contends that “multilayer silicon nitride layers were
well known in the prior art.” Pet. 39, 54 (citing
Ex.1003 ¶¶ 105–107). According to Petitioner and
Dr. Fair, multilayer silicon nitride films were
produced by sequential deposition in the normal
operation of the Novellus Concept One CVD tool,
which was widely used in the semiconductor industry
before the filing date of the ’330 patent. Pet. 15, 20,
39, 54; Ex. 1003 ¶¶ 45, 106 (citing Ex. 1008, 1). Dr.
Fair testifies that a POSA “knew that forming silicon
nitride layers in this multi-layer fashion was
advantageous, including because this approach (as
embodied in the Concept One, for example) produced
more uniform thin films.” Ex. 1003 ¶ 46 (citing Ex.
1008, 2-1); see also Pet. 16 (same).
Patent Owner does not dispute Petitioner’s
contentions regarding multilayer silicon nitride films
produced by the Novellus Concept One CVD tool.
Instead, Patent Owner argues that SST 1987 (Ex.
1008) does not disclose forming HD-SiN films of the
type disclosed in Tanaka I and that a POSA would
have understood that depositing multiple layers
would increase the density and consequently the
dielectric constant of the film. Prelim. Resp. 60–61
(citing Ex. 1001, 6:3–7; Ex. 1006, 1; Ex. 2001 ¶¶ 134,
135).

App. 97
After considering both the Petition and
Preliminary
Response,
we
determine
that
Petitioner’s evidence is sufficient to support its
contention that multilayer silicon nitride layers were
known in the art. Pet. 15, 20, 39, 54; Ex. 1003 ¶¶ 45,
106; Ex. 1008, 1. We also determine that Petitioner’s
evidence is sufficient to support its contention that a
POSA would have known of the advantages of a
multilayer approach and would have been motivated
to use that approach in view of its advantages. Pet.
16, 20, 40–41, 55; Ex. 1003 ¶¶ 46, 107–109, 143; Ex.
1008, 2-1; Ex. 1010, 11:8–18. We have considered
Patent Owner’s arguments, but are persuaded that
Petitioner’s evidence is sufficient notwithstanding
those arguments.
Accordingly, after considering the arguments and
evidence presented in the Petition and Preliminary
Response, we are persuaded that Petitioner has
demonstrated a reasonable likelihood of prevailing
on its contention that claims 2 and 7 are
unpatentable as obvious over Watatani and Tanaka
I.
3.
Claims 5 and 10
Claim 5 depends from claim 1 and recites
“wherein the conductor core contains a material
selected from a group consisting of copper,
aluminum, gold, silver, a compound thereof, and a
combination thereof.” Claim 10 depends from claim 6
and recites “wherein the first and second conductor
cores contain materials selected from a group
consisting of copper, gold, silver, a compound thereof,
and a combination thereof.”
Petitioner contends that Watatani discloses the
limitations of claims 5 and 10 by disclosing conductor
cores comprising copper. Pet. 41–42, 56 (citing

App. 98
Ex.1005, 2:1–5, 2:42–47).
Patent Owner submits no arguments regarding
claims 5 and 10 separate from its arguments
regarding claims 1 and 6.
Accordingly, after considering the arguments and
evidence presented in the Petition and Preliminary
Response, we are persuaded that Petitioner has
demonstrated a reasonable likelihood of prevailing
on its contention that claims 5 and 10 are
unpatentable as obvious over Watatani and Tanaka
I.
III. CONCLUSION
For the reasons stated above, we institute an
inter partes review as set forth in the Order. At this
stage of the proceeding, the Board has not made a
final determination with respect to the patentability
of any challenged claim or any underlying factual or
legal issues.
IV. ORDER
It is
ORDERED that, pursuant to 35 U.S.C. § 314(a),
an inter partes review of the ’330 patent is instituted
on the following ground of unpatentability asserted
in the Petition: claims 1, 2, 5–7, and 10 as obvious
under 35 U.S.C. § 103(a) in view of Watatani and
Tanaka I;
FURTHER ORDERED that pursuant to 35 U.S.C.
§ 314(a), inter partes review of the ’330 patent is
hereby instituted commencing on the entry date of
this Order, and pursuant to 35 U.S.C. § 314(c) and 37
C.F.R. § 42.4, notice is hereby given of the institution
of trial; and
FURTHER ORDERED that the inter partes
review is limited to the ground identified above, and
no other ground of unpatentability is authorized.

App. 99
PETITIONER:
Jeremy Lang
Robert Magee
Weil, Gotshal & Manges LLP
Jason.lang@weil.com
Robert.magee@weil.com
PATENT OWNER:
Timothy P. Maloney
Nicholas T. Peters
Fitch, Even, Tabin & Flannery LLP
tim@fitcheven.com
ntpete@fitcheven.com

App. 100
APPENDIX F
28 U.S.C. § 141 - Special sessions; places; notice
(a)
(1) Special sessions of the district court may be
held at such places in the district as the nature
of the business may require, and upon such
notice as the court orders.
(2) Any business may be transacted at a special
session which might be transacted at a regular
session.
(b)
(1) Special sessions of the district court may be
held at such places within the United States
outside the district as the nature of the
business may require and upon such notice as
the court orders, upon a finding by either the
chief judge of the district court (or, if the chief
judge is unavailable, the most senior available
active judge of the district court) or the judicial
council of the circuit that, because of emergency
conditions, no location within the district is
reasonably available where such special
sessions could be held.
(2) Pursuant to this subsection, any business
which may be transacted at a regular session of
a district court may be transacted at a special
session conducted outside the district, except
that a criminal trial may not be conducted at a
special session outside the State in which the
crime has been committed unless the defendant
consents to such a criminal trial.
(3) Notwithstanding any other provision of law,
in any case in which special sessions are

App. 101
conducted pursuant to this section, the district
court may summon jurors—
(A) in civil proceedings, from any part of the
district in which the court ordinarily
conducts business or the district in which it
is holding a special session; and
(B) in criminal trials, from any part of the
district in which the crime has been
committed and, if the defendant so consents,
from any district in which the court is
conducting business pursuant to this
section.
(4) If a district court issues an order exercising
its authority under paragraph (1), the court—
(A) through the Administrative Office of the
United States Courts, shall—
(i) send notice of such order, including
the reasons for the issuance of such
order, to the Committee on the Judiciary
of the Senate and the Committee on the
Judiciary
of
the House
of
Representatives; and
(ii) not later than 180 days after the
expiration of such court order submit a
brief report to the Committee on the
Judiciary
of
the Senate and
the
Committee on the Judiciary of the House
of Representatives describing the impact
of such order, including—
(I) the reasons for the issuance of
such order;
(II) the duration of such order;
(III) the impact of such order on
litigants; and

App. 102
(IV) the costs to the judiciary
resulting from such order; and
(B) shall provide reasonable notice to
the United States Marshals Service before
the commencement of any special session
held pursuant to such order.
(5) If a district court issues an order exercising
its authority under paragraph (1), the court
shall direct the United States marshal of the
district where the court is meeting to furnish
transportation and subsistence to the same
extent as that provided in sections 4282 and
4285 of title 18.
35 U.S.C. § 303 - Determination of issue by
Director
(a) Within three months following the filing of a
request for reexamination under the provisions of
section 302, the Director will determine whether a
substantial new question of patentability affecting
any claim of the patent concerned is raised by the
request, with or without consideration of other
patents or printed publications. On his own
initiative, and any time, the Director may
determine whether a substantial new question of
patentability is raised by patents and publications
discovered by him or cited under the provisions of
section 301 or 302. The existence of a substantial
new question of patentability is not precluded by
the fact that a patent or printed publication was
previously cited by or to the Office or considered by
the Office.
(b) A record of the Director’s determination under
subsection (a) of this section will be placed in the
official file of the patent, and a copy promptly will

App. 103
be given or mailed to the owner of record of the
patent
and
to
the
person
requesting
reexamination, if any.
(c) A determination by the Director pursuant to
subsection (a) of this section that no substantial
new question of patentability has been raised will
be final and nonappealable. Upon such a
determination, the Director may refund a portion
of the reexamination fee required under section
302.
35 U.S.C. § 311 - Inter partes review
(a) IN GENERAL.—
Subject to the provisions of this chapter, a person
who is not the owner of a patent may file with the
Office a petition to institute an inter partes review
of the patent. The Director shall establish, by
regulation, fees to be paid by the person requesting
the review, in such amounts as the Director
determines to be reasonable, considering the
aggregate costs of the review.
(b) SCOPE.—
A petitioner in an inter partes review may request
to cancel as unpatentable 1 or more claims of a
patent only on a ground that could be raised under
section 102 or 103 and only on the basis of prior art
consisting of patents or printed publications.
(c) FILING DEADLINE.—A petition for inter partes
review shall be filed after the later of either—
(1) the date that is 9 months after the grant of
a patent; or
(2) if a post-grant review is instituted under
chapter 32, the date of the termination of such
post-grant review.

App. 104
35 U.S.C. § 312 - Petitions
(a) REQUIREMENTS OF PETITION.—A petition filed
under section 311 may be considered only if—
(1) the petition is accompanied by payment of
the fee established by the Director under
section 311;
(2) the petition identifies all real parties in
interest;
(3) the petition identifies, in writing and with
particularity, each claim challenged, the
grounds on which the challenge to each claim is
based, and the evidence that supports the
grounds for the challenge to each claim,
including—
(A) copies of patents and printed
publications that the petitioner relies upon
in support of the petition; and
(B) affidavits or declarations of supporting
evidence and opinions, if the petitioner
relies on expert opinions;
(4) the petition provides such other information
as the Director may require by regulation; and
(5) the petitioner provides copies of any of the
documents required under paragraphs (2), (3),
and (4) to the patent owner or, if applicable, the
designated representative of the patent owner.
(b) PUBLIC AVAILABILITY.—
As soon as practicable after the receipt of a petition
under section 311, the Director shall make the
petition available to the public.
35 U.S.C. § 313 - Preliminary response to petition
If an inter partes review petition is filed under
section 311, the patent owner shall have the right
to file a preliminary response to the petition,

App. 105
within a time period set by the Director, that sets
forth reasons why no inter partes review should be
instituted based upon the failure of the petition to
meet any requirement of this chapter.
35 U.S.C. § 314 - Institution of inter partes
review
(a) THRESHOLD.—
The Director may not authorize an inter partes
review to be instituted unless the Director
determines that the information presented in the
petition filed under section 311 and any response
filed under section 313 shows that there is a
reasonable likelihood that the petitioner would
prevail with respect to at least 1 of the claims
challenged in the petition.
(b) TIMING.—The Director shall determine
whether to institute an inter partes review under
this chapter pursuant to a petition filed
under section 311 within 3 months after—
(1) receiving a preliminary response to the
petition under section 313; or
(2) if no such preliminary response is filed, the
last date on which such response may be filed.
(c) NOTICE.—
The Director shall notify the petitioner and patent
owner, in writing, of the Director’s determination
under subsection (a), and shall make such notice
available to the public as soon as is practicable.
Such notice shall include the date on which the
review shall commence.
(d) NO APPEAL.—
The determination by the Director whether to
institute an inter partes review under this section
shall be final and nonappealable.

App. 106
35 U.S.C. § 315 - Relation to other proceedings or
actions
(a) INFRINGER’S CIVIL ACTION.—
(1) INTER PARTES REVIEW BARRED BY CIVIL
ACTION.—
An inter partes review may not be instituted if,
before the date on which the petition for such a
review is filed, the petitioner or real party in
interest filed a civil action challenging the
validity of a claim of the patent.
(2) STAY OF CIVIL ACTION.—If the petitioner or
real party in interest files a civil action
challenging the validity of a claim of the patent
on or after the date on which the petitioner files
a petition for inter partes review of the patent,
that civil action shall be automatically stayed
until either—
(A) the patent owner moves the court to lift
the stay;
(B) the patent owner files a civil action or
counterclaim alleging that the petitioner or
real party in interest has infringed the
patent; or
(C) the petitioner or real party in interest
moves the court to dismiss the civil action.
(3) TREATMENT OF COUNTERCLAIM.—
A counterclaim challenging the validity of a
claim of a patent does not constitute a civil
action challenging the validity of a claim of a
patent for purposes of this subsection.
(b) PATENT OWNER’S ACTION.—
An inter partes review may not be instituted if the
petition requesting the proceeding is filed more
than 1 year after the date on which the petitioner,
real party in interest, or privy of the petitioner is

App. 107
served with a complaint alleging infringement of
the patent. The time limitation set forth in the
preceding sentence shall not apply to a request for
joinder under subsection (c).
(c) JOINDER.—
If the Director institutes an inter partes review,
the Director, in his or her discretion, may join as a
party to that inter partes review any person who
properly files a petition under section 311 that the
Director, after receiving a preliminary response
under section 313 or the expiration of the time for
filing such a response, determines warrants the
institution of an inter partes review under section
314.
(d) MULTIPLE PROCEEDINGS.—
Notwithstanding sections 135(a), 251, and 252,
and chapter 30, during the pendency of an inter
partes review, if another proceeding or matter
involving the patent is before the Office, the
Director may determine the manner in which the
inter partes review or other proceeding or matter
may proceed, including providing for stay,
transfer, consolidation, or termination of any such
matter or proceeding.
(e) ESTOPPEL.—
(1) PROCEEDINGS BEFORE THE OFFICE.—
The petitioner in an inter partes review of a
claim in a patent under this chapter that
results in a final written decision under section
318(a), or the real party in interest or privy of
the petitioner, may not request or maintain a
proceeding before the Office with respect to that
claim on any ground that the petitioner raised
or reasonably could have raised during that
inter partes review.

App. 108
(2)

CIVIL

PROCEEDINGS.—

ACTIONS

AND

OTHER

The petitioner in an inter partes review of a
claim in a patent under this chapter that
results in a final written decision under section
318(a), or the real party in interest or privy of
the petitioner, may not assert either in a civil
action arising in whole or in part under section
1338 of title 28 or in a proceeding before
the International Trade Commission under
section 337 of the Tariff Act of 1930 that the
claim is invalid on any ground that the
petitioner raised or reasonably could have
raised during that inter partes review.
35 U.S.C. § 316 - Conduct of inter partes review
(a) REGULATIONS.—The Director shall prescribe
regulations—
(1) providing that the file of any proceeding
under this chapter shall be made available to
the public, except that any petition or document
filed with the intent that it be sealed shall, if
accompanied by a motion to seal, be treated as
sealed pending the outcome of the ruling on the
motion;
(2) setting forth the standards for the showing
of sufficient grounds to institute a review under
section 314(a);
(3) establishing procedures for the submission
of supplemental information after the petition
is filed;
(4) establishing and governing inter partes
review under this chapter and the relationship
of such review to other proceedings under this
title;

App. 109
(5) setting forth standards and procedures for
discovery of relevant evidence, including that
such discovery shall be limited to—
(A) the deposition of witnesses submitting
affidavits or declarations; and
(B) what is otherwise necessary in the
interest of justice;
(6) prescribing sanctions for abuse of discovery,
abuse of process, or any other improper use of
the proceeding, such as to harass or to cause
unnecessary delay or an unnecessary increase
in the cost of the proceeding;
(7) providing for protective orders governing
the exchange and submission of confidential
information;
(8) providing for the filing by the patent owner
of a response to the petition under section 313
after an inter partes review has been instituted,
and requiring that the patent owner file with
such
response,
through
affidavits
or
declarations, any additional factual evidence
and expert opinions on which the patent owner
relies in support of the response;
(9) setting forth standards and procedures for
allowing the patent owner to move to amend
the patent under subsection (d) to cancel a
challenged claim or propose a reasonable
number of substitute claims, and ensuring that
any information submitted by the patent owner
in support of any amendment entered under
subsection (d) is made available to the public as
part of the prosecution history of the patent;
(10) providing either party with the right to an
oral hearing as part of the proceeding;

App. 110
(11) requiring that the final determination in
an inter partes review be issued not later than
1 year after the date on which the Director
notices the institution of a review under this
chapter, except that the Director may, for good
cause shown, extend the 1-year period by not
more than 6 months, and may adjust the time
periods in this paragraph in the case of joinder
under section 315(c);
(12) setting a time period for requesting joinder
under section 315(c); and
(13) providing the petitioner with at least 1
opportunity to file written comments within a
time period established by the Director.
(b) CONSIDERATIONS.—
In prescribing regulations under this section, the
Director shall consider the effect of any such
regulation on the economy, the integrity of the
patent system, the efficient administration of the
Office, and the ability of the Office to timely
complete proceedings instituted under this
chapter.
(c) PATENT TRIAL AND APPEAL BOARD.—
The Patent Trial and Appeal Board shall, in
accordance with section 6, conduct each inter
partes review instituted under this chapter.
(d) AMENDMENT OF THE PATENT.—
(1) IN GENERAL.—During an inter partes
review instituted under this chapter, the patent
owner may file 1 motion to amend the patent in
1 or more of the following ways:
(A) Cancel any challenged patent claim.
(B) For each challenged claim, propose a
reasonable number of substitute claims.
(2) ADDITIONAL MOTIONS.—

App. 111
Additional motions to amend may be permitted
upon the joint request of the petitioner and the
patent owner to materially advance the
settlement of a proceeding under section 317, or
as permitted by regulations prescribed by the
Director.
(3) SCOPE OF CLAIMS.—
An amendment under this subsection may not
enlarge the scope of the claims of the patent or
introduce new matter.
(e) EVIDENTIARY STANDARDS.—
In an inter partes review instituted under this
chapter, the petitioner shall have the burden of
proving a proposition of unpatentability by a
preponderance of the evidence.
35 U.S.C. § 317 - Settlement
(a) IN GENERAL.—
An inter partes review instituted under this
chapter shall be terminated with respect to any
petitioner upon the joint request of the petitioner
and the patent owner, unless the Office has
decided the merits of the proceeding before the
request for termination is filed. If the inter partes
review is terminated with respect to a petitioner
under this section, no estoppel under section 315(e)
shall attach to the petitioner, or to the real party
in interest or privy of the petitioner, on the basis of
that petitioner’s institution of that inter partes
review. If no petitioner remains in the inter partes
review, the Office may terminate the review or
proceed to a final written decision under section
318(a).
(b) AGREEMENTS IN WRITING.—

App. 112
Any agreement or understanding between the
patent owner and a petitioner, including any
collateral agreements referred to in such
agreement or understanding, made in connection
with, or in contemplation of, the termination of an
inter partes review under this section shall be in
writing and a true copy of such agreement or
understanding shall be filed in the Office before
the termination of the inter partes review as
between the parties. At the request of a party to
the proceeding, the agreement or understanding
shall be treated as business confidential
information, shall be kept separate from the file of
the involved patents, and shall be made available
only to Federal Government agencies on written
request, or to any person on a showing of good
cause.
35 U.S.C. § 318 - Decision of the Board
(a) FINAL WRITTEN DECISION.—
If an inter partes review is instituted and not
dismissed under this chapter, the Patent Trial and
Appeal Board shall issue a final written decision
with respect to the patentability of any patent
claim challenged by the petitioner and any new
claim added under section 316(d).
(b) CERTIFICATE.—
If the Patent Trial and Appeal Board issues a final
written decision under subsection (a) and the time
for appeal has expired or any appeal has
terminated, the Director shall issue and publish a
certificate canceling any claim of the patent finally
determined to be unpatentable, confirming any
claim of the patent determined to be patentable,
and incorporating in the patent by operation of the

App. 113
certificate any new or amended claim determined
to be patentable.
(c) INTERVENING RIGHTS.—
Any proposed amended or new claim determined
to be patentable and incorporated into a patent
following an inter partes review under this chapter
shall have the same effect as that specified
in section 252 for reissued patents on the right of
any person who made, purchased, or used within
the United States, or imported into the United
States, anything patented by such proposed
amended or new claim, or who made substantial
preparation therefor, before the issuance of a
certificate under subsection (b).
(d) DATA ON LENGTH OF REVIEW.—
The Office shall make available to the public data
describing the length of time between the
institution of, and the issuance of a final written
decision under subsection (a) for, each inter partes
review.
35 U.S.C. § 319 - Appeal
A party dissatisfied with the final written
decision of the Patent Trial and Appeal Board
under section 318(a) may appeal the decision
pursuant to sections 141 through 144. Any party to
the inter partes review shall have the right to be a
party to the appeal.

